<html>
<title> - TRANSITION TO SOVEREIGNTY IN IRAQ: U.S. POLICY, ONGOING MILITARY OPERATIONS, AND STATUS OF U.S. ARMED FORCES</title>
<body><pre>[Senate Hearing 108-853]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-853
 
                TRANSITION TO SOVEREIGNTY IN IRAQ: U.S.
  POLICY, ONGOING MILITARY OPERATIONS, AND STATUS OF U.S. ARMED FORCES

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 25, 2004

                               __________

         Printed for the use of the Committee on Armed Services



                     U.S. GOVERNMENT PRINTING OFFICE
23-079 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


  

                      COMMITTEE ON ARMED SERVICES

                    JOHN WARNER, Virginia, Chairman

JOHN McCAIN, Arizona                 CARL LEVIN, Michigan
JAMES M. INHOFE, Oklahoma            EDWARD M. KENNEDY, Massachusetts
PAT ROBERTS, Kansas                  ROBERT C. BYRD, West Virginia
WAYNE ALLARD, Colorado               JOSEPH I. LIEBERMAN, Connecticut
JEFF SESSIONS, Alabama               JACK REED, Rhode Island
SUSAN M. COLLINS, Maine              DANIEL K. AKAKA, Hawaii
JOHN ENSIGN, Nevada                  BILL NELSON, Florida
JAMES M. TALENT, Missouri            E. BENJAMIN NELSON, Nebraska
SAXBY CHAMBLISS, Georgia             MARK DAYTON, Minnesota
LINDSEY O. GRAHAM, South Carolina    EVAN BAYH, Indiana
ELIZABETH DOLE, North Carolina       HILLARY RODHAM CLINTON, New York
JOHN CORNYN, Texas                   MARK PRYOR, Arkansas

                    Judith A. Ansley, Staff Director

             Richard D. DeBobes, Democratic Staff Director

                                  (ii)

  




                            C O N T E N T S

                               __________

                    CHRONOLOGICAL LIST OF WITNESSES

   Transition to Sovereignty in Iraq: U.S. Policy, Ongoing Military 
              Operations, and Status of U.S. Armed Forces

                             june 25, 2004

                                                                   Page

Wolfowitz, Hon. Paul D., Deputy Secretary of Defense.............     6
Armitage, Hon. Richard L., Deputy Secretary of State.............    17
Myers, Gen. Richard B., USAF, Chairman, Joint Chiefs of Staff....    21

                                 (iii)


                TRANSITION TO SOVEREIGNTY IN IRAQ: U.S.
  POLICY, ONGOING MILITARY OPERATIONS, AND STATUS OF U.S. ARMED FORCES

                              ----------                              


                         FRIDAY, JUNE 25, 2004

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:33 a.m., in 
room SD-106, Dirksen Senate Office Building, Senator John 
Warner (chairman) presiding.
    Committee members present: Senators Warner, McCain, 
Roberts, Allard, Sessions, Talent, Dole, Levin, Kennedy, 
Lieberman, Reed, Akaka, E. Benjamin Nelson, Dayton, Bayh, 
Clinton, and Pryor.
    Committee staff member present: Judith A. Ansley, staff 
director.
    Majority staff members present: Charles W. Alsup, 
professional staff member; Ambrose R. Hock, professional staff 
member; Thomas L. MacKenzie, professional staff member; Elaine 
A. McCusker, professional staff member; Paula J. Philbin, 
professional staff member; Lynn F. Rusten, professional staff 
member; and Scott W. Stucky, general counsel.
    Minority staff members present: Richard D. DeBobes, 
Democratic staff director; Daniel J. Cox, Jr., professional 
staff member; Richard W. Fieldhouse, professional staff member; 
Gerald J. Leeling, minority counsel; Peter K. Levine, minority 
counsel; and William G.P. Monahan, minority counsel.
    Staff assistants present: Michael N. Berger, Alison E. 
Brill, and Nicholas W. West.
    Committee members' assistants present: Christopher J. Paul, 
assistant to Senator McCain; Darren M. Dick, assistant to 
Senator Roberts; Lindsey R. Neas, assistant to Senator Talent; 
Christine O. Hill, assistant to Senator Dole; Sharon L. Waxman 
and Mieke Y. Eoyang, assistants to Senator Kennedy; Erik Raven, 
assistant to Senator Byrd; Frederick M. Downey, assistant to 
Senator Lieberman; Elizabeth King, assistant to Senator Reed; 
Davelyn Noelani Kalipi and Richard Kessler, assistants to 
Senator Akaka; Eric Pierce, assistant to Senator Ben Nelson; 
Rashid Hallaway, assistant to Senator Bayh; Andrew Shapiro, 
assistant to Senator Clinton; and Terri Glaze, assistant to 
Senator Pryor.

       OPENING STATEMENT OF SENATOR JOHN WARNER, CHAIRMAN

    Chairman Warner. The committee meets today to receive 
testimony on the transition to sovereignty in Iraq, now just 
days away. We welcome our witnesses. Deputy Secretary of 
Defense, Paul Wolfowitz; Deputy Secretary of State, Paul 
Armitage; and General Richard Myers are witnesses who are well 
qualified in their experience to discuss this topic, as they 
have been intimately involved in it now from the very 
beginning.
    Secretary Wolfowitz, in addition, has just returned days 
ago from his most recent trip to the region. You have made your 
own assessment of this transition. In 5 days the sovereignty of 
Iraq will pass to an interim Iraq government as Iraq continues 
its path to elections and a hopeful democratic future. The past 
few months have been very challenging, how well we all know 
from the continuing evolving violence against the military 
forces, against the new Iraqi government, and against innocent 
civilians, their own people.
    We are reminded that Iraq remains a very dangerous place. 
In addition, we have witnessed evidence of abusive misconduct 
by a very small number of our troops involved in detention 
facilities. Our committee will continue to look into these 
incidents and work with the Department to ensure that 
corrective measures are taken. We cannot allow the misguided 
actions of the few to tarnish the honorable efforts and 
achievements of the vast majority of our service persons in 
Iraq and around the world. We are ever mindful of the risks our 
troops face every day and the sacrifices made by their families 
that support them, and indeed, the communities that support 
them.
    The recent brutal murders of innocent civilians, including 
Americans and other foreign nationals in Iraq and Saudi Arabia, 
remind us and remind the world of the cruel, depraved nature of 
those who oppose us in the global war on terrorism. Those who 
have been removed from power in Iraq and Afghanistan are 
seeking to delay their inevitable defeat and prevent others 
from realizing their hopes for freedom and democracy. We mourn 
every loss of life, every loss of limb, and salute those who 
serve with courage in the cause of freedom with the support of 
their families and with our support.
    The timing and importance of this hearing cannot be 
overstated. We are at a critical juncture for coalition efforts 
in Iraq. The passage 2 weeks ago of a new U.N. Security Council 
Resolution 1546 provides the appropriate means to continue our 
support for efforts to stabilize and democratize Iraq and to 
encourage increased participation by the rest of the 
international community. It is in support of this extremely 
important endeavor, as part of this resolution, the United 
Nations (U.N.) and the new interim government of Iraq, have 
requested the continued presence of a U.S.-led, multinational 
force to assist in establishing security and stability in Iraq 
so that a democratic political process can continue.
    Progress made by our Armed Forces, together with our 
coalition partners, presents an opportunity to fully defeat 
violence and terror in Iraq, as the Nation's previous ruler 
perpetrated violence and terror on his population, his 
neighbors, and was a threat to the world. The cycle of violence 
that has gripped this part of the world must end if we are to 
win the global war on terrorism and make America and the world 
a safer place. Any deviation, any hesitation from our current 
course will only embolden those who are intent on fomenting 
instability and anarchy and terrorism.
    We have achieved extraordinary successes in a relatively 
short period of time. Saddam Hussein and the threat he posed 
are gone. A new Iraqi government will assume power. 
Infrastructure and institutions are being rebuilt. The future 
is hopeful for the Iraqi people. People are encouraged. This 
morning, the polls show the Iraqi people reposing confidence in 
this new government. We must continue to send a strong message 
of resolve to the people of Iraq, to our troops, to our 
coalition partners, and to the rest of the world that we will 
stay the course and get the job done.
    Continued U.S. commitment to Iraq after the June 30 
transition is of enormous importance to the Iraqi people and to 
the region. A free democratic Iraq means defeat for the forces 
of terrorism and instability in Iraq. Clearly, the recent 
violence is related to the imminent transfer of sovereignty. 
Those who fear democracy are trying to delay its arrival. Those 
who incite terror realize their days are numbered. Opponents of 
a free democratic Iraq are desperate and will become even more 
desperate in the days ahead. We will stay the course.
    The President's action is a brave and a consistent one. He 
has determined we will succeed. We will, and we must. I applaud 
President Bush for his consistent efforts, efforts that began 
in September 2002 at the U.N. to build and expand the coalition 
of nations who have the courage and conviction to fight terror 
in order to make the region and the world a better place and a 
safer place.
    Many countries shared in the effort to liberate Iraq. More 
are participating in rebuilding Iraq and assisting in building 
a democratic institution. Currently, 38 nations are involved in 
this endeavor. We all hope more will join. This is critically 
important work that deserves the support of all responsible 
members of the international community. The entire world will 
benefit from a success and freedom in that region. We will 
suffer in the world if we fail to establish our goals.
    I welcome the increased participation of the U.N. in the 
political transition process and the re-establishment of a U.N. 
assistance mission in Iraq, and we share the President's desire 
as he leaves our shores today to go abroad to join those in 
Turkey at a North Atlantic Treaty Organization (NATO) 
conference, and to carry with him the message of the Prime 
Minister of Iraq that he needs help, his people need help. I am 
encouraged by the initial response of some of the NATO members.
    We have many questions that lie ahead. How will 
multinational force operations be coordinated with Iraq's 
security forces and the interim Iraqi government after June 30? 
What will be the status of U.S. and coalition forces in a 
sovereign Iraq, and how can those forces be protected from 
unwarranted or unjustified litigation under the forthcoming 
Iraqi law? What steps remain in the process leading to 
elections of a permanent Iraqi government? What will be the 
status of ongoing reconstruction activities? What progress has 
been made in training, equipping, mentoring, and fielding 
effective Iraqi security forces? When will they be ready to 
assume primary responsibility for the internal and external 
defense of their own nation? What role will U.S. forces play in 
the detention of prisoners after the transfer of sovereignty, 
most importantly including the custody and interrogation of the 
high interest prisoners, such as Saddam Hussein?
    Consequently, this hearing today is a full opportunity for 
this committee with those probably best qualified to give us 
answers and give the Nation and the world the positions of this 
country. I hope our witnesses can provide insights into these 
issues.
    Lasting peace and security in Iraq will be achieved when we 
establish the conditions for a democratic, economically viable 
nation. The first steps to democracy have been taken and a new 
government is preparing to assume the responsibilities and 
challenges of freedom and democracy. This new interim Iraqi 
government will need the continued support and commitment of 
the United States Congress, the American people, and the 
international community. Their success will stand as a beacon 
of hope to others and a turning point in the war against 
terrorism and violence.
    Senator Levin.

                STATEMENT OF SENATOR CARL LEVIN

    Senator Levin. Thank you, Mr. Chairman, and thank you for 
calling this important hearing. Over the last few weeks, we 
have seen movement in Iraq on political matters with the 
formation of the interim Iraqi government and the planned 
transfer of full sovereignty next week. Although late in 
coming, there is finally a real diplomatic effort on the part 
of the administration to obtain input and support of the broad 
international community, as reflected in the unanimous vote for 
the U.N. Security Council Resolution. Now we need a major 
administration effort to enlist Muslim countries and to enlist 
NATO to provide needed troops, police, and security personnel.
    We have recently seen major setbacks in the security 
situation in Iraq, including political assassinations of Iraqi 
government officials and car bombings and other attacks, which 
have produced casualties among U.S. and coalition soldiers, and 
killed scores and seriously injured hundreds of ordinary Iraqi 
civilians and security personnel.
    The U.S. effort in Iraq is truly a race against time, a 
race to establish a significant level of security that will 
allow the political process to go forward with the convening of 
the national conference in July and the elections of a national 
assembly in December. It is a race against time because the 
United States appears to be losing the war for the hearts and 
minds of the Iraqi people. According to press reports, a recent 
poll conducted by the Coalition Provisional Authority (CPA), 
but not released to the public, indicated that an overwhelming 
92 percent of Iraqis view the coalition forces as occupiers, 
and only 2 percent as liberators. In fact, 55 percent of the 
Iraqi people said that would feel safer if U.S. troops left 
immediately.
    At the same time, it is interesting to note and 
discouraging to note that 81 percent of the Iraqis polled said 
that they had an improved opinion of Muqtada Sadr and 64 
percent said the actions of his militia have made Iraq more 
unified. While their opinion of Sadr is improving, their 
opinions of Americans are certainly not. Fifty-four percent of 
Iraqis believe that all Americans act like those who 
perpetrated the abuses at Abu Ghraib. We have a problem.
    There are still more questions than answers concerning Abu 
Ghraib, and the larger issue concerning the methods of 
interrogation and the treatment of detainees in Iraq, 
Afghanistan, and Guantanamo Bay. Every day there are more 
revelations that appear to involve senior U.S. Government 
officials in decisions to disregard tenets of the Geneva 
Conventions. This has adverse effects on the future well being 
of our troops and on our ability to establish security and 
stability in Iraq. It makes it more difficult to attract allies 
to help us wage a comprehensive political, economic, and 
military campaign against the conditions and forces that breed 
terrorism throughout the world.
    There are a large number of unresolved issues surrounding 
the ending of the occupation and the evolving relationship with 
a newly sovereign Iraqi government. Chief among those are 
issues concerning the operation of the multinational force and 
its relationship with Iraqi security forces. The letters from 
Secretary Powell and Prime Minister Allawi annexed to U.N. 
Security Council Resolution 1546 agree that unity of command 
will be achieved through coordination in the Iraqi Ministerial 
Committee for National Security and other coordinating bodies 
at national, regional, and local levels. We need to understand 
how these coordinating mechanisms will operate in practice.
    The letter from Secretary Powell states that the, 
``Multinational Force must continue to function under a 
framework that affords the force and its personnel the status 
that they need to accomplish their mission and in which the 
contributing states have responsibility for exercising 
jurisdiction over their personnel.'' He further states that 
``the existing framework governing these matters is sufficient 
for these purposes.'' Our witnesses today will hopefully 
describe specifically how U.S. soldiers and contractors will be 
assured legal protections as they perform their missions in 
Iraq.
    We need to reverse the view of Iraqis of the allied forces 
as occupiers. That means that the interim Iraqi government must 
have real decisionmaking power and must also be able to direct 
reconstruction resources to projects that have immediate effect 
on the daily lives of Iraqis. The ordinary Iraqi must see the 
interim government as an entity that has a positive impact on 
his or her life, and as an entity that merits support. Then 
Iraqis will see the insurgents as a threat to their own well 
being rather than as a force against the occupier.
    Only an Iraqi government which commands popular support can 
defeat the ongoing insurgents. With support comes intelligence 
that enables successful action against the insurgents. With 
successful action comes security and further legitimacy for the 
government. The challenge for the United States is to support 
that process in a way that enhances the Iraqi government's 
legitimacy and promotes that security. Thank you, Mr. Chairman.
    Chairman Warner. Thank you very much. Gentlemen, we are 
underway.
    Secretary Wolfowitz.

   STATEMENT OF HON. PAUL D. WOLFOWITZ, DEPUTY SECRETARY OF 
                            DEFENSE

    Secretary Wolfowitz. Mr. Chairman, I have given you a 
fairly lengthy written statement, which I would be happy to put 
in the record.
    Chairman Warner. Statements of all witnesses will be placed 
in the record.
    Secretary Wolfowitz. I would just like to make a few, 
hopefully brief, comments basically about the trip that I just 
came back from. I went to Iraq with, among other people, our 
Vice Chief of Staff of the Army, General George Casey, and I 
want to say I appreciate the very speedy action that you and 
your committee took in considering to nominate General Casey to 
be the commander of multinational force Iraq. He is an 
outstanding officer and a lot is going to ride on his shoulders 
going forward. So I thank the committee for its speedy action.
    The purpose of my trip was twofold, in part, as always, to 
visit our magnificent troops. I did get to visit all five 
American divisions as well as a British division and talked 
with the Polish commander. One cannot help but over and over 
again be impressed by the skill and the resourcefulness and the 
intelligence, and most of all the courage of our men and women 
who are in the front lines. I want to express my appreciation 
and admiration for them and what they have done.
    I think also this is a good occasion, since the CPA will be 
out of business in just a few more days, to express 
appreciation for the sacrifice that so many civilians and 
military have contributed to that effort, also risking their 
lives, and unfortunately in a number of cases, sacrificing 
their lives for an enormously important cause.
    I would also particularly like to pay tribute to the 
courage of the journalists who cover this war who 34 of them 
have given their lives. This is a dangerous theater. It is 
dangerous just to be there. It is particularly dangerous to be 
up there on the front lines, but our troops' morale is 
fantastic. They believe and know that they are doing an 
important job and they believe that they are succeeding.
    The second purpose of this visit was to lead a 
multinational team, including General Casey; the deputy chief 
of mission of our new embassy that will be stood up in Iraq, 
Ambassador Jim Jeffrey, my counterpart in the U.K.; and a 
representative of the Polish government, for extensive 
discussions with Prime Minister Allawi and his new national 
security team, the Defense Minister, the Interior Minister, and 
the National Security Advisor, to discuss his plans for Iraq's 
security strategy, how to defeat, what he calls correctly, this 
evil enemy, and his plans for standing up Iraqi security forces 
that can win this fight. In the long run, the key to success 
here is not American troops--it is Iraqi police; it is Iraqi 
National Guard; it is Iraqi Army; it is Iraqis ready to stand 
up and fight for their own country. In fact, by our own count I 
might mention that more than 400 Iraqis have already died in 
the line of duty alongside our forces fighting that enemy.
    Our impression overall was very positive. Prime Minister 
Allawi is a forceful, thoughtful man who clearly conveyed a 
sense of strength and determination. That I think is what he is 
conveying to the Iraqi people on a daily basis. He understands 
that the security problem is the biggest problem facing the 
Iraqi people and he is determined first and foremost to be able 
to solve that. That is the key in turn to moving forward to 
elections, which is the next important step in Iraq's political 
process.
    A recurrent theme in our discussions was the importance of 
the Iraqi army as a symbol of national strength. The Prime 
Minister has made no secret of his disagreement with the 
earlier decision to disband the army. I would not be surprised 
if, at least in some symbolic way, he reverses that.
    More importantly, substantively what he wants to do and 
what his plan envisions is bringing back significant numbers of 
officers from the old Iraqi army. It is a process that we had 
started, but I think that will very much accelerate under his 
plan.
    The general tenor of our discussions was to explain to him 
and his national security team the efforts that are already 
underway on the American side, on the coalition side, an effort 
that has now been consolidated, as I think you know, under a 
three-star U.S. Commander, Lieutenant General Dave Petraeus. 
Our goal is to build Iraqi's security capacity as rapidly as 
possible. We were, I will admit, going in a bit concerned that 
perhaps the Prime Minister would have a totally different plan 
and try to change course 90 degrees or 180 degrees. As General 
Petraeus himself has said, this is a super tanker, not a speed 
boat. It cannot turn on a dime.
    I am happy to report that the Prime Minister's plans mesh 
quite well with what is already underway, but take it in a 
somewhat different direction in line with his own ideas about 
the structure of the Armed Forces, and ultimately it will be 
more ambitious. In that regard, however, we emphasize that our 
plan already commits most of the resources under the U.S. 
supplemental appropriation that were dedicated to security 
forces, some $3.2 billion of the $18.6 billion, as I think you 
know, were allocated to security. After an initial slow start, 
a great deal of equipment is now arriving for all levels of 
Iraqi security forces under that appropriation.
    Prime Minister Allawi understands very clearly the 
importance of prioritization, that you do first things first 
and second things second, and if there are things that you 
would like to do that you cannot afford, you make sure they are 
lowest on your priority list. We also agreed that if we need 
additional resources, there are, for one thing, the 
possibilities of finding some within the Iraqi budget. It is 
worth pointing out that Iraq has already committed, and this is 
a significant figure, $20 billion of its own resources. That is 
a pretty impressive number--$20 billion of Iraqi resources have 
already gone into funding the government and funding 
reconstruction, including 350,000 teachers, 100,000 doctors, 
more than 2,000 schools, almost 250 hospitals, over $1 billion 
in improving the electricity infrastructure. This is all from 
Iraqi funds, and there is more coming in, additional billions, 
of course, from oil revenues, and of course that is one the 
major targets of the enemy is to try to reduce oil production.
    But as substantial as those numbers sound, they have to go 
a very long way, so I think both of us believe that one of the 
first places to go for help in training and equipping Iraqi 
security forces is to the international community, including 
starting with NATO at the summit coming up in Istanbul. Prime 
Minister Allawi has written to the NATO Secretary General 
soliciting NATO support in a number of areas, including 
military contributions to providing additional forces, 
particularly for U.N. security, but importantly, for training 
and equipping Iraqi security forces.
    In my statement, I outline the priorities he assigns to the 
various Iraqi forces, the Iraqi intervention force, the Iraqi 
special operations force, and the Iraqi National Guard, which 
is based on what we had started to develop as the Iraqi civil 
defense corps. I do not know whether it is the Arabic 
translation or whether it is just the words themselves, but the 
Iraqis explained to us that civil defense corps sounds to 
people like the fire department. It is really more like a 
branch of the army.
    But it is not just a change of name. It will be organized 
into a brigade and division structure with 18 national guard 
brigades, which provides 1 for each province, and 6 divisions. 
They would also like to put a corps structure on top of that, 
but I think they were persuaded that that is something that can 
wait.
    We do not think the resource requirements for these 
headquarters will be enormous, because we are not talking about 
expeditionary headquarters of the type that we would deploy, 
but resources have got to be taken into account. From the Prime 
Minster's point of view, it is an enormously important 
opportunity to bring back clean officers from the old army. I 
emphasize that problem that he will face of how to vet out the 
bad ones from that barrel, but he is determined to move ahead, 
and he has the skill and wisdom to do so.
    As I indicated and as Senator Levin alluded to in his 
statement, the Iraqis are eager to get additional international 
contributions, with the exception that they believe neighboring 
states should not do so because of the political issues that 
raises. We and they are focused in particular on getting 
additional international contributions to support the U.N.'s 
activities in Iraq. We think that is one mission that more 
countries can and should be able to contribute to.
    I would like to close--I started by commenting on the 
courage of the Americans who were participating in this 
effort--it is important to close with a comment about the 
courage of the Iraqis. The Prime Minister himself is an 
incredibly brave man. He was attacked in 1979, outside his 
apartment in London, by one of Saddam's agents. He was alerted 
just in time to get his head out of the way of the ax, but he 
was nearly chopped in two. He spent a year in the hospital. His 
wife was permanently institutionalized from the nervous 
breakdown she suffered as a result.
    We met with the President of Iraq, a remarkable man named 
Ghazi Al-Yawar. Some of you had the opportunity to meet with 
him when he was in Washington a couple of weeks ago. He is a 
leading figure in the Shammar tribe, which is one of the 
largest tribes in Iraq, a tribe by the way that is a mixture of 
Shia and Sunni, which is apparently a not unknown Iraqi 
phenomenon. His predecessor was assassinated with a car bomb 
just a month before, just about 2 months ago when Sheikh Ghazi 
became the President of the interim Governing Council, because 
his predecessor was murdered.
    We met with the Deputy Prime Minister, a man named Barham 
Salih, who many of us have known for a long time. He was back 
in 2002 the target of an assassination attempt by al Qaeda-
associated killers who had apparent connections to Iraqi 
intelligence.
    We visited the Marines in Fallujah and met a young marine 
private first class who had been wounded in action and whose 
life had been saved by the heroism of five Iraqi civil defense 
corps members who put their own lives in danger to rescue that 
marine.
    I could go on, but most movingly of all, we met this very 
dynamic, impressive young Iraqi Kurdish woman who was our 
interpreter in Mosul. Her sister was assassinated just a few 
weeks ago because she was working for the Americans. My 
military assistant, who knew her from when he was with the 
101st Division up north, asked her, ``why do you keep doing 
this?'' She said, ``because my father told me, `you must never 
retreat in the face of evil'.''
    These people are staring evil in the face. They know what 
their enemies want to do. They are standing up with enormous 
courage. They are counting on our support and our help, but 
they are prepared to face death in the face because they 
understand what the stakes are. This enemy has one and only one 
skill and that is killing and destroying mostly innocent 
people. That is its strength, but I think it is also its 
weakness, because the overwhelming majority of Iraqis want 
peace and security and the opportunity to build a new Iraq that 
this enemy is trying to frustrate.
    That, Mr. Chairman, is why I am convinced that they can 
step up to this job. They will step up to this job. The plan 
that the President laid out a few weeks ago, moving first to a 
sovereign government on July 1, is a plan that leads to Iraqi 
self government and Iraqi self defense, which is the key to 
victory in this incredibly important fight.
    I thank the committee for the support you continue to give 
our troops. They are enormously appreciative of the kind of 
help they get from back here. They deserve every bit of it, and 
I express my thanks and gratitude.
    [The prepared statement of Secretary Wolfowitz follows:]

              Prepared Statement by Hon. Paul D. Wolfowitz

    Mr. Chairman, Senator, members of the committee, I am happy to be 
here today to testify on the recent progress in the transition to Iraqi 
sovereignty and my talks last week with Prime Minister Allawi and his 
national security team.
    As President Bush noted recently, the selection of the Iraqi 
interim government ``brings us one step closer to realizing the dream 
of millions of Iraqis: a fully sovereign nation with a representative 
government that protects their rights and serves their needs.''
    The transition to Iraqi sovereignty represents the culmination of 
the more than a year-long partnership between the Iraqi people and the 
coalition forces serving in Iraq, working together to create a secure 
environment in which freedom and prosperity can grow. Whether from 
Australia or El Salvador, Poland or the Philippines, we owe a sincere 
debt of gratitude to the roughly 23,000 men and women from our 32 
coalition partners.
    Of course, our prayers continue to be with all of our people 
currently serving in Iraq. I returned last week from a 4\1/2\ day trip 
that took us to northern, central western and southern Iraq, visiting 
all five American divisions as well as the British and Polish division 
commanders in Iraq. In temperatures consistently above 100 degrees, I 
saw firsthand the tremendous work our brave young Americans are doing, 
and with every trip I make to Iraq I am consistently amazed at the 
leaps in progress they are achieving.
    They are making America--and the world--more secure by helping the 
Iraqi people to plant the seeds of peaceful, representative government 
in the heart of the Middle East--a potentially watershed moment in the 
global war on terror. Whether members of active duty, Reserve, or 
National Guard units, or civilians working with the CPA or one of many 
nongovernmental organizations (NGOs) active in Iraq, these heroes 
embody the best ideals of our Nation. They serve so that others may be 
free and Americans can be secure, and we thank them all for the 
sacrifices they endure.
    Finally, on behalf of these brave Americans, let me express thanks 
to Congress and the members of this committee for the bipartisan 
support you give our Armed Forces. The $25 billion supplemental you 
approved unanimously will ensure that our forces continue to have the 
resources necessary to complete their missions in Iraq and Afghanistan. 
You have signaled to the world, both to our allies and to our enemies, 
America's commitment to see this new struggle against tyranny and 
barbarism through to the end.
    Additionally, I would like to personally thank the members of this 
committee for your support of the Commander's Emergency Response 
Program and the Train and Equip authorities to help U.S. military 
forces secure and stabilize Iraq and Afghanistan, enhance the ability 
of these countries' military and security forces to combat terrorism 
and support U.S. and coalition military operations. Both provisions are 
extremely vital tools as we work to rebuild Iraq and provide security 
for our troops. The Department will continue to work with the members 
to increase the train and equip authority to the President's requested 
amount of $500 million in fiscal year 2005.

                          OUR STRATEGY IN IRAQ

    Speaking at the United States Air Force Academy Graduation Ceremony 
3 weeks ago, President Bush outlined the strategy for helping Iraqis 
achieve a fully constitutional government, one that enables Iraq to 
preserve its territorial integrity, reject weapons of mass destruction 
and terrorism, and live peacefully with its neighbors. The strategy 
involves five interdependent phases to build Iraqi capacity and 
transfer responsibilities from the coalition to Iraq rapidly--but not 
recklessly.
Transferring Authority to a Sovereign Iraq
    The first phase of the President's plan will become effective on 
June 30 when the CPA transfers authority to the Interim Iraqi 
Government--a body that will consist of a president, two deputy 
presidents, a prime minister, and 26 ministries, and will be 
responsible for day-to-day governing of Iraqi state affairs and will 
work as a full partner in providing security to Iraq. On July 1, U.S. 
Embassy Iraq will open for business as a full partner in helping to 
bring democracy, prosperity, and security to Iraq.
    When Iraq becomes sovereign on June 30, our engagement will 
naturally change. But our commitment will not. During this stage, our 
focus will rest on shaping and supporting Iraq's political transition 
and particularly on setting the stage for national elections.
Security
    Security is the foundation for victory in Iraq--the foundation on 
which all other successes in Iraq are built. As President Bush noted, 
we are again at war against philosophies of death and tyranny. In Iraq, 
the forces presently trying to derail Iraq's progress towards democracy 
include the killers who used to work in Saddam's fascist intelligence 
services and the Fedayeen Saddam, al Qaeda-inspired foreign terrorists, 
and the gangs that follow Muqtada al-Sadr. Accordingly, a critical step 
in the strategy is to help Iraqis fashion the stability and security on 
which representative government depends.
    Since the beginning of our mission in Iraq, a principal goal has 
been to encourage and enable Iraqis to defend, guard and police Iraq 
for themselves. It is far better that Iraqis--who have a native 
knowledge of everything from city neighborhoods and regional accents to 
religious sensitivities and even local license plates--deal with 
problems unique to Iraq. Allowing them to take the lead in securing 
Iraq is a major key to victory over the enemies of a free Iraq.
    Although there are currently over 200,000 Iraqi security forces on 
duty or in training, Iraq's security forces are still a work in 
progress. They require training, equipment, leadership and team-
building to be able to handle continuing threats--internal and 
external--on their own. We have accelerated our efforts to recruit, 
train, equip, and, most importantly, mentor Iraqi security forces. 
However, U.S. and other international forces will remain indispensable 
to preserving security while Iraqi forces build their strength. This is 
recognized in U.N. Security Council Resolution 1546, which reaffirms 
the authorization for multinational force-Iraq.
    U.S. forces in Iraq will remain under U.S. command and will have 
clear rules of engagement. U.S. commanders, however, will coordinate 
security efforts closely with their Iraqi counterparts. These troops 
will be maintained at the level required to do the job, as our 
commanders in Iraq constantly reassess the numbers of troops they need. 
As we have often said, and as the President reiterated in his recent 
address to the Nation, if our commanders on the ground ask for more 
troops, they will get more troops.
Rebuilding Iraq's Infrastructure
    The third step in the President's plan for victory in Iraq involves 
rebuilding Iraq's civil infrastructure-deeply damaged by decades of 
Saddam's neglect and the ravages of three wars Saddam brought upon his 
people. At present, 16 ministries which will address such programs--to 
include Health, Education and Public Works and Municipalities--have 
been handed over to Iraqis who are running these ministries with full 
authority. We will continue to work with Iraqis to build on what has 
already been achieved in areas such as healthcare and education.
Enlisting International Support
    Investment in Iraq's success is not just an American investment, it 
is one that must be shared by the international community. The fourth 
step in the President's plan involves enlisting additional 
international support for Iraq's transition to democracy. The U.N. will 
play a critical role in that process. In the last couple of weeks, the 
U.N. Security Council unanimously passed Resolution 1546, endorsing the 
transition timetable adopted by Iraqis and encouraging other U.N. 
members to add their support. The international community at large will 
continue to play a key role in helping Iraq stand on its own feet 
through such actions as economic assistance, debt relief, and continued 
military support. 
Continue Building on Iraq's Capacity for Self-Government
    The fifth step in the President's plan involves nurturing Iraq's 
capacity for representative self-government that will lead to a 
constitutional government by the end of 2005. The interim government 
will serve until representatives to a transitional government are 
elected, no later than the end of January 2005--the first free 
elections held in Iraqi history.
    By the end of 2005, Iraqis are scheduled to vote on a new 
constitution that will protect the rights of all Iraqi citizens 
regardless of their religion or ethnicity. This is the historic point 
when Iraq will have the necessary legitimacy for durable self-rule. 
During this process Iraqis will decide for themselves the exact 
structure of their permanent government and the provisions of their 
Iraqi constitution.
    As important as clarity about these five phases of our strategy is, 
it is equally important that we maintain the ability to adjust to 
rapidly evolving conditions in Iraq. For history has demonstrated that 
even the best laid plans for post-war reconstruction can go awry if not 
matched to the realities on the ground. For example, in World War II 
post-war planning for the reconstruction of Germany began 3 years 
before the end of the war. Before the German surrender, the Joint 
Chiefs of Staffs blueprint for the occupation of Germany, JSC 1067, 
specified tough programs to ``prevent Germany from ever again becoming 
a threat to the peace of the world.'' No sooner did military and 
civilian officials arrive in devastated Germany after the war than they 
began to realize this plan was wholly inadequate. All of the programs 
specified in JCS 1067, the result of 3 years worth of planning, either 
failed or were aborted. Eventually, more than 2 years after Victory in 
Europe (VE) day, JCS 1067 was replaced altogether by JCS 1779, which 
stressed the goal of a ``stable and productive Germany.''
    That history demonstrates that the key to post-war reconstruction 
lies not in impressive looking paperwork devised thousands of miles 
away from the frontline, but flexibility when planning meets reality. 
In reconstruction, as in war, plans are at best the basis for future 
changes. Whereas it took the United States more than 2 years to alter 
its plans after World War II, in less than 15 months this coalition has 
repeatedly demonstrated that it can be flexible when necessary, and it 
has done so in the face of an evil enemy that continues to kill and 
destroy.
    Examples of this flexibility include:

        <bullet> Creating a new type of indigenous force (the Iraqi 
        Civil Defense Corps) to fill the gap between the Iraqi police 
        service and an army oriented to external defense;
        <bullet> Requesting a large supplemental when the requirements 
        for Iraqi reconstruction became clear;
        <bullet> Responding to Iraqi demands for a more rapid 
        resumption of sovereignty by developing the idea of a 
        transitional government that could take power before a 
        permanent constitution is ratified;
        <bullet> Dropping the ``caucus plan'' for selecting the 
        transitional government, when it turned out to be unpopular 
        with Iraqis, and substituting a two-step process involving an 
        interim government that will take power before legislative 
        elections;
        <bullet> Revising the mechanisms for implementing the de-
        Baathification policy to address complaints that the appeals 
        process was not working as intended, and to respond to the 
        Sunni minority's fears of marginalization.

    Although the reconstruction plans first envisioned in the summer of 
2002, and submitted by the CPA to Congress last July have undergone 
substantial changes, it has been the coalition's ability to adapt to 
rapidly changing circumstances that has brought us now to the transfer 
of sovereignty, and the beginning of representative government in Iraq.

                      THE IRAQI INTERIM GOVERNMENT

    The first phase of the President's plan takes effect on June 30, 
when the CPA will cease to exist, transferring all governmental 
authority to the Iraqi interim government. This interim government was 
formed through a process of wide-ranging consultation with Iraqis, 
including political leaders, religious and tribal leaders, and civic 
associations. The process was led by Ambassador Lakhdar Brahirni, 
Special Adviser on Iraq to the Secretary General of the United Nations, 
working in consultation with the CPA and the Iraqi Governing Council.
    The Iraqi interim government consists of a President, two Deputy 
Presidents, and a Prime Minister leading a Council of Ministers. The 
new government will also include an interim national council and a 
judicial authority. The interim national council will be chosen by a 
national conference, to be held in July, involving at least a thousand 
Iraqis from across Iraq, and representing every province in the 
country, as well as various political parties, tribal leaders, trade 
and professional unions, universities, and religious leaders.
    The composition of the Iraqi interim government is as follows:

        President of Iraq--Sheikh Ghazi Ajil Al-Yawar
        Deputy President of Iraq--Dr. Ibrahim Jaafari
        Deputy President of Iraq--Dr. Rowsch Shaways
        Prime Minister of Iraq--Dr. Ayad Allawi
        Deputy Prime Minister--Dr. Barham Salih
        Minister of Agriculture--Dr. Sawsan Ali Magid Al-Sharifi
        Minister of Communications--Dr. Mohammad Ali Al-Hakim
        Minister of Culture--Mr. Mufeed Mohammed Jawad al-Jaza'iri
        Minister of Defense--Mr. Hazem Sha'alan
        Minister of Displacement and Migration--Ms. Pascale Isho Warda
        Minister of Education--Professor Saini Al-Mudhaffar
        Minister of Electricity--Dr. Aiham Al-Sammarae
        Minister of Environment--Professor Mishkat Moumin
        Minister of Finance--Dr. Adel Abdul Mahdi
        Minister of Foreign Affairs--Mr. Hoshyar Mahmood Mohammed 
        Zebari
        Minister of Health--Dr. Ala'adin Alwan
        Minister of Higher Education--Dr. Taher Khalaf Jabur Al-Bakaa
        Minister of Housing and Construction--Dr. Omar Al-Farouq Salim 
        Al-Damluji
        Minister of Human Rights--Dr. Bakhtiar Amin
        Minister of Industry and Minerals--Dr. Hajem Al-Hasssani
        Minister of Interior--Mr. Falah al-Nakib
        Minister of Justice--Dr. Malik Dohan Al-Hassan
        Minister of Labor and Social Affairs--Ms. Leyla Abdul Latif
        Minister of Public Works--Ms. Nasreen Mustapha Berwari
        Minister of Oil--Mr. Thamir Abbas Ghadban
        Minister of Planning--Dr. Mehdi Al-Hafidh
        Minister of Science and Technology--Dr. Rashad Mandan Omar
        Minister of State for Provinces--Judge Wa'il Abdul al-Latif
        Minister of State for Women--Ms. Narmin Othman
        Minister of State--Dr. Kasim Daoud
        Minister of State--Dr. Mamu Farham Othman
        Minister of State--Mr. Adnan al-Janabi
        Minister of Trade--Mr. Mohammed Mostafa al-Jibouri
        Minister of Transportation--Mr. Louay Hatem Sultan Al-Erris
        Minister of Water Resources--Dr. Abdul Latif Jamal Rashid
        Minister of Youth and Sports--Mr. Ali Fa'iq Al-Ghabban

    This is a remarkable group of individuals. They reflect a wide 
array of talents and backgrounds, and they are all committed to serving 
the interests of the Iraqi people and paving away for the first free 
elections in Iraqi history. They are doing so in full knowledge that 
they are risking their lives. I hope that the members of this committee 
will join me in pledging our full support, and our prayers, to the 
interim government as they prepare to assume ultimate authority in Iraq 
in less than 3 weeks.
    The Iraqi interim government will operate under the legal framework 
established by the Transitional Administrative Law (TAL) and the TAL 
Annex. The President and the two Deputy Presidents will form a 
presidency of the State that represents the sovereignty of Iraq and 
oversees the higher affairs of the country. The presidency will have 
ceremonial functions and must unanimously approve orders issued by the 
Council of Ministers before they can become law.
    The Prime Minister will have day-to-day responsibility for the 
management of the government. Iraq's ministers, who will oversee the 
ministries, will report to the Prime Minister. The government will be 
responsible for improving security, promoting economic development, and 
for the important process of preparing for democratic elections in 
January 2005. The Council of Ministers, with the unanimous approval of 
the presidency, may issue orders or decrees with the force of law. The 
interim national council can veto these orders or decrees by a two-
thirds majority vote.
    As noted above, the national conference will choose an interim 
national council of 100 members. The interim national council will 
oversee the government and will have other substantive powers specified 
in the TAL Annex. It will be able to hear the views of citizens, advise 
and question the government on policy, form committees and veto orders 
or decrees from the Council of Ministers by a two-thirds majority vote. 
It will also have the authority to appoint replacements to the 
presidency in the event that a member of the presidency dies or 
resigns, and it will have the right to approve the 2005 Iraqi national 
budget.
    As set out in the Transitional Administrative Law, the judicial 
authority is independent of the executive branch of government. The 
Federal judicial branch will include a Federal Supreme Court, a Court 
of Cassation, Courts of Appeal and the Central Criminal Court of Iraq. 
In addition, there will be a Higher Juridical Council that will 
supervise the Federal judiciary and administer the budget.
    Some have argued that the Iraqi interim government will be a puppet 
of the United States, or will have only limited sovereignty. This is, 
quite simply, false, and ignores the fully sovereign powers of the 
interim government. For example, the Iraqi interim government that 
takes power on June 30 will have the power to conclude agreements in 
the areas of diplomatic relations and economic reconstruction, 
including Iraq's sovereign debt.
    At the same time, the Iraqi people desire to limit the powers of an 
unelected government. After 30 years of living under Saddam's tyranny, 
it is perfectly understandable that the Iraqi people would seek to 
limit the power of a government that is not yet fully accountable to 
the Iraqi electorate. And given our nation's history of resistance to 
taxation without representation, Americans should easily understand why 
Iraqis want the interim government's authority to be limited.
    Consequently, the Iraqi interim government will not be able to 
amend the TAL or to form agreements which permanently alter the destiny 
of Iraq. The Iraqi people have made clear that only an elected 
government should have such powers. The interim government will operate 
under rules defined in the TAL, which provides a historic bill of 
rights for the Iraqi people and a roadmap to a permanent constitution 
in 2005.

     THE IRAQI INTERIM GOVERNMENT AND THE MULTINATIONAL FORCE (MNF)

    Although this progress on the political track is impressive, the 
ability of the Iraqi people to achieve their aspirations will be 
heavily influence by the security situation in Iraq. As recent events 
have demonstrated, continuing attacks by insurgents, including members 
of Saddam's security services, foreign fighters and terrorists, and 
illegal militias challenge all those who are working for a better Iraq.
    This is why both the new Prime Minister and Foreign Minister have 
publicly requested that the U.S.-led multinational forces remain in 
Iraq to help the Iraqi people complete their political transition and 
permit the U.N. and the international community to work to facilitate 
Iraq's reconstruction. In a statement this week, Prime Minister Allawi 
said:

          We are deeply grateful for the sacrifices that the forces of 
        friendly countries have made to help liberate us from one of 
        the most abusive tyrants of modem times. . . .
          Until our forces are fully capable, we will continue to need 
        support from our friends in the Multi-National Force--Iraq. We 
        appreciate the understanding and contributions of the 
        international community, and we hope that additional 
        international support will be forthcoming in response to U.N. 
        Security Council Resolution 1546.

    Similarly, addressing the U.N. Security Council earlier this month 
as that body was considering what became Resolution 1546, Foreign 
Minister Hoshyar Zebari said:

          [Since April] last year we have been working very hard to re-
        establish Iraq's security, military, and police forces.
          However, we have yet to reach the stage of being able to 
        maintain our own security and therefore the people of Iraq need 
        and request the assistance of multinational forces to work 
        closely with Iraqi forces to stabilize the situation. I stress 
        that any premature departure of international troops would lead 
        to chaos and the real possibility of a civil war in Iraq. This 
        would cause a humanitarian crisis and provide a foothold for 
        terrorists to launch their evil campaign in our country and 
        beyond our borders. The continued presence of the multinational 
        force will help preserve Iraq's unity, prevent regional 
        intervention in our affairs and protect our borders at this 
        critical stage of our reconstruction.

    The Iraqi Armed Forces will be a principal partner of the 
multinational force. The Iraqi National Guard--built on the present 
Civil Defense Corps--will be part of the Iraqi Army, which will be 
responsible to the Iraqi Ministry of Defense. The objectives and 
functions of the multinational force after the transfer of sovereignty 
will remain as it has been, except that it will now coordinate with the 
sovereign Iraqi government through agreed consultative mechanisms.
    We will need to develop an effective and cooperative security 
partnership between the multinational force and the sovereign 
government of Iraq. The commander of the multinational force will work 
in partnership with the sovereign Government of Iraq in helping to 
provide security while recognizing and respecting its sovereignty. To 
that end, multinational force commanders will, at the invitation of the 
Iraqi Prime Minister, participate in discussions of the Ministerial 
Committee for National Security on the broad framework of security 
policy. The Iraqi security forces will be responsible to the 
appropriate Iraqi ministers. The multinational force will coordinate 
with them at all levels--national, regional, and local--in order to 
maintain unity of command of military operations in which Iraqi forces 
are engaged with the multinational force.
    While the Iraqi Government may withhold their forces from specific 
multinational force operations, units committed to joint operations. 
with the MNF will act under unified command. Iraqi leaders and the MNF 
will keep each other informed of their respective activities, consult 
regularly to ensure the effective allocation and use of personnel, 
resources and facilities, will share intelligence, and will refer 
issues up the respective chains of command where necessary. This will 
be a partnership--where both sides will bring their views to the table 
and agreements will be reached through mutual consent.
    We were able to fill in many details of this partnership during our 
talks last week with Prime Minister Allawi and his national security 
team. Those talks enabled us to gain insight into the new Iraqi 
government's strategy to defeat its enemies as it prepares to assume 
sovereign authority and as our role changes from that of an occupying 
power responsible for maintaining security to helping the Iraqis defend 
themselves. We met with Prime Minister Allawi and his team for about 8 
hours over the course of 3 days. The meetings were very cordial and 
productive. Based on Lieutenant General Petraeus' ongoing work with the 
Iraqis, as well as on last week's discussions, we achieved consensus on 
a way ahead, which was reflected in Prime Minister Allawi's statement 
this past Sunday of Iraq's national security strategy.
    A key element of these talks was the delineation of several 
mechanisms for the coordination of operations between Iraqi security 
forces and the multinational force. The Iraqis proposed the creation of 
a Joint Operating Center to coordinate operations at the national 
level. It will fill the gap between the Joint Coordinating Centers, 
which function at the regional and local levels, and the Ministerial 
Committee for National Security, which would deal with political-
military issues at the strategic level. Participants in this body will 
include representatives of the Prime Minister, the Ministers of Defense 
and the Interior, the multinational force Commander and the Chief of 
the Office of Security Transition.
    The Iraqis also agreed that the Iraq Survey Group (ISG) will 
continue to operate as part of the multinational force authorized by 
UNSCRs 1511 and 1546, although they will want increased input and 
coordination in the ISG's activities.
    We also agreed to establish a Joint Committee on Detainees. We 
agreed that representation in this committee should include 
representatives from the Iraqi government, the multinational force, and 
ambassadors from contributing countries.
    The Iraqis also requested help in creating a command center in the 
Prime Minister's office. We agreed that we could re-allocate resources 
already committed to creating command centers at the Ministries of 
Defense and the Interior, and at the joint headquarters and could begin 
work quickly. General Sanchez noted that once the Iraqis have 
identified appropriate officers, we can embed them at lower-level 
multinational force headquarters. These embedded officers could be 
connected to the Prime Minister's command center to provide situational 
awareness before lower-level Iraqi headquarters were up. and running.

                         IRAQI SECURITY FORCES

    Of course, the long-term key to success in Iraq requires building 
indigenous Iraqi capacity and transitioning responsibilities from the 
coalition to Iraq. Nowhere is this more vital than in our efforts to 
build capable Iraqi security forces to achieve stability. Our plan 
was--and is--for Iraqi forces to develop strength, capability, and 
experience with the help of the multinational force, with the MNF 
playing a crucial supporting role until the Iraqis can stand on their 
own.
    Current plans call for:

        <bullet> Iraqi Army: 27 battalions (35,000 soldiers) trained 
        and on duty by October. Most of their equipment is planned to 
        be on hand by that time with vehicles continuing to be 
        delivered through March 2005.
        <bullet> Iraqi National Guard: 45 battalions (40,000 soldiers) 
        by September, with possible additional battalions beyond. 
        Equipment is arriving rapidly, and the 45 battalions should be 
        equipped by September.
        <bullet> Iraqi Police Service: 90,000 policemen, which is the 
        current number on duty, fully trained by June 2005. Equipment 
        is flowing in, and they are planned to be fully equipped by 
        September.
        <bullet> Iraqi Border Patrol: 20,000 by July, to be fully 
        equipped by September.
        <bullet> Facility Protection Service: There are currently 
        74,000 on duty, with the final number to be determined by the 
        Iraqi Ministry of the Interior. These forces might also be 
        fully equipped by September.

    During our meetings with Prime Minster Allawi, the Prime Minister 
conveyed a clear sense of priorities for the different elements of the 
Iraqi security forces. The first priority will be the Iraqi 
Intervention Force (previously called the Iraqi National Task Force). 
This force's main mission will be to defeat enemy forces in urban 
areas, and will have a troop strength of 6,600 troops organized into 
three brigades.
    The second priority will be an Iraq Special Operations Force, 
consisting of a 764-troop Iraqi Counter Terrorist Force, similar to our 
special weapons and tactics (SWAT) teams, and a supporting Commando 
Battalion, similar to a Ranger Battalion, comprised of 828 troops.
    The third priority will be the creation of an Iraqi National Guard, 
based on the current Iraqi Civil Defense Corps (ICDC), as part of the 
Iraq Army. While the planned size of the force will remain initially at 
45 battalions, a command structure of 6 division headquarters and 18 
brigade headquarters would be added. This would create an all-Iraqi 
chain of command for the ICDC battalions, through brigade and division 
headquarters, to the Army Chief of Staff and Defense Minister, and 
finally all the way up to the Prime Minister.
    The areas of operation of the six divisions could be aligned with 
the AOs of the multinational force's six major subordinate commands. 
This would facilitate coordination between Iraqi and international 
forces at the regional level.
    The fourth priority is the continued development of two divisions 
of the Regular Army. While the current mission statement of the regular 
army emphasizes defense against external conventional attack, the new 
government wants to be able to use it against the internal enemy, the 
real current threat to Iraq's security. Additionally, although the 
Iraqis had considered adding two more divisions, they agreed that this 
is a lower priority that can be deferred to a later date.

                            LESSONS LEARNED

    The spike in combat activity we witnessed in Iraq, and the mixed 
performance of Iraqi security forces we saw in response, have provided 
further lessons we can apply to increase the impact of what we are 
doing to recruit, train, equip and, most importantly, mentor Iraqi 
security forces.
    The first lesson is the need for stronger leaders in the security 
forces. We will build on the leaders whose units fought, and we will 
replace those whose units did not. We will integrate Iraqi officers 
with coalition forces and we will embed coalition officers with the 
Iraqi security forces. This arrangement provides liaison, which 
produces mutual confidence, and it also helps us develop Iraqi 
leadership. Similarly, we need police liaisons and specialized trainers 
to get down to police stations around the country to provide confidence 
and set the example.
    Second, the Iraqi security forces need more and better equipment. 
We had not planned for them to be fully equipped at this point, and 
many police and ICDC units were outgunned in recent action. We are 
reexamining the equipment requirements. We have also incurred some 
delays in equipping the Iraqi security forces. Part of the delay has 
been caused by challenges in the contracting process, and those 
problems finally seem to be fixed. We need to make up for lost time, 
but any further delay is unacceptable.
    Third, it is clear that the members of the security forces, most of 
whom are Iraqi patriots, need an Iraqi rallying point. They need to 
understand they report to an Iraqi chain of command, and that at the 
top of that chain of command is a lawfully constituted Iraqi 
government. The chain of command is being put in place now. A defense 
minister has been named, along with a commander in chief of the armed 
forces and a chief of staff. A new interior minister has also taken 
office. The rest of the chain needs to be filled, but Iraqis in the 
security forces can see today that there are Iraqis at the top.
    The greatest factor in the mixed performance of the security forces 
was an intangible: fear. The enemies of a democratic future for Iraq 
have so terrorized the cities of central Iraq that many members of the 
security forces doubt that they or their families can be protected from 
the retribution that may follow their participation in operations 
alongside the coalition. Until Iraqis are convinced that Saddam's 
regime has been permanently and irreversibly removed, and until a long 
and ghastly part of their history is put to rest and overcome, that 
fear will remain. Convincing them of this truth--that Saddam and the 
Saddamists are finished--will continue to require investments of our 
time and our resources and our precious men and women in uniform, to 
continue to build trust among the Iraqi people. That is why it is so 
important in this time of stress to show that our commitment to their 
freedom is rock-solid.
    This is also why it is inadvisable to set a hard deadline for the 
multinational force's mandate in Iraq. Such a deadline would risk 
creating the impression amongst the great majority of moderate Iraqis 
who hope for a new Iraq that we were not committed to the long-term 
stability of Iraq. It would encourage the terrorists and murderers from 
Saddam's intelligence services to wait us out so that they could 
unleash a wave of violence in order to regain political power and begin 
their tyranny over the Iraqi people anew. Creating artificial deadlines 
for withdrawal will only serve to undermine our current mission in 
Iraq. It will put at risk the significant gains already made by the 
Iraqi people in the rebuilding of their nation, and will endanger the 
lives of American soldiers.

                     THE ROLE OF NATO AND THE U.N.

    Contrary to assertions that we are in Iraq with a coalition that is 
just window dressing for unilateralism, the coalition's mission to 
liberate and reconstruct Iraq has been an international effort from the 
start. This includes heavy NATO participation, as 16 of our NATO allies 
currently have more than 19,000 troops deployed in support of Operation 
Iraqi Freedom's stability operations. Appropriately, British and Polish 
representatives participated in our meetings with Iraq's national 
security leaders.
    Similarly, this administration has made a significant effort to 
involve the United Nations in the reconstruction of Iraq. The 
Coalition's ongoing efforts in Iraq have repeatedly received the 
endorsement of the U.N. U.N. Security Council Resolution 1483--passed 
May 22, 2003--supported the formation of the CPA and an Iraqi Interim 
Administration. UNSCR 1500--passed August 14, 2003-- recognized the 
establishment of the Governing Council. UNSCR 1511--passed October 16, 
2003--authorizes a multinational force under unified command. All three 
of these resolutions were unanimously endorsed by the U.N. Security 
Council.
    The administration has worked, closely with the U.N. Secretary 
General throughout the past year. Before his tragic murder by 
terrorists, U.N. envoy Sergio Viera de Mello was instrumental in 
establishing the Iraqi Governing Council. The new U.N. envoy, Lakdar 
Brahimi, has been invaluable in facilitating the creation of the Iraqi 
interim government. Since the tragic bombing of the U.N. Headquarters 
in Baghdad last August--which Zarqawi boasts was his doing and which 
was clearly aimed at driving out the U.N.--security for the U.N. has 
been a major challenge. However, the U.N. representative for Security 
Coordination's Office has been in Baghdad since mid-January, and a U.N. 
Election Commission headed by Carina Perelli has been in Iraq since 
April.
    On May 24, the U.S. and U.K. submitted a draft U.N. Security 
Council Resolution that defines U.S. and international responsibilities 
in Iraq. This resolution was passed unanimously on June 8 as UNSCR 
1546. We look forward to the U.N. providing election expertise and 
assistance in preparation for the election of the Iraqi transitional 
government by January 2005. We have also proposed a specific allotment 
of international forces falling under the unified command of the 
multinational force whose sole mission would be the protection of U.N. 
personnel and facilities in Iraq. This would permit the U.N. to expand 
their presence and activities within Iraq, something this 
administration has supported since Iraq's liberation over a year ago.
    We look forward to the continued participation of these 
international organizations in Iraq after the transition to Iraqi 
sovereignty. Many allies support an increased role by NATO in Iraq. 
Several have called for the passing of a new U.N. Security Council 
Resolution authorizing a NATO force presence, functional tasking, such 
as election support, ordnance disposal, the protection of U.N. 
personnel, or assisting in the equipping of Iraqi security forces.

                               CONCLUSION

    My recent travels through Iraq, from my visit to Basra in the far 
south to Lake Dokan in Northern Iraq, as well our meetings with Prime 
Minister Allawi and his team, have convinced me that the Iraqi interim 
government is comprised of leaders who understand the magnitude of the 
task laid before them, but also recognize the necessity of compromise 
and sacrifice required to achieve a free and prosperous Iraq. More 
importantly, accompanying this realization of the hardships to come is 
an unflinching optimism on the part of the Iraqi people. In his 
statement Sunday, Dr. Allawi declared:

        The enemy we are fighting is truly evil. They have nothing to 
        offer the Iraqi people except death and. destruction and the 
        slaughter of innocents. Having suffered under tyranny for so 
        many years, the Iraqi people are determined to establish a 
        democratic government that provides freedom and equal rights 
        for all its citizens. We are prepared to fight and, if 
        necessary, die for that cause. We are confident that we will 
        prevail.

    One Iraqi, identified only as Omar, reflected recently on the 
assassination of the President of the Iraqi Governing Council, Izzedine 
Salim, on his Web site: ``Are we sad?'' he wrote in his Web log. ``Yes 
of course, but we're absolutely not discouraged because we know our 
enemies and we decided to go in this battle to the end. . . . I've 
tasted freedom, my friends, and I'd rather die fighting to preserve my 
freedom before I find myself trapped in another nightmare of blood and 
oppression.''
    Like Omar, brave young Americans in Iraq are committed as well and 
we are as a Nation. We remain cautiously optimistic, despite the daily 
death and violence caused by the evil enemy Prime Minister Allawi 
described. Our own history attests to the fact that democracy can be a 
hard-won prize. But we also know that the goal is worth the fight.

    Chairman Warner. Thank you, Mr. Secretary. I am pleased to 
advise you that General Casey, who appeared before this 
committee in that very seat yesterday was confirmed by the 
Senate last night.
    Secretary Wolfowitz. That is very nice news. Thank you.
    Chairman Warner. I also advised my colleagues that the 
leadership, bipartisan leadership agreed to let this committee 
go to conference immediately.
    Secretary Armitage.

  STATEMENT OF HON. RICHARD L. ARMITAGE, DEPUTY SECRETARY OF 
                             STATE

    Secretary Armitage. Mr. Chairman, Mr. Levin, thank you for 
the opportunity this morning. At one point in my professional 
life I spent a good deal of time before this committee, so it 
is nice to be home. But having had that experience in the past, 
I realize that your patience is in inverse proportion to my 
opening statement, so I am here to try to answer questions that 
you have. That is my job and I'll look forward to the 
opportunity.
    [The prepared statement of Secretary Armitage follows:]

             Prepared Statement by Hon. Richard L. Armitage

    Mr. Chairman, Senator Levin, members of the committee, it is always 
an honor to engage with you in a dialogue about the foreign policy 
challenges and opportunities facing our Nation. The transition to 
sovereignty and democracy in Iraq is the pivotal opportunity and 
challenge for our Nation at the moment, so I especially appreciate the 
chance to discuss this subject with you today.
    In 5 days, the world will witness an historic moment for the Iraqi 
people emerging from three decades of brutal dictatorship. The Iraqi 
interim government, led by Prime Minister Ayad Allawi, will assume full 
sovereign authority over Iraq and the Coalition Provisional Authority 
will dissolve. The Department of State will assume the lead in managing 
and representing U.S. foreign policy interests to a sovereign Iraqi 
government. Our first Ambassador to the new Iraq, John Negroponte, is 
eminently qualified for this task. We have selected a very capable 
Deputy Chief of Mission in Jim Jeffrey, who is leading our mission 
advance team in Baghdad.
    Nearly all of the 140 State Department 1-year tour positions for 
the Mission in Baghdad have been filled, and of this number, 35 are 
already in Iraq, joining 135 other United States Government (USG) 
personnel who are assisting the U.S. Mission in a temporary capacity. 
Over 70 others are in process, including many who are enroute to 
Baghdad. There will also be some 50 personnel on teams in many of the 
provinces. A number of Coalition Provisional Authority (CPA) staff will 
stay on for a period to ensure continuity of operations. Combined with 
personnel from other U.S. Government agencies, the U.S. Mission will 
total approximately 1,600 people under Chief of Mission authority: 
approximately 1,000 Americans and 600 Iraqis. The Embassy will also 
have as many as 400 military personnel at the Embassy under MNF-I 
command. Our security upgrades for our temporary chancery are 
proceeding on schedule and will be ready by July 1. We have also chosen 
a site for a permanent embassy.
    Of course, the Department of Defense (DOD) will also continue to 
support a sizable force in Iraq after June 30. An Interagency 
Transition Planning Team, headed by Ambassador Frank Ricciardone and 
General Mick Kicklighter, have worked tirelessly to ensure that our two 
agencies are fully coordinated in achieving U.S. objectives and have 
successfully reached agreement on how our roles, missions, resources, 
responsibilities, and authorities will complement and support each 
other. Last week, Deputy Secretary Wolfowitz and I signed two Memoranda 
of Agreement between our respective agencies on the provision of 
security and support for the U.S. Mission. We count this as a major 
step forward in preparation for the opening of the U.S. Mission. Our 
security preparations continue; we have 51 Diplomatic Security staff in 
Iraq implementing measures to protect our staff, plus a Marine Security 
Guard detachment of 14. A total of 45 Diplomatic Security personnel 
will permanently serve the mission.
    As for funding the U.S. Mission, we have $477 million to stand up 
and operate the U.S. mission for the remainder of fiscal year 2004. 
This funding is available from CPA's fourth quarter operating budget, 
the 1 percent transfer of Iraq Relief and Reconstruction Funds (IRRF) 
available under the law, and the funding directly appropriated to the 
Department of State from the fiscal year 2003 supplemental 
appropriation. We are working with CPA and DOD to develop fiscal year 
2005 requirements. Our rough estimate of fiscal year 2005 operating 
costs for the new mission amount to approximately $1 billion, excluding 
the capital facility costs for a new embassy compound and the Program 
Contracting Office (PCO). The largest cost components are logistics 
support and security contracts that are being managed by DOD. DOD will 
continue to cover these logistics support and security costs in fiscal 
year 2005 until Ambassador Negroponte and his team have time to assess 
the actual needs and provide an estimate we can include in a 2005 
supplemental request. Until supplemental funds are provided, the 
Department plans to meet the remaining operating requirements through 
funds requested by the Department in the fiscal year 2005 budget, as 
well as any funds carried over from the fourth quarter of fiscal year 
2004.
    Ultimately, our success in Iraq will be the most persuasive proof 
of our good intentions. Even in light of shifting events on the ground, 
our objective remains constant and unchanged: we must succeed in 
helping Iraq to become a stable and successful independent state with a 
democratic, representative government and the seeds for a strong 
economy. As the press is fond of pointing out, we face huge challenges 
in achieving that objective. But we have come a long way, and we are 
committed to continuing, in partnership with the Iraqi government, to 
make progress on the political, economic, and security fronts. So allow 
me to turn now to the ``way ahead''. . .
    The United States and coalition countries have spent more than a 
year preparing Iraq for this transition by helping Iraqis build 
institutions for a functioning, democratic political system not just at 
the national level, but also at the provincial and local levels and 
define the political transition process that will lead them a new 
constitution and formation of a new government based on that 
constitution. First, we have provided the training, advice, equipment, 
and facilities to help establish and strengthen local, regional, and 
national governing institutions. Indeed, as of our last count, there 
are 18 governorate councils, 111 district councils, 296 city and sub-
district councils, and 695 neighborhood councils. Over 13,000 democracy 
dialogue activities have taken place nationwide, educating Iraqis about 
democratic principles and the political transition. At the national 
level, as CPA has announced, all of Iraq's ministries have now been 
turned over to Iraqis. We will continue to offer to Iraq some 160 
liaison officers to Iraqi Ministries after the transition.
    For the three decades before liberation, government institutions 
existed only to serve the whims and preserve the power of Saddam and 
his cohorts. Today, Iraqis now have the opportunity to establish 
responsible public administration nationwide. They are seizing this 
opportunity. Our commitment to strengthening Iraqi public institutions 
will not end when we hand power to the new government next week.
    Iraq has adopted clearly defined principles and targets for the 
national government in the Transitional Administrative Law (TAL), which 
will be the governing framework after June 30 and we would expect it to 
remain in force until a constitutionally-based, elected government 
takes office. On June 1, the Governing Council, in its last act before 
dissolving itself, adopted the Annex to the TAL that reflected the 
results of the extensive consultations by U.N. Special Advisor Lakhdar 
Brahimi with Iraqis from across Iraq's diverse society.
    Based on these documents, the Iraqi interim government, led by 
Prime Minister (PM) Ayad Allawi and President Ghazi al-Yawar, is in 
place and has already begun to demonstrate leadership and strength. We 
believe that the Iraqi interim government is particularly notable for 
its competence, experience, and diversity--professional, 
geographically, and politically. Let me note, for example, that nearly 
two-thirds of the cabinet ministers have doctorates, and that a 
preponderance of ministers have not served previously as ministers or 
members of the Iraqi Governing Council. All Iraqi Ministries have now 
been turned over and are being run by their respective Iraqi Ministers.
    PM Allawi will also be able to draw on the wisdom and advice of a 
national council that will be selected at a national conference in 
Baghdad next month. This council will serve an important advisory 
function; will be a forum to promote national dialog and consensus; 
and, will have the authority of oversee the implementation of laws, as 
well as the power to veto executive orders by a two-thirds majority.
    Even though the IIG will not assume full power until next 
Wednesday, Mr. Allawi, President Yawer and the IIG have already been 
hard at work, demonstrating their leadership by tackling difficult 
issues. We consulted closely with him during the past month, including 
during negotiations for Security Council Resolution 1546 and on post-
transition security arrangements. He has staked out firm positions on 
security and detainee issues, and at times has been critical of us. 
This is positive, setting the stage for a constructive partnership 
between our two countries as Iraq enters the next phase of its 
transition. President Yawar led Iraq's delegation to the G-8 Sea Island 
Summit, meeting foreign leaders, including President Bush, for the 
first time. We welcome these important developments.
    The State Department has been working hard to live up to our side 
of the partnership. We worked assiduously with PM Allawi and the Iraqi 
interim government, our Security Council partners and our friends and 
allies to secure a resolution that supports the newly-formed named 
government and paves the way to the June 30 transition and beyond. UNSC 
resolution 1546 endorses the affiliation of the sovereign Iraqi interim 
government and its assumption of full responsibility and authority on 
June 30, endorses the timetable for Iraq's political transition, 
recognizes the dissolution of the CPA, establishes a framework for 
continuing security operations, encourages international support for 
security and reconstruction, and defines a robust U.N. role in Iraq, 
particularly by assisting in preparations for elections. The resolution 
was adopted unanimously, and we think it represents a renewed 
international consensus on the way forward in Iraq.
    Mr. Allawi's government will face enormous challenges. As he has 
described, ensuring Iraq's security by confronting violent elements, 
preparing for elections, promoting Iraq's reconstruction, and economic 
development will be his government's top priorities. None of these 
tasks will be easy.
    On elections, the U.N. election team dispatched to Iraq has already 
done tremendous work in laying the groundwork. Based on a nationwide 
nomination process, an Independent Election Commission of nonpartisan 
Iraqis was established--on schedule. The U.N., Iraqis, and the CPA 
worked together closely to make the nomination and selection process as 
inclusive and transparent as possible. Six hundred thousand nomination 
forms were distributed throughout the country. Over a thousand 
nominations were received. U.N. elections experts reviewed the 
nominations carefully and interviewed the most promising candidates. 
The final slate was approved without change by the Iraqi Governing 
Council.
    This commission will soon turn to the task of enacting the 
regulations governing elections and political parties that are 
fundamental to these preparations. Among its other duties are 
developing and maintaining voter rolls, registering candidates and 
political parties, accrediting observers, and certifying the results. 
Iraqi elections will be a complex undertaking and the Independent 
Election Committee will need the strong support of the international 
community and the expertise of the U.N. to meet the January 2005 
deadline.
    Security will continue to be the seminal challenge for the 
sovereign Iraqi government. Without a secure environment in Iraq, 
progress in other areas, economic development and elections, will be 
extremely difficult--as the events of recent months has shown. PM 
Allawi has taken an aggressive stand on security, committing the Iraqi 
interim government to develop as quickly as possible the capacity of 
Iraqi security forces to confront violent extremists. To this end, he 
has begun to organize command structures of his security services, 
establish special anti-insurgent force, and form a ministerial 
committee to guide Iraq's security policy. He has promised: ``Our 
capabilities will enable us to take necessary action against forces of 
evil.''
    Until that is possible, Iraqi authorities have been clear--Iraq 
needs and welcomes the continued efforts by the multinational force to 
ensure security in Iraq. PM Allawi has reiterated the Iraqi 
government's view in his letter to the U.N. Security Council. The 
United States is committed to establishing an effective and cooperative 
partnership with Iraq as well as the coordination mechanisms between 
the MNF and the Iraqi interim government to reach agreement on the full 
range of fundamental security and policy issues, including policy on 
sensitive offensive operations. This will be one of Ambassador 
Negroponte's first priorities.
    We are also working with the Iraqi government on the disposition of 
detainees currently held by the multinational force. As a matter of 
principle, we believe the Iraqi government should assume responsibility 
for Iraqi prisoners held on Iraqi soil and we want them to be able to 
move forward on their efforts to bring the criminals of the former 
regime to justice. However, as Iraqi President al-Yawar noted, Iraq 
must ensure that it has the capacity to assume custody of detainees who 
continue to present criminal and security threats. We will continue to 
work with the IIG to address that issue in a way that is consistent 
with our mutual security concerns and allows Iraqis to pursue justice.
    To promote the long-term effectiveness of Iraqi security forces, we 
will continue to recruit and train forces to eventually take 
responsibility for security. After June 30, support for the organizing, 
equipping, and training of Iraqi security forces will be under DOD 
authority, with the policy guidance of the Chief of Mission. I, would 
like to express our confidence in Lieutenant General David Petraeus, 
who will be leading the effort to train and equip the Iraqi security 
forces. He has already demonstrated, in his command of the 101st 
Airborne, a high degree of success and skill in this environment, and 
we look forward to working with him.
    As for the economy, CPA has reported progress towards the goal of a 
healthy, prosperous economy. Wheat production in the fertile central-
south region is up by 60 percent. We have a 30-day buffer of food 
stocks in country. Oil production has begun to recover from the recent 
attacks. Roughly 1.3 million barrels were produced on June 23. We 
estimate that oil production in June will average roughly 2 million 
barrels per day and the new Minister of Oil is aiming to boost 
production further, to 2.8 million barrels per day, by the end of 2004. 
More than 5 million children are back in school, many of them 
vaccinated for the first time. Iraq has a stable, unified currency for 
the first time since 1991, and an independent Central Bank for the 
first time in its history. Finally, the new Iraqi government and the 
U.S. are focused on the key goal of new job creation. As our assistance 
program continues to grow on the ground and expand, we expect to be 
able to report the creation of many new jobs created as a direct result 
of our reconstruction efforts in Iraq.
    A major part of the solution to Iraq's economic problems will come 
from the private sector. Iraq has already begun taking steps during 
CPA's tenure to create a welcoming environment for business. The 
Foreign Investment Law and Companies Law provide a progressive, 
equitable, and streamlined regulatory structure for commercial ventures 
to contribute to rebuilding Iraq. Unleashing the spirit of Iraqi and 
international entrepreneurship in Iraq will help accelerate 
reconstruction and provide critically needed jobs and expertise to 
Iraqis. In February 2004, Iraq was granted observer status to the World 
Trade Organization. This will facilitate Iraq's reintegration into the 
regional and global economies, which the U.S. stands ready to assist on 
multiple levels, including working closely with the IIG and our global 
partners to address the substantial debt burden left behind by Saddam's 
misrule.
    Next week Ambassador Negroponte will take the reins of a large 
Embassy, with a highly experienced Deputy Chief of Mission and an eager 
country team. There will be more than 130,000 U.S. troops in the 
country, working alongside the forces of at least 32 other nations, 
including Iraq. When the Ambassador calls on the Iraqi leadership, he 
will meet with the Prime Minister and President of a sovereign nation.
    There will be much to accomplish, of course. The country will still 
be immersed in all the uncertainty of a dramatic transition: a large 
national conference will be convened, elections will be held; a 
constitution will be drafted; and economic reconstruction will 
continue. The difficulty of these tasks will be compounded by the 
somber reality we face on the security front: violent extremists, 
including foreign terrorists affiliated with the al Qaeda network, will 
seek to inflict senseless brutality in an effort to derail Iraq's 
recovery. Our commitment to a strategy of success will continue 
unabated, and we will continue to define success as a democratic and 
prosperous Iraq, at peace within itself and with its neighbors. I 
appreciate the support this committee already has given the Department 
of State in reaching for that success, and I look forward to discussing 
our strategy with you today.

    Senator Levin. That is a great witness.
    Chairman Warner. Thank you for that very well informed 
opening statement. [Laughter.]
    All right, General. Pick up the ball.

   STATEMENT OF GEN. RICHARD B. MYERS, USAF, CHAIRMAN, JOINT 
                        CHIEFS OF STAFF

    General Myers. Mr. Chairman, I am going to be kind of in 
the middle between these two gentlemen over on the right. Thank 
you, Mr. Chairman, Senator Levin, and members of the committee 
for your continuing support of our men and women in uniform, 
particularly at this critical time, including your efforts 
leading to the passage of the 2005 Defense Authorization Bill. 
We thank you very much.
    In my view, this is an historic moment. Iraq becomes a 
fully sovereign nation next week, an important milestone on a 
clear path towards democracy and freedom. We are very 
encouraged by Prime Minister Allawi's words and his actions. As 
Secretary Wolfowitz said, he is committed to an effective 
partnership between Iraqi's security forces and the 
multinational forces and has forcefully and publicly expressed 
his gratitude to the coalition for their sacrifices to help 
liberate the people of Iraq. Mr. Allawi wants the coalition to 
stay and help. The Iraqi government wants the coalition to stay 
and help, and they understand that we are going to be partners 
in the effort to promote security in Iraq and allow for a 
freely elected government.
    The new interim government has been very aggressive in 
establishing the organizations and the processes required to 
make that partnership work effectively. Under U.N. Security 
Council Resolutions 1511 and 1546, the coalition has the 
authority and the protection we need to stay and carry out this 
important phase of our mission. This clearly is a pivotal 
moment for Iraq, and I believe the violent extremists who want 
Iraq to fail understand that very well.
    I am sure you all remember the Zarqawi letter that we 
picked up in January. In it, he said that the insurgents were 
frustrated, that they were failing in this race against time, 
and that they would have to resort to even more brutal and 
destructive measures to stop the march of freedom. The violence 
of the last few months shows that the insurgents are afraid 
their time is running out. They know that they have a lot to 
lose.
    I expect the increased violence against the coalition and 
against Iraqi citizens will continue past the June 30 transfer 
of sovereignty. But despite these challenges, I believe that we 
are on the right path helping Iraqis become fully capable of 
providing for their own security. With the help of the 
coalition, Iraqi security forces are becoming better equipped, 
better trained, and better led. Next week they will have 
absolutely no doubt they are fighting for their own country. 
That is an enormous step forward.
    Our vision for Iraq's future remains fixed. The dedication 
and professionalism of our service men and women remains fixed. 
The resolve of the American people and that of our allies must 
also remain fixed. That resolve is key to our success and key 
to the morale of our fighting men and women. Your steadfast 
support has been and is also very crucial, so I thank you again 
for your continued support. Thank you, Mr. Chairman.
    Chairman Warner. Thank you very much, General. The 
colleagues will now proceed to our first round of 6 minutes 
each, and may I most respectfully ask the colleagues the 
following. I went back to look at some of the records of our 
previous hearings and in certain instances where questions are 
asked by Senators, the witnesses simply have not been given the 
opportunity to fully respond to the question. As such, the 
record becomes of less value to those who look to these 
proceedings for answers. So I urge all Senators in propounding 
their questions to respect the right of the witness to have a 
reasonable amount of time in which to answer the question.
    I will start off with you, Secretary Wolfowitz. I thought 
your opening statement and your trip indicated what I perceive 
as a ray of optimism. All of us are agreed on one thing, and 
that is as soon and the sooner the Iraqi government-to-be and 
the Iraqi people swing behind their own cause to seek freedom, 
it's for the better.
    Now, we focus so much on the violence in the streets as 
occasioned by weapons and fighting. But there is another 
violence out there, and that is the violence coming largely 
from beyond the borders of Iraq in the form of the media 
distorting the actual gains that have been made, distorting the 
views of the people who seek to have freedom. What are we 
doing, particularly as this new government takes over, to help 
the government maintain a freedom of the press, but at the same 
time get their story out such that their new leadership can be 
better understood by the people and by the world? The gains 
that are being made by the courage of many, not just the 
soldiers and the coalition forces, but some of the Iraqi 
people, most of the Iraqi people can be recognized? The sooner 
that comes to play the sooner we can expect to see a downturn 
in this violence.
    Secretary Wolfowitz. It is a critically important question, 
and everyone recognizes that this battle is in no small measure 
an information battle. The enemy is actually very skilled at 
shaping the story, getting its story out, and running lies 
faster than the truth, and that is part of the challenge here.
    But the very fact of an Iraqi government assuming 
sovereignty is a huge step forward in this battle, because we 
will no longer be burdened with the considerable weighty label 
of being an occupying power. That has hurt us badly. It is one 
of the factors contributing to some of those statistics that 
Senator Levin quoted at the beginning. Iraqis wanted to be 
liberated. They did not want to be occupied, and that label 
hurts us.
    We will also be helped by the fact that Iraqis will be up 
in the--you can already see it. The fact that the Prime 
Minister is the spokesman is a huge step forward. The fact that 
the Prime Minister is a man that goes and visits sites where 
the enemy has sabotaged oil or goes into the----
    Chairman Warner. I agree on that, but what are we doing to 
implement the delivery of that message in a free and open way 
to those people? Time and time again in our hearings we have 
emphasized the need to help facilitate the distribution, the 
accurate facts, not just the distortions that come from abroad.
    Secretary Wolfowitz. Senator, we are working on it. We are 
providing resources to them to enable them to stand up to this 
TV network, Al-Iraqia, which seems to have a pretty good 
viewership. I think, again, it is going to be an improvement 
the more the Iraqis shape the content of it, because they know 
much better what kind of messages to get out.
    We have Al-Hura, and Secretary Armitage can talk about 
that. One last thing before I turn it over to him. Robert 
Kaplan had a column in the Wall Street Journal recently, I will 
be happy to put it in the record, where he comments on the fact 
that we are fighting an information-age war with industrial-age 
information procedures. I am struck, and this committee has 
seen it on any number of issues that you look into. We have a 
system that moves information very slowly up to the top, 
sometimes for good reasons of protecting the rights of people 
who might be accused, sometimes just because we are very 
careful, but the enemy is not.
    Chairman Warner. All right. Let me proceed. Basically the 
same question to you, Mr. Secretary. You must recognize the 
importance, the force multiplier of getting a good, positive 
message out and inspiring the Iraqi people into greater measure 
of courage.
    Also, Ambassador Bremer, who has done a tough job as well 
as anyone can do it, stepped down. What will be the differences 
between the evolution of Bremer going down, retiring, and 
Negroponte stepping up as the new Ambassador? How will it be 
different, and how have you designed this new charter and 
embassy to meet this increasing challenge of the insurgency in 
the streets?
    Secretary Armitage. Thank you, Mr. Chairman. As Paul 
indicated, the first thing and the most important thing we are 
going to do is be less visible, and that is already started. 
That less visibility, I hate to quote polls, but the dreadful 
polls that Senator Levin correctly quoted are offset today by 
the polls that show 68 to 73 percent of the Iraqi people have a 
favorable opinion of this interim government. The word is 
starting to get out, and I think it is more credible in Iraq 
because they are words that are coming out of Iraqi mouths.
    When John Negroponte arrives 1 July in Baghdad, he is not 
going to be Jerry Bremer 2. He is going to be an Ambassador and 
will be the first American Ambassador to a free Iraq. He will 
join 49 other embassies who have Ambassadors. Now, he will be 
an Ambassador with a lot of money in his pocket, thanks to the 
U.S. Congress and the generosity of the American people. He 
will have a very good and close relationship with General 
George Casey, so he will be an Ambassador that has a lot of 
swag, but he will be an Ambassador. It is an important concept, 
and that is the first point we are trying to get out to the 
Iraqi people. CPA is over; we are in.
    In our stuffing for the new embassy, sir, we have budgeted 
for 34 people to be involved with the press, as press training, 
press advising. Obviously U.S. Agency for International 
Development (USAID) will have a rather major role in continuing 
press training. There will be upgrades necessary for some of 
the broadcast systems of Iraq. We have our own, as Paul 
indicated, with Al-Hura, and Al-Iraqia is doing fairly well 
these days. So that part of that corner has been turned, but it 
has been turned more because Iraqis are talking and we are not.
    General Myers. Chairman, on the security part, what we are 
doing specifically is we are going to replace Mark Kimmitt, who 
has been the spokesman along with Dan Senor on the security 
side and generally on CPA issues. On the security side, we are 
going to replace General Kimmitt with another General, but his 
role is not to be out in front of the press. As Secretary 
Armitage said, we want Iraqis speaking, so his role will be 
more in mentorship and in making sure that the message gets out 
to U.S. troops that needs to get out internally and back here 
to the States, but not in a very public way. So we are going to 
keep the same apparatus, but we are going to put a different 
face on that apparatus.
    Chairman Warner. Thank you. While it is not the traditional 
status of forces agreement that we had hoped for protection of 
our troops from any prosecution for their action, you mentioned 
in your opening statement that in your professional judgement 
the current structure and framework is adequate to fully 
protect our forces.
    General Myers. Mr. Chairman, I do, through a multiplicity 
of means, if you will. First of all, the U.N. Security Council 
Resolution recently passed is one of those guarantees. The CPA 
Order 17, which is being staffed finally and will be in effect, 
will have effect throughout this interim government, is also 
one of those means, and so we feel that our forces are 
protected.
    Chairman Warner. That is reassuring. Second, General Casey 
was here yesterday. Quite appropriately in response to an 
important question he said any planner would be looking at the 
ability to augment our force level if the on-scene commanders 
were to send back the message ``we need more forces.'' His 
message is very clear, but it has nevertheless reverberated out 
there and been sort of viewed by some as the first call for 
additional force structure. Can you address what Casey stated, 
the accuracy of it, and your own posture with regard to the 
adequacy of the current force level in the face of increasing 
and perhaps better coordinated violence and what the future 
portends?
    General Myers. My understanding of General Casey's comment 
is that he was describing a prudent planning process that any 
of us would go through to make sure that we could respond if 
the field commanders engaged in a serious effort wanted more 
forces to prosecute that effort. I must say that goes on 
continuously. We have to look around corners. If we do not look 
around corners then we cannot respond to the needs of our 
combatant commanders.
    Chairman Warner. That is accurate and that is prudent. As 
you and I know from our experiences, that should and always is 
being done in operations of this nature. But it is now being 
translated as the first indication of perhaps a call for 
additional forces.
    General Myers. I have not talked to General Casey about 
this, but in my latest conversations with General Abizaid, 
there is no indication that he needs more forces for the kind 
of conflict we are seeing right now.
    Let me try to describe this. This is not traditional 
warfare where you can count numbers as capability. There is a 
conventional element of this. We saw that yesterday as a matter 
of fact where there were some conventional-like attacks, but 
small. Predominantly what is the most effective attack for the 
terrorist are terror-type attacks where individuals attack the 
infrastructure, where individuals who want to commit suicide 
take a vehicle-borne improvised explosive device next to police 
stations or governors' offices or the marketplace and then blow 
them up.
    More forces are not necessarily going to help in that case. 
I think that what we see here is this thought that we are in 
some sort of conventional war when we are in probably the 
epitome of what would be asymmetric warfare. So the 141,000 
forces that the U.S. has in there, the 22,000 coalition forces, 
to this point General Abizaid and his commanders think are 
adequate to this task. The other part of that, of course, is we 
have a large Iraqi force structure that continues to get better 
in their training, equipping, and leadership.
    Secretary Wolfowitz. Mr. Chairman, let me also emphasize 
what General Myers said about the flexibility to respond, 
because we know the enemy is really targeting the coming weeks 
and months. They are targeting the new government as it stands 
up. Zarqawi has openly, in a typically overheated rhetoric, 
threatened Allawi personally. We know they would like nothing 
more than to shape the minds of Iraqis and Americans that this 
new government is a failure, and we know they are going to try 
to do everything that they can to destabilize the country 
leading to elections at the end of this year.
    So this is not something you can plan precisely against 
because you are dealing with a thinking, very active, evil 
enemy; therefore, we do need the flexibility that General Casey 
and General Myers alluded to be able to apply more forces if we 
need more forces.
    Chairman Warner. Thank you very much. Senator Levin.
    Senator Levin. Thank you, Mr. Chairman. General Myers, 
General Casey testified that the CPA order, which provides 
immunity from the Iraqi legal process for our troops, must be 
amended to extend beyond June 30. I have two questions. One, do 
you agree? Two, would any amendment or any order of the CPA be 
binding on the new sovereign government?
    General Myers. Senator Levin, my understanding is that the 
order is being restaffed and that will be finished either today 
or tomorrow.
    Secretary Armitage. The order is finished today. It has 
gone out to Baghdad, sir. They want to obviously make sure that 
the new government sees it and is not in opposition to it. 
There have been discussions continually about it, but they will 
not sign off on it. That is not what their role will be.
    Senator Levin. Would the new sovereign government have the 
power to rescind that order?
    Secretary Armitage. The new sovereign government in effect 
would, if they are sovereign, they could ask us to leave, and 
we would have to leave. But the combination of the CPA Order 17 
as amended and U.N. Security Council Resolution 1546 is felt by 
all to give us sufficient protections.
    Senator Levin. My question though is, would the new 
sovereign government have the power to rescind that order?
    General Myers. My understanding is that----
    Senator Levin. Let me just get Secretary Armitage's quick 
answer on that.
    General Myers. Okay.
    Secretary Armitage. I want to think about it. I want to get 
the right answer rather than the quick answer.
    Senator Levin. Alright. Well, since we have 6 minutes, give 
us your thoughts perhaps later after you have had a chance to 
think about it.
    Chairman Warner. Excuse me. General Myers did wish to----
    General Myers. I have--my understanding----
    Senator Levin. Sure.
    General Myers. My understanding of this issue is that the 
CPA orders cannot be repealed or modified until Iraq's 
permanent government is in place to enact legislation, so they 
stay effective through that period.
    Senator Levin. So during this 6-month period, or whatever 
the period is before the elections are held and there is an 
elected government, what you are saying is that we have a legal 
opinion that the interim government cannot rescind that order. 
Is that your understanding?
    General Myers. Yes, sir. That is my understanding.
    Senator Levin. Thank you. Would you provide that opinion 
for the record?
    General Myers. Yes, sir.
    [The information referred to follows:]

    The Iraqi interim government has the authority to amend CPA orders 
that only relate to appointments, the use of the Iraqi Armed Forces, 
and approval of certain international agreements. Outside of these 
three areas, CPA orders cannot be amended until elections are held and 
the Iraqi Transitional Government is in place. After elections, CPA 
orders may be amended consistent with Article 26 of the Transitional 
Administrative Law.

    Senator Levin. Thank you. Secretary Armitage, have we 
specifically asked Muslim nations to provide troops and police?
    Secretary Armitage. Or police?
    Senator Levin. Troops or police.
    Secretary Armitage. We have had discussions with Bangladesh 
and Pakistan about this, as has the interim government of Iraq 
with at least Pakistan. We have begun discussions with 13 other 
nations, some of whom are Muslim, about providing security for 
the U.N. facilities, which was discussed in U.N. Security 
Council Resolution 1546. Prime Minister Allawi said to your 
colleagues the other day when Senator Daschle's delegation 
visited him that he would be working with the neighbors. He 
thinks it may be about time to try to introduce them.
    Senator Levin. Thank you. Secretary Wolfowitz, or anybody, 
what is the status of the indictment against Sadr? Also, have 
the officials of the interim government invited Sadr to 
participate in the national congress? Does that indictment 
still stand?
    Secretary Wolfowitz. It definitely still stands. I do not 
know about your second question.
    Secretary Armitage. I do not either, but even Prime 
Minister Allawi, I think, in the conversation with Mr. Daschle, 
said that Sadr had to face jurisprudence.
    Senator Levin. Had not been invited to participate in the--
--
    Secretary Armitage. I do not know the answer to the second 
part. I was responding to the first part.
    Senator Levin. Okay. Apparently Prime Minister Allawi has 
indicated that the government is considering the imposition of 
a state of emergency that could include a curfew and a ban on 
public demonstrations. But just talking about the curfew, since 
we presumably would have to enforce it, have we talked to him 
about that and do we support the imposition of a curfew?
    Secretary Wolfowitz. Actually we have the power to impose 
curfews as we see them as necessity in particular places. This 
is an example of exactly the kind of thing that this 
consultative mechanism is designed to work out common policy 
on. We have been doing this for 2\1/2\ years really in 
Afghanistan with Karzai. He sometimes wants to do things that 
we think are imprudent. We tell him frequently; if you do it, 
you better have the capability to do it yourself, because we 
are not obligated to enforce things that we do not think are 
appropriate.
    Senator Levin. Is that true with Allawi too?
    Secretary Wolfowitz. That, I think it is even--let me put 
it this way. We have better-developed mechanisms already with 
Allawi than we have after 2 years in Afghanistan. It will work 
well. We have common purposes. He is not talking about blanket 
national martial law procedures with extreme measures. He is 
basically talking about giving Iraqi police and Iraqi forces 
the authorities that we already have under Resolution 1546.
    Senator Levin. Did we discuss that issue specifically with 
Allawi as to what--before his statement was made about imposing 
a curfew, do you know?
    Secretary Wolfowitz. It did not come up in our talks.
    Senator Levin. Secretary Wolfowitz, you have cited both 
here, and I believe recently at the House Armed Services 
Committee, as evidence of cooperation between Iraq and al 
Qaeda, evidence in a sealed indictment of Osama bin Laden in 
1998. Why do you continue to cite that as evidence of a 
relationship?
    Secretary Wolfowitz. It is one of many pieces of evidence 
that suggest that there was contact of some significance 
between these two organizations.
    Senator Levin. But you are aware of the fact that that 
indictment has been modified to include that statement?
    Secretary Wolfowitz. I am also aware that the cooperating 
witness who provided the basis for that indictment was 
reinterviewed as recently as a year ago and reaffirmed the 
story, and he is a man who is described even by Richard Clarke 
as one of the keys to our understanding of al Qaeda.
    Senator Levin. To my question though, are you aware that 
the indictment has been modified to exclude that reference?
    Secretary Wolfowitz. The subsequent open indictment of bin 
Laden did not include that. That is right, after the 1998 
embassy bombings.
    Senator Levin. My question is why do you continue then to 
cite an indictment which has been modified to exclude the 
reference that you continue to make?
    Secretary Wolfowitz. Because I believe that was a statement 
made by an important source on al Qaeda that was considered 
sufficiently credible and valid to be included in a very 
serious Federal proceeding.
    Senator Levin. My time is up. Thank you.
    Chairman Warner. Senator McCain.
    Senator McCain. Thank you, Mr. Chairman. I thank the 
witnesses for being here today and I do think we have some good 
news in this poll that the Iraqi people are now strongly 
supporting their new leadership. This provides us with an 
opportunity, a window of opportunity, and I wonder if the 
witnesses agree that the next few months are absolutely 
critical in this whole scenario. Would you agree, Secretary 
Armitage?
    Secretary Armitage. Of course, Senator.
    Senator McCain. Secretary Armitage, we are also in a 
situation, including the events yesterday, of a degree of 
sophistication and level of, if you want to call it, terrorist 
attacks, which are quite remarkable, both in their efficiency 
and in their number of casualties. Would you agree?
    Secretary Armitage. Yes, I do.
    Senator McCain. So we are not where we had envisioned we 
would be after our significant military victory, right?
    Secretary Armitage. That is correct, Senator.
    Senator McCain. What went wrong?
    Secretary Armitage. We have spoken to this. One, we 
underestimated the enemy and we did not destroy him in our 
initial attack. He melted away, and we are seeing him again. 
That is number one. Number two, we did not reckon correctly the 
extent to which Iraq had become a criminal society under the 
attempts to evade sanctions and everything else that had 
happened, particularly in the last 12 years.
    Number three, we underestimated the degree to which this 
enemy had a central nervous system. The attacks the other day 
show that it does have a central nervous system.
    Senator McCain. Do you agree that we did not have 
sufficient troops?
    Secretary Armitage. No, I do not, Senator.
    Senator McCain. You do not agree? I wonder why not.
    Secretary Armitage. I am in a department who defers to the 
military judgement on what is ``sufficient troops.'' Any views 
of this that we had during the run-up to the war were expressed 
fully and we felt we got our full say.
    Senator McCain. Which was?
    Secretary Armitage. Which was we want to make sure we had 
sufficient force and sufficient points of entry to defeat this 
enemy, and we were convinced that we did.
    Senator McCain. We had a sufficient number of troops, 
Secretary Wolfowitz?
    Secretary Wolfowitz. With respect to the issue that 
Secretary Armitage correctly identified, which is this enemy 
did not surrender on April 9, Saddam continued to fight until 
he was captured; Zarqawi continues to fight until this day; the 
killers that supported his regime for 35 years continue to 
fight. There was no surrender. There has not been yet.
    Senator McCain. So we did not--it is interesting that--I 
asked about the troop question to you.
    Secretary Wolfowitz. I am trying to answer it.
    Senator McCain. It is interesting. Things did not turn out 
as we had anticipated they would, yet we did not do anything 
wrong. That is very interesting.
    Secretary Wolfowitz. Senator, I----
    Senator McCain. Go ahead.
    Secretary Wolfowitz. Let me say three points. Number one, I 
do not believe and our commanders do not believe that more 
troops would have enabled us to find these people where they 
were hiding. The problem has been finding them. They are very 
good at hiding. That has been the problem.
    Number two, there has been a concern, and part of our 
problem is this appearance of an occupation force, that a much 
bigger force would have----
    Senator McCain. So, which brings us to----
    Secretary Wolfowitz. Third, if I can agree with you for a 
moment, it probably is the case that if we had had more 
American troops down in the Najaf Karbala area over the last 
period of time we are talking about, 6 or 8 months, Mr. Sadr 
might not have gotten out of control the way he did. So that is 
one place where it might have made a difference.
    Senator McCain. Which brings us to Fallujah. We agreed that 
somehow after announcing that we would go in and attack and 
capture those individuals who killed and dismembered the bodies 
of four American citizens. We then made an agreement with the 
militias there that they would control Fallujah, and they would 
turn over the perpetrators of that crime, other terrorists, and 
significant weapons. Has any of that happened?
    Secretary Wolfowitz. Virtually none of that has happened. 
What we have achieved is a certain degree of calm in Fallujah, 
which may help in the rest of the country. There is some 
indication that there are beginning to be some splits within 
Fallujah, particularly between Iraqis and foreigners, and some 
degree of Iraqis turning on the foreigners. There is a 
considerable concern that Fallujah might--this is on the 
negative side--be a place where the enemy is hiding. We talked 
about this with the Prime Minister. We are all agreed that the 
current status quo in Fallujah is not acceptable, and Fallujah 
is not a model for the rest of the country, so we need to move 
forward on that. I do not know, General Myers, if you want to--
--
    General Myers. I absolutely agree with that. We have not 
made any of the conditions that we initially set that you 
outlined, Senator McCain. We have had in the last several days 
to go after foreign fighters in Falluja with 500-pound bombs; 
we think in both cases successfully.
    Senator McCain. If I could just interrupt there, the reason 
for not going into Fallujah was to prevent civilian casualties. 
Now we are dropping 500-pound bombs.
    General Myers. But these were very precise, and the 
collateral damage was essentially zero upon site exploitation. 
We are very careful how we do that. If I can go back to your 
original question that Secretary Armitage answered, part of the 
thinking that went into the plan for the original combat in 
Iraq was that we wanted--we made the decision. You could have 
gone several different ways, but we made the decision that we 
wanted this to be as humane as a combat operation as war could 
be. That was a decision we made.
    So certain factors are emphasized over others if you are 
going to do that. One of them was speed and precision and to 
let regular Iraqi divisions, while destroying equipment and 
some of their people, if they melted away, then let them melt 
away, because they were conscripts after all.
    So if there is a blame here, it was making some assumptions 
on how the Iraqi people would react to that. I would submit we 
were probably too gracious in our victory in hindsight. The 
philosophy going in was that we were going to liberate Iraq, 
not conquer Iraq. Clearly things started to change as those 
former regime elements--and I still maintain a very small 
segment of the population plus the foreign fighters can have a 
disproportionate impact because of the methods they use where 
they do not care about the loss of innocent life. So that is 
where we have evolved to.
    Senator McCain. Well, I may have to leave some of this to 
the historians, but it is interesting that very little mistakes 
were made, and yet we find over 100 people killed and wounded 
in coordinated attacks all over Iraq. Clearly some of this is 
being orchestrated out of Fallujah. As Secretary Armitage said, 
this is a central nervous system, but we did not make any 
mistakes. My time is expired.
    Chairman Warner. Thank you very much, Senator McCain.
    Senator Kennedy.
    Senator Kennedy. Thank you, Mr. Chairman. Secretary 
Wolfowitz, I appreciate your comments about the courage of the 
Iraqi leaders. I am one of those who had the chance to meet 
President Yawar when he was over here, and he is an impressive 
figure. When we see the determination of those individuals to 
try and lead the country, it does impress all of us.
    Let me just go back and review the bidding about where we 
are and then ask a couple of specific questions. Following up 
with Senator McCain, we have had 844 Americans pay the ultimate 
price; 5,270 soldiers have been wounded; we have lost 25 in my 
own State of Massachusetts, war costing us about $4,700,000,000 
every month.
    We have the kind of pressures that are put on in a 
particular unit, Military Police (MPs), a group from 
Massachusetts, New Hampshire, and Maine. They were mobilized 5 
December 2002, sent to Iraq in April 2003 for 6 months. They 
were extended once, extended again. Thought they were going for 
6 months, going to 18 months. Eventually they hope to come back 
in August, demobilize in October.
    The uncertainty of how long these troops, American troops 
are going to be over there, given not only the American troops 
themselves, the regular Army, but the Reserve and the Guard, is 
a matter of great concern. Given that we have had the U.N. 
Resolutions, we have the new sovereignty coming up at the end 
of June, we have elections for the interim government that is 
going to establish the constitution, ratification nationwide of 
the constitution, elections following that, American families 
want to know what the impact of all this is going to be on 
their servicemen and women, on their children.
    I remember when you were here at the time of your hearing 
before our committee on confirmation. This is your quote. When 
you were asked about the guidelines should apply to future 
military action, you said, ``I think it has to be something 
where we have a strategy for success, that we have a way of 
achieving our goals and completing the mission, and not ending 
up in something that is an unending commitment with no way 
out.''
    Now, you are asked this week to the Armed Services 
Committee about what is going to be the indication at the end. 
You say there is an end--the end is when the Iraqis are 
governing their own country. Well, when are we going to know 
success? Are we going to know success when there are elections? 
Are we going to know that there is a success when we--
reconstruction have construction? How much security is going to 
be success? How are the American people going to know when 
there is success? Or are we going to just wait until a 
President says: We have success now and we are going to start 
rotating out? How do we know that? How do we know we are not 
just ending up with an unending commitment with no way out?
    Secretary Wolfowitz. I do not think it is an unending 
commitment with no way out, but I do not think you can predict 
these things any more than you can predict the timetable for 
success in Germany at the end of World War II or the timetable 
for success in Korea at the end of that war. Of course, the 
biggest problem here is that the war has not ended, the enemy 
has not given up.
    Part of success is going to be when that enemy is either 
defeated, or some of them may just decide actually in a formal 
or semi-formal way to come in and join the new Iraq. But I 
think there is a clear path to success because there are so 
many Iraqis who do want to stand up for their country. By the 
tens of thousands they are prepared to risk their lives to 
defend their country.
    Senator Kennedy. I want to give you----
    Secretary Wolfowitz. I think the most important milestone 
here is going to be, particularly with respect to those 
families of service men and women, when the Iraqis are in the 
front line, and Iraqis, if casualties still have to be taken, 
are taking the bulk of the casualties. That will be a huge 
milestone.
    Senator Kennedy. Well, this is what we want to know. We 
have 90 percent of the troops and 95 percent of the killed and 
wounded, what are the benchmarks? You are back there, you have 
children that are over there, what are the benchmarks? What 
should the American people want to benchmark this? How do they 
know that the plan is successful? How do they know it is not 
deteriorating? We have to have some benchmarks that are out 
there rather than the general kind of comments. They want some 
benchmarks to know.
    They knew in World War II; they knew after D-Day. Sure, 
they had the Battle of the Bulge, but they were moving ahead on 
it. They knew certainly in the battle against Japan. They 
understood that, Korea more complicated and Vietnam so. But 
people had an understanding of what the benchmarks were. They 
knew in the Second World War with the progress in North Africa 
and what happened in Western Europe. The American people want 
to know, Mr. Secretary, what are the benchmarks? What are the 
things that they can watch on television, read in the 
newspaper, and say, look, that is real progress, that is going 
to mean my son or daughter is going to come on home?
    Secretary Wolfowitz. I think the kind of benchmark I 
mentioned in the beginning of Iraqis who are courageous enough 
like these five civil defense corps soldiers to rescue an 
American who is wounded. More and more they are going to see 
capable Iraqi security forces taking on more and more demanding 
missions.
    But let us also keep some historical perspective. The 
Marshall Plan, as we all know, was initiated in 1948, a full 3 
years after the end of World War II. It was a kind of Hail Mary 
pass to rescue Europe from what looked like a totally failing, 
collapsing situation. You can ask for benchmarks. We are 
working on benchmarks. The President laid out five clear 
benchmarks a couple of weeks ago, namely one that we are about 
to achieve, which is the standing up of a sovereign government; 
the second, standing up of Iraqi security forces; the third, 
progress on reconstruction; the fourth, introduction of 
international forces through the U.N. Resolution; and finally, 
elections at the end of this year and the beginning of next 
year. Those are pretty important benchmarks. If we can achieve 
all of them in the next 6 months, we will be doing very well.
    Senator Kennedy. My time is up. Some would think that we 
have already got a Marshall Plan over in Iraq now with the 
amount of economic aid and reconstruction that we have 
provided.
    Secretary Wolfowitz. A great deal is happening, Senator.
    Chairman Warner. Thank you very much, Senator Kennedy.
    Senator Roberts.
    Senator Roberts. Gentlemen, thank you for being here this 
morning. Thank you for your perseverance and your service. I am 
going to be repetitive today. I think the most crucial 
ingredient with regard to our effort in Iraq is our resolve, 
theirs, and more especially, ours. Over the past several 
months, that resolve has been tested, and we have seen an 
increase only in the number and severity of such challenges, 
more especially with the full offensive that we see today.
    Now, we have the deadline for sovereignty only 5 days away. 
It is absolutely critical that the administration and 
especially those of us in Congress make it clear to the 
American people exactly what the transfer means with regard to 
our continued presence. I know you all mentioned. Members of 
this committee are extremely concerned about the information 
and the battle for the proper kind of information in that part 
of the world, in that part of the region, and more especially, 
in Iraq. I am concerned about it in this country.
    This really dates me, but in the 1940s, there was a song 
that my dad and mom enjoyed. It was called, ``Accentuate the 
Positive, Eliminate the Negative, and Don't Mess with Mr. In-
Between.'' It seems to me that we have too many in this country 
who are accentuating the negative and eliminating the positive 
and making sure the U.S. is not in between, and I do not think 
that is possible at this particular time. So with the 
challenges to our resolve, no doubt some will point to the 
transfer of sovereignty, as Senator Kennedy has just indicated, 
as a justification for an exit from Iraq.
    What would be the specific implications of such an exit? 
Explain to the country exactly the down side of an early exit 
and what could happen in regards to our national security and 
then also in regard to the region.
    Secretary Wolfowitz. I think a precipitous exit like that 
would be an enormous victory for terrorism and for terrorists. 
It would turn Iraq into a base and a sanctuary from which they 
could proceed to attack Saudi Arabia, which is already under 
attack, and attack in Europe and the United States. They 
understand that this is the fight, they are putting everything 
they can in trying to defeat us and----
    Senator Roberts. So this is a global effort?
    Secretary Wolfowitz. It is absolutely connected to a global 
effort, yes, sir.
    Senator Kennedy. Would the Senator just yield, since he 
mentioned my name?
    Senator Roberts. Yes, I would be happy to the yield to the 
distinguished Senator.
    Senator Kennedy. I did not suggest a cut-and-run policy. I 
asked about benchmarks, and I do not want to be associated with 
the remarks about what would happen if we just pulled out our 
troops. That was clearly not my statement. That would be a 
distortion, a misrepresentation of my position. I know the 
Senator did not mean that, but I want the record to reflect 
that.
    Senator Roberts. I thank the Senator for his contribution, 
saved me 30 seconds. Who are these guys? Let's use the Butch 
Cassidy, Sundance Kid question. Secretary Armitage, you said a 
central nervous system. I just heard on the news this morning 
that Muqtada al-Sadr and his army are laying down the arms 
against the coalition forces and saying we are going to rise up 
against the Sunni extremists.
    We have those still loyal to the former regime. We have the 
foreign fighters. We have the extremists. What level of 
coordination among these divergent groups are you seeing? Who 
are these guys now?
    Secretary Armitage. I do not think anyone in this 
administration yet can tell you with a great deal of accuracy 
who they are and how many they are.
    Senator Roberts. Well, I have some concerns about that 
because as chairman of the Intelligence Committee----
    Secretary Armitage. Well, I was raising it with you, sir--
--
    Senator Roberts. Okay, I am sorry. I am not giving you an 
opportunity.
    Secretary Armitage. I am not raising it with you because 
you sit on another committee, and you understand what I am 
saying. I said one of our mistakes was that we did not 
understand there was a central nervous system. Well, clearly 
there is. How many are former regime elements and how many are 
Zarqawi and his evildoers, I cannot say. I do not think any of 
my colleagues can say. We do not know. How many are disaffected 
youth who, either make a little money or just for the pure 
excitement of it get in on the game, I cannot tell you.
    Senator Roberts. Well, I hope we can. We have 1,000 people 
now stood up in the Iraqi intelligence operation, 5,000 people 
with a new Iraqi intervention force. If we do not have the 
proper intelligence--and, yes, I am the chairman of the 
Intelligence Committee--it worries me that we will not only 
have the ability to really predict and protect not only our 
troops but also be successful. We found Saddam by finally 
getting down to the clans and the families. My hope is that 
when we go through the vetting, the training, and the equipment 
in regards to the Iraqis, they will still have that kind of 
capability. Do we see any real progress in that area?
    Secretary Armitage. My view, Senator, and Paul would 
probably want to make a comment, is that we are making a bet 
here. The bet is that Iraqis are going to fight more 
enthusiastically for Iraq than they fight for occupiers. That 
is a bet we are all buying into, and I buy it. I think they are 
because they do know how to fight. We are seeing some changes, 
and others can talk about it, in regards to Iraqis helping us, 
giving us information, things of that nature. Hence you have a 
precision strike in Fallujah, in a particular place in 
Fallujah. Things in that regard are going to turn out a little 
better than we might suspect.
    Senator Roberts. I hope that is the case. There are certain 
countries----
    Secretary Armitage. However, I think----
    Senator Roberts. I have one more question and very limited 
time. There are certain countries in the region that would like 
to see our efforts in Iraq fail, namely Iran. You know these 
folks. As we transfer the sovereignty to the Iraqis, what are 
the most significant concerns you have in this regard? What 
would happen in the region if in fact we were not successful? I 
have asked that of the Secretary, but in your travels, more 
especially in regards to those who would like to see us fail, 
what are your most significant concerns?
    Secretary Armitage. The biggest concern is that Iranian 
money will buy mullahs in the south of Iraq and use that money 
to be able to thwart us. The best news in this regard is that 
the leading Shia cleric in Iraq, Ali Sistani, does not seem to 
have any affection for Iranian-style theocracy.
    Senator Roberts. My time is up, Mr. Chairman. I thank the 
panel, and persevere, gentlemen.
    Chairman Warner. Thank you very much, Senator Roberts. Did 
each of the witnesses feel they had adequate time?
    Secretary Armitage. I am sure the question will come around 
again.
    Chairman Warner. Senator Lieberman.
    Senator Lieberman. Thanks, Mr. Chairman, thanks to the 
witnesses. Thanks for what you have done over the last couple 
of years to bring us to where we are today. It has been a long, 
tough slog, to use a familiar word. But I do think today, 25 
June, 5 days from the transfer of authority, there is a lot for 
the American people to be proud of and a lot for the Iraqis and 
the Iraqi people to be proud of and optimistic about. The fact 
is we have lost American lives; we have spent a lot of our own 
treasure. It is important to remember that it is not for 
conquest; it is not for imperial, colonial plunder. It is for 
security and for a principle that has driven American history 
from the beginning, which is freedom and democracy.
    Saddam Hussein, a brutal dictator who possessed weapons of 
mass destruction, used them, supported terrorism, responded to 
wrongdoing by his people. I have seen this with my own eyes in 
the films that many of us have seen, cut off their heads, their 
tongues, their hands. Saddam Hussein is gone and in jail. In 
place is an interim Iraqi government not yet elected, but broad 
enough to, by the latest public opinion polling in Iraq, enjoy 
the support of two-thirds of the Iraqi people in a very 
difficult security context. So we have come some way, and they 
are going to take over on June 30.
    Then it is going to be a different kind of battle. After 
Saddam was gone, this did become a different kind of battle. It 
became the major battleground of the war against terrorism, 
because the foreign fighters swarmed in there and joined with 
the Saddam loyalists. Now you have not these jihadists or some 
Iraqis against America, but you have jihadists and Saddam 
loyalists against an Iraqi government, as you said, Secretary 
Armitage. That is the choice for the Iraqi people. Do they want 
to go forward with self government and a better life for 
themselves, or do they want to yield to these forces? Do we, 
who will bring back, if you can imagine it, a government that 
is going to be part Saddam Hussein and part Taliban, because 
that is what the enemy fighters are all about here.
    We have done something difficult. I could be critical of 
things that were not done, I have been critical of things that 
were not done or could have been done a lot better. But we are 
in a tough situation. We have made some extraordinary progress. 
Those who have given their lives have given them for a noble 
cause, a cause as critical to American security as most any I 
can think of that we fought over the centuries.
    I want to ask about the central nervous system that you 
referred to. Is it your opinion, Secretary Armitage, that there 
is a coordination to the best of our knowledge between the 
Saddam loyalists, the people who fell back, and the foreign 
fighters?
    Secretary Armitage. I am not sure I am totally competent to 
give you a complete answer. We have seen some intelligence that 
indicates that they do hook up. There is a central nervous 
system to the Zarqawi network. I found rather remarkable 
yesterday the timing of the car bombs in several different 
locations, which indicates to me a certain degree of command 
and control. Now, I do not think it is the command and control 
that we traditionally think about in our own military, but 
someone is giving general orders and other people are following 
them. That is fairly clear.
    As my colleagues have stated up here that as we move 
forward to June 30, these fellows who attacked yesterday are 
going to reload and try again. As we move toward the elections 
in December and January, they are really going to exercise 
themselves.
    Senator Lieberman. I agree. The point I draw from this is 
that there is clearly a lot of controversy in one of the 
exchanges between Secretary Wolfowitz and I believe it was 
Senator Levin about the extent of cooperation between the 
Saddam Hussein regime and al Qaeda earlier. It seems to me that 
the foreign fighters, including Zarqawi, who is allied with al 
Qaeda, and the Saddam remnants are growing increasingly clear.
    I want to go to another topic, because those poll numbers 
about the interim Iraqi government are very encouraging. The 
most important thing we can do to solidify them is not only 
maintain the security, but also in some ways it is just as 
important to maintain the civilian reconstruction, making sure 
that the Iraqis get jobs, that the electricity is on, that the 
water is flowing.
    Last year, Congress approved an $18.6 billion 
reconstruction aid package. According to the CPA, only about 
$3.7 billion of that package had been spent as of June 1. I 
know CPA is under the DOD, so I want to ask Secretary 
Wolfowitz, what slowed the expenditure of those funds and 
delayed the 2,300 projects the money was planned to support? 
Then, Secretary Armitage, as the State Department now takes 
over on July 1, what plans do you have to accelerate the 
implementation of that reconstruction money?
    Secretary Wolfowitz. Senator Lieberman, I think the basic 
answer comes down to the rather elaborate and necessary 
procedures that we build into the contracting process to make 
sure that there is fair and open competition. It produces what 
the program managers call an ``S'' curve, where you do not get 
very much done for a while and then suddenly the dam starts to 
break. My understanding is the dam is starting to break, and 
those numbers are going to grow very rapidly. We want to make 
sure they do not grow so rapidly that Ambassador Negroponte has 
nothing left to work with when he gets there. That is a 
consideration.
    One thing that has been done, it is called the ``Seven 
Cities Project,'' is to allocate a certain amount from the 
supplemental to smaller scale projects that can be implemented 
by our division commanders in seven key cities, including 
Baghdad. That is showing some real results on the ground, even 
in difficult places like Sadr City.
    Secretary Armitage. Senator, in preparation for this 
hearing, I have later numbers. They are not much better, but 
obligated out of the $18.4 or $18.6 billion is $5.29 billion, 
which is about 29 percent of the 2004 Iraqi Relief and 
Reconstruction Fund (IRRF) money. It is a little better than 
what you suggested, but your point is dead on.
    Admiral Nash came back last week, who has been running this 
at CPA, and I think he came up and saw some of the staff of 
this committee and others. He did indicate that the ramp is 
quite a bit steeper now, and he thought we would be moving up 
rather rapidly. What we have done to make this change is 
through consultations with primarily the Appropriations 
Committee staffs. I have met with Chairman Kolbe in the House 
about trying to put together something we are calling an Iraqi 
Reconstruction Management Office under the Ambassador. We are 
putting a 10-day time period on any changes that we want from 
the time the Ambassador wants to reallocate money and put it 
toward a project. The turnaround for our entire bureaucracy is 
10 days. I am the belly button in charge, so you will have 
somebody to point to.
    Also, it will push the process along. When John Negroponte 
gets out there, we figure he will have between $8 billion and 
$9 billion that is not obligated. We know he is going to have 
some different opinions from the present CPA opinions. We are 
working out procedures with Appropriations Committee staff to 
change the way we make revisions to the 2207 report, which is 
required each quarter.
    Senator Lieberman. That is very encouraging, particularly 
to know that you are assuming a personal responsibility. If I 
can put it this way in response to the metaphor you used, 
Secretary Armitage, I have always considered you to be one 
tough, impressive belly button. [Laughter]
    Secretary Armitage. Well, a big belly button.
    General Myers. Mr. Chairman?
    Chairman Warner. Yes, General.
    General Myers. I would like to talk about the threat for 
just a minute. My views might be slightly different than others 
expressed in this room today, if I could just talk about the 
threat that we are seeing. We have no intelligence that shows 
the linkage between these various groups. We look for it. We 
simply do not have it. You can deduce, because you had many 
attacks yesterday, it all occurred almost simultaneous some of 
them in Mosul, and throughout Iraq, attacks that appear to be 
coordinated. You can just look at it and say, well, there has 
to be some coordination.
    The level of coordination, though, is unknown, and I ask 
about this all the time, because this is crucial to 
understanding the threat we are fighting. One of the things you 
have to keep in mind that while the former regime elements and 
Zarqawi may have the same near-term goals of ridding Iraq of 
the coalition, their long-term goals could not be more 
different. It is hard for me to believe, but this is what we 
need intelligence to tell us--there is very close cooperation 
between those two groups because they have two very different 
visions of the future. One is Sunni extremism, going back to 
7th century califate, and the other is the Baathist party, 
coming back to life in Iraq.
    I have not seen any evidence other than what we see with 
our eyes in terms of actions, whether it is a central nervous 
system or some other method of coordination. It is a critical 
question, and frankly, the Intelligence Community, as far as I 
know, will not give you an answer, because they cannot give me 
an answer.
    Senator Lieberman. Mr. Chairman, if I may real briefly----
    Chairman Warner. Yes, please pursue that.
    Senator Lieberman.--just to respond and say that I 
appreciate what you have said that there is not clear evidence 
showing a linkage. I would just raise this question, though 
these are different groups with different aims, might this not 
be a case where the enemy of my enemy is my friend? In other 
words, they have a common purpose, which is to stop the Iraqi 
self-government from occurring, to weaken us to defeat us in 
some sense, to get us to retreat, and therefore to win a battle 
in the larger war that both of them are involved in. That might 
bring them together temporarily until they have to deal with 
who is going to control Iraq.
    Chairman Warner. Secretary Armitage, did you want to 
comment on the General's statement?
    Secretary Armitage. I gave you my opinion that it seems to 
me there was some sophistication in the attacks that led me to 
believe--I have been around a little bit--that there is more of 
a central nervous system. I do not argue with General Myers. 
You asked for my opinion and I gave it to you, sir.
    General Myers. I would say that is how it looks, and I 
would say that near-term aims could be similar, the enemy of my 
friend and so forth, but I think long term they are not 
compatible. We need to know a lot more. I guess that is what I 
am saying, and I am not comfortable standing here----
    Chairman Warner. This question of coordination or lack 
thereof is a central issue, and I hope that we do not conclude 
this hearing on a note--although we may have respectful 
different perspectives on it. If that is the case, so be it.
    Senator Allard.
    Secretary Wolfowitz. Mr. Chairman, I would just say there 
may be more than one central nervous system, and there may be a 
loose coordination between them. Zarqawi clearly coordinates an 
organization of some size, and clearly the old regime people 
have been coordinating with each other for years. That is why 
we see some patterns in certain things the enemy does.
    The question that has been raised here is, how much do they 
coordinate with one another. That is hardly something they open 
up to us very much. The basic point is their immediate aim, 
which is the overriding one, which is to defeat us, just as we 
and Stalin had enormously different visions of the future in 
World War II. It did not prevent us from understanding first 
things first. I am afraid for this enemy, we are the first 
thing to get out of there.
    Chairman Warner. All right. Thank you very much, gentlemen.
    Senator Allard.
    Senator Allard. Mr. Chairman, thank you. I want to reflect 
back a little bit. When Saddam Hussein went into the Persian 
Gulf conflict, we set him back. Things kind of stagnated, and 
then when we decided to take action. It has been about a year 
and 3 months or so now, going into Iraq with a full force. A 
lot of good things have happened. In my view things are better 
off now than they were before we went into Iraq and that 
actually things were deteriorating in Iraq just before we went 
in.
    I am wondering if the panel could talk about that a little 
bit. I had a lot of questions about the insurgency and 
obviously we have pretty well discussed that. I also wondered 
if the panel would talk a little bit about the demographics. 
There have been TV shows written about the large number of 
young males in Saudi Arabia, for example, that are unemployed. 
Do we have that same demographics in Iraq or not, and what is 
driving that demographics? I wonder if we could have some 
discussion on both of those questions, starting first of all 
with the first question. How are we today compared to what it 
was when we first went in? Then give us some good facts, and 
also what has happened. Then the second question would be the 
demographics question.
    Secretary Armitage. I will try real quickly. These are 
rather unsatisfactory to me, this first answer I am going to 
give you. Those who have are better off, and those who do not 
have are obviously not. The haves right now, in terms of Iraq: 
more people have access to water, more people have access to 
phones, more people have access to hospitals now than was the 
case under the Saddam regime, particularly if you are a Shia. 
So there are all those indicators. There is more electricity 
going forward.
    Now I say that is an unsatisfactory answer because power 
generation, et cetera, are good targets for the enemy. So what 
is true today could be false temporarily tomorrow. On almost 
every measure in that regard we are much better off. It is the 
security, however, which the Iraqi people point to every single 
day as their overriding concern and their fear when their sons 
and their daughters leave their home of whether they will 
return or not.
    You can have a lot of measurements with people being better 
off, but if we cannot get the handle on security, and I think 
we all agree, we are not going to be able to say to the Iraqi 
people, you are better off overall.
    Second, on the demographics, there is a lot of, not 
controversy, but disagreement or misunderstanding of the 
unemployment in Iraq. It is quite high. There are a lot of 
young men, particularly former Army young men, who are out of 
work right now. The estimates are between 28 percent to as high 
as 60 percent of the working population is unemployed, which I 
disregard. CPA is telling us 28 to 30 percent are unemployed, 
which is unacceptable.
    Senator Allard. Secretary Wolfowitz.
    Secretary Wolfowitz. I agree. Secretary Armitage stated it 
quite clearly. It might be saying that that word ``insurgency'' 
sort of implies this is something that rose up after we got 
there, whereas we are to an astonishing degree dealing with 
people who just did not surrender on 9 April and continue to 
fight. But let me hasten to say, part of their strength comes 
from the fact that they have a lot of money. They can hire 
those unemployed young men, and there are unfortunately large 
numbers.
    That is why we believe that in addition to going after the 
several thousand--I would be misleading you to suggest we have 
an idea of a number, but it is in the thousands, we do not 
think it is in the tens of thousands. So the real hard core 
killers are a decided minority of this country, but they have 
money and they can hire people to take shots at us. That is a 
significant part of the problem.
    Senator Allard. Do they get paid more----
    Secretary Wolfowitz. The third area, if I might just say in 
terms of this satisfaction and how it affects security, is 
that, and we see it in towns and cities where we are able to 
get reconstruction work going, the population gets more faith 
about what we are there to do and more willingness to share 
intelligence and information with us. It is that 40, 50 percent 
of the population that might be considered fence-sitters who 
are absolutely critical to win over.
    Secretary Armitage. Senator Allard, if I could, as you 
would say, revise and extend my remarks. I just want to add 
something. Perhaps the most significant indicator of how we are 
better off in Iraq is the quality and the caliber of the people 
that are participating in the IIG and the courage that they 
have. Two former members of the Iraqi governing council (IGC) 
were killed. No one turned away; no one dropped out of the 
game. Now the IIG, under tremendous and personal attacks, is 
standing up there. That has to say something about Iraqi 
courage and resilience. We can point to the fact that there are 
people of courage like that, men and women in Iraq, as a sign 
we are better off.
    Senator Allard. General Myers?
    General Myers. I would say only that, as has already been 
discussed in the committee, that June 30 will probably be the 
best thing we can do for security in Iraq. When Iraqis feel 
that, and as the polls show, they have a legitimate government 
that is sovereign, and that they can fight for Iraq, and that 
there is no confusion, no cloud, about this being an 
occupation.
    I would also say that this all goes hand-in-hand. As the 
other witnesses have already said, you cannot progress in 
security alone. You have to have the economic piece, the 
political piece, which is the June 30 piece, the nearest part 
that we can look forward to. Then you have to have the security 
piece, and they all have to march forward together.
    Senator Allard. The other thing I want to drive there on 
the demographics, we have apparently a large population of 
males that are uneducated, unemployed in Iraq. Is there not a 
role for some of our allies or even countries like France and 
Germany, for example, who have fairly large Muslim populations, 
to get those men in an educational program so they can get some 
vocational training or goals? Is there not a role there for 
that, or is this something everybody is ignoring? Are we trying 
to address that population?
    It seems to me like they are the ones of fighting age. They 
are the ones with spare time. They are the ones that we seem to 
be competing for as far as this insurgency issue is concerned.
    Secretary Armitage. I can give you a partially satisfactory 
answer. I have the figures that we would cite as the number of 
Iraqis we employ in the various projects, and actually they are 
quite impressive. But not having been out myself for about 3 or 
4 months, I am not confident that I really have my hands around 
it, but I will provide those for the record.
    In terms of our allies, as you recall, about $13 billion 
was pledged at the donors conference and about $1 billion of 
that has been disbursed. Some of it is, in fact, the great 
majority of it is in projects that employ people. I do not, 
however, know specifically whether they are vocational training 
programs that any of our foreign friends have undertaken. I 
will provide it for the record, Senator Allard.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Senator Allard. Thank you.
    Chairman Warner. Thank you very much, Senator.
    Senator Reed.
    Senator Reed. Secretary Wolfowitz, in your recent 
discussions with Prime Minister Allawi, did you discuss his 
proposal for martial law?
    Secretary Wolfowitz. We did not discuss it specifically. 
No, Senator.
    Senator Reed. That would be an item of intense interest, 
since he has announced that his intentions--in fact, the 
reports today in the press suggest that plans are being 
undertaken for types of increased national security provisions 
or some other euphemism. You did not discuss that at all with 
him?
    Secretary Wolfowitz. We did not discuss it specifically 
unless my memory is failing me here. Let me be clear. We talked 
a lot about the need for close consultation on a range of 
sensitive military issues, including our offensive operations. 
A declaration of martial law by him would clearly be such a 
policy consideration that would require consultation with the 
mechanisms that Ambassador Negroponte will be running when he 
is there.
    Let me be clear, because I said this earlier, he was not 
talking about, as I understand it, declaring martial law on a 
national level. He talked about special measures in specific 
areas where there are problems, measures like curfews, which we 
already have the authority to impose. It is giving Iraqi 
security forces in those areas the kind of authority that 
coalition forces have already. It is obviously something that 
will be a subject of the coordination of the Iraqi Government.
    Senator Reed. Do you have a position whether martial law, 
limited as you described it, would be necessary at this time, 
based upon your extensive experience and personal travels?
    Secretary Wolfowitz. It would depend on the location, and 
the circumstances in the location, and what is meant by martial 
law, Senator.
    Senator Reed. Well, I would presume curfews, check points, 
eliminating free assembly, eliminating political opponents who 
might be contrary to the----
    Secretary Wolfowitz. Well, that is not martial law, and 
that is out of bounds, the thing you just mentioned. What I 
believe, and I think I am going on press reports here, was 
mentioned were curfews, limitations on assembly, and searching 
houses. Those happen to be all things that our troops do as 
appropriate in specific locations. We are dealing with an 
extremely dangerous security situation. You realize that. The 
enemy is taking extreme measures to destabilize civil order. 
Such measures as curfews, searching houses, and establishing 
check points are measures that have to be taken in particular 
areas. We are doing it ourselves already.
    Senator Reed. Well, one of the issues that was raised in 
this whole discussion of martial law is the capacity of the 
Iraqi security forces to do it themselves. I notice that they 
are not ready yet for employment. It would invariably draw in 
United States forces, either in a supporting role or even in a 
primary role. Is that your conclusion too?
    Secretary Wolfowitz. We retain control over our forces. 
They retain control over theirs. The purpose of consulting is 
where we may undertake actions that affect them or vice versa. 
We have been doing this for a long time in Afghanistan with 
President Karzai. He at times wants to do things, which might 
be perfectly within his prerogative to do. We will tell him: If 
you can do it with your own forces and your own capability, you 
are entitled to do that, but we are under no obligation to 
enforce something that you simply decide you want to do.
    The same thing would happen in Iraq. If Prime Minister 
Allawi decides that it is appropriate to have martial law in 
some area and we think not, it is going to be up to him with 
his own forces to be able to enforce that.
    Senator Reed. Well, Mr. Secretary, I think listening to all 
of you gentlemen this morning, I am confused about the 
strategy. The strategy seems to let the Iraqis do it and to put 
an Iraqi face on this, yet they do not have the capability to 
do it alone. This suggestion that they can carve out a piece of 
the country, put the security forces in, even if we disapprove, 
is not reflective of the situation on the ground. What you are 
describing is also perhaps a potential for strategic paralysis, 
where they want to do something, but we do not want to do 
something.
    The poster for that is, of course, Fallujah. Mr. Secretary, 
you were here several weeks ago reading an impassioned letter 
for a young marine that said, this is the next Belleau Woods; 
we are going to finish it today. Of course, a few days later we 
turned it over to someone who looked remarkably like Saddam 
Hussein as the General to control it. You have indicated today 
that is still a situation that is out of control. There just 
does not seem to be a strategy that is going to work.
    Secretary Wolfowitz. Senator Reed, the strategy is clear, 
which is not to change things overnight. You cannot change 
situations like this overnight but rather build their capacity 
over time and as rapidly as possible. The important thing, 
Secretary Armitage referred to it a few minutes ago, we have 
incredibly courageous Iraqi leaders who are determined to 
succeed, who have indicated in all manner of ways that they are 
committed to a free Iraq, a democratic Iraq, but also 
understand the nature of the enemy that they are confronting 
and their own lives are on the line in doing this.
    It is the nature of coalition warfare. This is a coalition 
between the multinational force and the Iraqis. You have to 
come to some compromise about at least some coordination of 
policy, and we are in agreement that the Fallujah situation 
needs to be changed. We did not change our approach to Fallujah 
because the Iraqis vetoed what we might do. We changed our 
approach to Fallujah because after consulting with Iraqis, it 
was concluded that the effects of continuing with large-scale 
military operations in Fallujah would be sufficiently negative 
in the rest of the country. It was better to go with this 
compromise to see what results it would produce and then 
proceed from there.
    Secretary Armitage. Senator Reed, if I may, the context of 
the Fallujah decision is important. We were trying to stand up 
and assist the efforts of Lakhdar Brahimi to get an interim 
government. The Fallujah activity and the heavy military 
involvement by the United States was very much interfering with 
our ability to put together what is a pretty impressive interim 
government of Iraq, sir.
    Senator Reed. Thank you, Mr. Chairman.
    Chairman Warner. Thank you very much, Senator Reed.
    Senator Sessions.
    Senator Sessions. Thank you, Mr. Chairman. I believe we 
have had a valuable hearing this morning. I would just like to 
ask one thing about somethings the media, Congress, and 
commentators say, and what kind of impact that might have on 
our success, our troops, and the potential success for the 
people of Iraq.
    One of the things that has concerned me, we have had a 
number of hearings with regard to the terrible abuses that 
occurred in Abu Ghraib prison, but the evidence, the policy 
directives, the memorandums, the commands that we have seen 
that were sent to those guards indicate clearly they were not 
told to do any of these things. It exceeded any powers they may 
have had and they were in violation. They are being prosecuted, 
General Myers, as you have indicated earlier, and they are 
being disciplined for that.
    Secretary Wolfowitz, is it not true that we need to be 
careful that when we make criticisms of our military, our 
government, and the policies that we have, we need to found 
those on true facts? We do not need to exaggerate the problems 
we have? We had a real problem. We certainly do not need to 
exaggerate it. How does that impact our success potential in 
Iraq?
    Secretary Wolfowitz. Well, as we said earlier, we are in no 
small measure in an information war, and the enemy is very good 
at spreading lies. We have to be very careful, especially when 
we are talking about something like this, to make sure that we 
have our facts right. It is a great strength of this country, 
and I felt it was appreciated in Iraq. Unlike not only the 
previous government in Iraq, but also most governments that 
they are familiar with, we do not condone abuse. We do not 
tolerate abuse. We, in fact, expose it when it happens, and we 
punish it. That they are noticing is a very different way of 
proceeding.
    It is also important, without minimizing the abuses or our 
horror at the abuses, not to loosely characterize things that 
were done--that were not done.
    Senator Sessions. Well, I know it complicates the lives and 
the works of our people and could even put them at risk. We had 
recently seven prisoners who had been prisoners under Saddam 
Hussein who did nothing more than deal in currency apparently 
at some point, American currency, in the course of their 
business. Many of them were in Abu Ghraib, and they had their 
hands chopped off. When asked about the abuse by Americans in 
the prison system at the press conference I attended, one of 
the Iraqis who had lost his hand, said that it is not American 
policy. They have criticized it. They are conducting 
investigations, and they are punishing people who did wrong. 
That is a lot different from Saddam Hussein, who wanted a 
video, and we saw the video. He wanted a video to make sure 
that he personally saw these punishments being carried out. So 
it is a big change that has occurred in Iraq, and I want to 
make that point.
    One of the things that strikes me and that we have said 
here earlier as so important is the courage of the leaders of 
Iraq. Prime Minister Allawi appeared recently when that 
horrible bombing attack occurred that killed 13 people waiting 
in line to sign up to be policemen in Iraq to fight terrorism. 
Within hours, or within an hour, he was on the scene right 
there and made these comments, which I thought was important. 
He said, ``it's a cowardly attack aimed at the stability of 
Iraq, aimed at the people of Iraq.'' Allawi said, sweat 
glistening from his forehead, ``The government of Iraq is 
determined to go ahead and confront the enemy. Justice will 
prevail.''
    To me, that is the kind of thing we have to have. I believe 
he also responded to the attack on the oil pipeline. Secretary 
Armitage, do you have any thoughts about this kind of event, 
and how important it is?
    Secretary Armitage. Well it goes hand in glove with what I 
was suggesting about decreasing our visibility. When our two 
excellent spokesmen, General Kimmitt, and Mr. Senor, would make 
that same announcement, it does not carry near the import of a 
Prime Minister standing out there, as you suggest, with sweat 
on his brow, saying this is against Iraqis; this is against us. 
This is not about occupiers; you are killing us.
    It also says something by the way that the 13 people who 
were killed as you mentioned in an explosion were trying to 
sign up in what is probably the most dangerous occupation in 
Iraq these days and that is to become a policeman. Why? Clearly 
because the police ultimately are going to be what provides 
local and neighborhood security, what then provides security 
for a whole city, which provides security for a whole district, 
and the terrorists know that. That is why they are targeting 
these guys.
    Secretary Wolfowitz. Senator Sessions, there is a 
connection between the two things you commented on. One was the 
horrors of the old regime and the other is the courage of 
people in standing up to build a new Iraq. One of the things 
that inspires their courage is the recognition of how horrible 
the past was and what a horrible future the terrorists and 
their Saddamist allies would like to bring Iraq back to.
    I said it earlier, the terrorists' great strength is their 
ability to kill and destroy in horrible ways, but it is also 
their great weakness. They offer no positive vision for the 
country. I go back to what that father of that impressive young 
interpreter I mentioned in my opening comments, whose sister 
was assassinated by the enemy because she was working with us. 
When asked, ``why do you still work with us after that?'' She 
said, ``my father told me you mustn't retreat in the face of 
evil.'' The Iraqis understand the evil of the past. It causes a 
lot of problems. It is in some ways a tortured country. But it 
also produces a great deal of courage to stand up in the face 
of it.
    Senator Sessions. Well, I thank all of you for the work and 
the commitment you have given to this. I do believe that we are 
at a point where we have to be there. We have to be strong, 
where they have to know that they have our support and that we 
are not going to cut and run. Then I think they will step up 
and they are going to continue to step up, and I am pleased to 
see people signing up to be policemen even though they are 
being targeted. That is also a very good indication. Thank you, 
Mr. Chairman.
    Chairman Warner. Senator, we thank you for bringing back 
some of those historical benchmarks as we look at today's 
problems.
    Senator Ben Nelson.
    Senator Ben Nelson. Thank you, Mr. Chairman, and thank you 
all for your service, your commitment, and for being here with 
us today. We appreciate it. For some time now, I have been an 
advocate and a proponent in particular for more NATO 
involvement, and I know that you all share the interest in 
internationalizing on a greater basis the effort in Iraq. Last 
month I sent Secretary Powell a letter stating this and 
suggested that for the U.S. Government, for the administration, 
to be asking for NATO's support may not be putting the best 
foot forward, particularly as it related to the President 
speaking to President Chirac most recently.
    I have felt and I continue to feel that the best proponent 
for that NATO involvement, the best petitioner would be Prime 
Minister Allawi. I understand the President is taking the Prime 
Minister's letter to NATO right now to ask for that support. 
Once again, if we are going to take the training wheels off, we 
need to talk about sovereignty. In this sense, I am more 
interested in that they appear to be the petitioner rather than 
the puppet. I wonder how we believe we are going to get the 
right kind of result? How are we going to get a ``yes'' when we 
have been getting in some cases polite and in some cases a 
little less polite ``no's'' so far? I would leave it up to 
either Secretary Armitage or Secretary Wolfowitz to respond.
    Secretary Armitage. Senator Nelson, I will give it a go. 
The Prime Minister's letter was to NATO Secretary General Jaap 
de Hoop Scheffer which puts him right in the spot that you were 
suggesting to Secretary Powell: go to NATO and let NATO and the 
Secretary General bring this forward. In my understanding that 
is the discussion that the Secretary General wants to have. We 
are obviously going to support it.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Senator Ben Nelson. But we are a fairly expensive courier 
too, are we not?
    Secretary Armitage. Well, we are couriers, but the 
President is going to be there anyway, so he will speak up. 
Both Paul and I have spoken in Brussels to the North Atlantic 
Council (NAC) about these matters, not putting ourselves in the 
position of being the--we wanted to just have the discussion 
about what the equities were in Iraq. If we are successful, and 
that is a democratic country, you have just changed the Middle 
East in a way that was unfathomable 4 years ago, and trying to 
get NATO friends interested in this. I believe they are. We 
have had several discussions with the Secretary General. He is 
going to carry the water at Istanbul, but we are certainly not 
going to shy away from supporting him fully. We have made our 
views known on this.
    Senator Ben Nelson. Mr. Secretary?
    Secretary Wolfowitz. It is worth pointing out that 15 of 
the 33 coalition partners are NATO allies. Some 18,000 NATO 
troops are serving alongside us in Iraq today, not as NATO but 
in their national capacities and quite heroically. Some 100 
coalition soldiers have lost their lives in this fight already 
to date.
    NATO's capacity has been whittled down enormously over the 
last 10 years. We are finding that our allies are stretched 
pretty thin just to support what they are already committed to 
in Afghanistan. We are working with them; we are hoping for 
more; we are hoping particularly that some who have not 
contributed yet, like the French and the Germans, might be able 
to contribute to the U.N. protection mission in Iraq.
    Senator Ben Nelson. We are looking for that in some 
capacity, training security forces rather than providing 
operational forces.
    Secretary Wolfowitz. That is exactly what I wanted to say. 
The Prime Minister later emphasized that our NATO allies have a 
lot of capacity to train and equip Iraqi forces. That could be 
a very helpful contribution that does not put additional strain 
on their own forces.
    Senator Ben Nelson. But on the basis of perception versus 
reality, it just struck me that you cannot be partially 
sovereign any more than you are sort of unique. It would have 
been better for Prime Minister Allawi to go and become the 
petitioner and make his presence known in that request.
    Secretary Armitage. My understanding is Foreign Minister 
Zebari is going to fulfill that role at Istanbul.
    Senator Ben Nelson. He is not taking the letter apparently.
    Secretary Armitage. Pardon me?
    Senator Ben Nelson. But he is not carrying the letter.
    Secretary Armitage. The letter has been sent. Every NATO 
member has it. We have it, but he is going to fulfill that 
role. There is a question about whether the Prime Minister at 
this crucial time of turnover should be out of the country. I 
would argue no, saying that is why he is not there.
    Secretary Wolfowitz. Senator Nelson, I do not think we are 
the ones carrying the letter. My understanding is the letter 
went on Monday by whatever courier system from the Prime 
Minister directly to the Secretary General.
    Senator Ben Nelson. All right, thank you. My other question 
is, as we--and I understand the analogy about a bet, but I hope 
we are not into gamble du jour as we move forward. We look at 
Fallujah; we expected a laying down of the arms, that we would 
be liberators, not occupiers, that the number of troops that we 
took to accomplish our mission were based on certain 
assumptions. We may not have secured the ammunition dumps. I 
know it is a very difficult task, but we did not do that. Now 
we are facing Improvised Explosive Devices (IED). We did not 
keep the peace in order to win the peace because law and order 
broke down at certain points.
    Do we have a backup just in case the security efforts that 
we expect to get from the Iraqi people fighting for themselves 
does not materialize the way we believe and hope and maybe bet 
that they will?
    Secretary Wolfowitz. Senator, you always have to be 
prepared to adjust and especially adjust the schedule. We 
acknowledge that it has been slower, partly because of our own 
procedures on our side getting some equipment in the hands of 
Iraqi forces, for example. We will meet that schedule. If we do 
not, we just have to be prepared to be a little more patient. 
The ultimate goal is an Iraq that is governed by Iraqis and 
defended by Iraqis. That is really the only formula for 
success. It has worked in many other places over the last 50 
years; it can work there.
    Secretary Armitage. If I may, Senator Nelson, it is 
interesting to note that even with the horror of the beheadings 
and the terrible tragedies there, some of our coalition 
partners have actually extended their mandates with 
overwhelming votes in their Parliaments, the Italians, and the 
Dutch, for instance.
    Secretary Wolfowitz. The Koreans.
    Secretary Armitage. The Koreans went ahead in the face of 
this. I apologize for even using the betting terminology. I did 
not mean to be so frivolous, but we are making the assumption, 
a good assumption, that Iraqis will fight for Iraq with more 
enthusiasm than they fight for what is seen as an occupying 
power.
    Senator Ben Nelson. Thank you. Thank you, Mr. Chairman.
    Chairman Warner. Senator Dayton.
    Senator Dayton. Thank you, Mr. Chairman. I agree with the 
sentiments that have been expressed by my colleagues on both 
sides of the aisle here. It is imperative that we succeed in 
Iraq both in reality and in national and international 
perception. I am concerned. This parallels some of the other 
questions that have been asked, but I want to go into it again, 
because our troops have been heroically performing there for 
over a year. They have won the victories that the President 
initially said were the primary reasons for this war. They 
toppled Saddam Hussein's regime; they eliminated or captured 
him, his sons, and most of his henchman; they determined 
conclusively that there are no weapons of mass destruction that 
threaten our national security.
    It seems to me that now our mission and therefore the 
preconditions for our success in Iraq have been expanded. The 
President said it in his speech at the War College last month. 
``Our agenda is freedom and independence, security and 
prosperity for the Iraqi people.'' How long is it realistically 
going to take before we could imagine that we would see Iraq 
achieve that level of progress? Either Secretary Wolfowitz or 
Secretary Armitage. This is more policy than military.
    Secretary Wolfowitz. It is important to keep some 
historical perspective here. First of all, we were absolutely 
clear from the beginning that we had to win the peace as well 
as win the war. We are still fighting the war. I would not say 
the majority of Saddam's henchmen have been defeated. 
Unfortunately, they are a significant part of the enemy that we 
are facing and they are still out there. Saddam himself did not 
surrender until he was captured, and his close associate, 
Ibrahim al-Duri, has not surrendered yet. He is probably 
funding terrorism.
    Senator Dayton. Top henchmen, I stand corrected.
    Secretary Wolfowitz. No, it is actually some of the more 
junior ones who are the real professional killers like the 
members of this muhabarrat unit called the M-14. It is a so-
called anti-terrorism unit--excuse me, it is George Orwell at 
work. They specialize in kidnappings, hijackings, bombings, and 
assassinations, and they are still doing bombings and 
associations.
    The enemy is still out there. It is an evil enemy. The 
Iraqi people know what an evil enemy it is, and they know what 
evils it did in the past. The key to winning here is building 
Iraqi capacity. We hope we can do it faster than in Germany at 
the end of World War II, but I mentioned earlier it was not 
until 1948 that we came in with a Marshall Plan because we saw 
Europe going down the tubes. It has been decades in Korea, and 
I hope it is not decades in Iraq.
    Patience is important here particularly because--and it is 
a kind of paradox--the more patient we are, the less we will 
have to wait, the more people are convinced that we are not 
leaving. I welcome Senator Kennedy's comment earlier; I hope 
everyone on the enemy side and our side in Iraq understands 
Americans are not cutting and running. The Iraqis are not 
cutting and running. The sooner everybody understands that, the 
sooner at least the less hard core enemy will say, ``okay, I 
give up,'' especially if this government can find ways to peel 
off the less evildoers and bring them back into society.
    Senator Dayton. Mr. Secretary, I do not know anybody here 
who is talking about cutting and running, and I really----
    Secretary Wolfowitz. I did not say----
    Senator Dayton.--every time these question are raised, sir, 
we are put, those of us who ask----
    Secretary Wolfowitz. Senator Dayton----
    Senator Dayton. Let me make my comment, please. We are put 
in this situation, and words are used by either colleagues or 
the administration that we lack resolve, that we are cutting 
and running, that we are going to be defeated. I am saying our 
forces, our troops, heroically won the victories they were sent 
for. There are 140,000 of them over there now. Their families 
are back in Minnesota and other States, and, sir, they are not 
patient. I do not think it is realistic to expect them to be 
patient.
    I have talked to a lot of the men and women who have served 
over there back in Minnesota, and they are proud of what they 
did. No one is complaining about being there really in the 
bottom of the corps, but they are not patient to come home. 
They should not have to be, sir. These are matters of policy. 
That is why I really am offended when we ask the challenging 
questions here and even more by some of our colleagues who were 
accused of not supporting our troops. I support our troops. I 
want to bring them home safely as soon as possible with their 
victory secure. I know you do too, but I want to----
    Secretary Wolfowitz. Senator, I am impatient----
    Senator Dayton. I am not done. We have a responsibility to 
the American people and especially to the families of those who 
are serving over there and to those who are serving over 
themselves to be straight with them about what we have put them 
in there for at this point now and when we expect to have them 
come home.
    I will give you a chance to respond, sir--I am sorry. 
Senator Clinton asked General Casey how long he thought we were 
going to be keeping this current force level of 140,000 is what 
he identified. He said, as the chairman pointed out, for 
planning purposes, they are talking about keeping that force 
level there through February 2007. That is a long time from 
now. Is that what we really have gotten ourselves into here, 
that kind of force strength for that period of time?
    Secretary Wolfowitz. Senator Dayton, first of all, I share 
your impatience to win this thing. We are very impatient when 
it comes to things like building up Iraqi security forces 
because that is how we are going to win. I only meant, and 
believe me, I was welcoming the fact that nobody that I hear in 
responsible positions is talking about cutting and running. It 
is very important that that message is clear to all Iraqis.
    What General Casey talked about is a planning assumption, 
which is to say, you figure out how you will manage, if that is 
the way things turn out. It is not a prediction. I think anyone 
would be kind of foolish to make predictions. I do not think 
General Casey was. Bosnia, which was a much simpler situation, 
turned out to be longer than it was predicted initially. We 
have made steady progress there. It is 8 years later, and we 
are about to finally end that mission. Korea and Europe, which 
were really high stakes missions like this one, have lasted a 
long time.
    I am most impatient, though, sir, not at the numbers issue 
but at getting Iraqis in the front lines so that they are the 
ones that are doing the fighting. If our troops are there, at 
least they can be there in relative safety in a supporting 
role. That is really what we are working for. That is General 
Abizaid's strategy as we could lay it out for you in a 
classified session. It has to put us in the supporting role and 
Iraqis in the front role.
    It is working in some places. It is working up in Mosul. It 
seems to be working down in Basra. We would like to see it 
working all over the country.
    Senator Dayton. My time is up. Let me just clarify one 
point if I may. I met with some Iraqi citizens in Minnesota 
last weekend, half of whom are now American citizens and others 
here illegally. They said that a couple of them had been in 
Iraq just recently, one of them in particular in Baghdad in the 
last several weeks. He said that the electricity situation in 
Baghdad is now typically 8 hours on, 16 hours off, and 
sometimes it's worse than that. Is that accurate?
    Secretary Wolfowitz. I cannot speak to precise numbers. The 
sabotage levels are very high, and that produces a lot of 
shortages. Actually the production is up. It is now 
considerably up over what it was pre-war. Demand is also up. 
When you fly over Baghdad, you see every roof just covered with 
satellite dishes, and people are buying air conditioners that 
never had them before. The supply is growing but the demand is 
going up.
    Senator Dayton. My question, Mr. Secretary, is that an 
accurate statement, the conditions in Baghdad?
    Secretary Wolfowitz. I would have to check. I do not think 
it is that bad, but there are a lot of blackouts.
    Chairman Warner. Perhaps you can provide that response for 
the record if you do not have it accurately.
    Secretary Wolfowitz. General Myers----
    General Myers. Well, I do not have it accurately, but I 
think that there has been terrific sabotage against 
transformers and power lines in recent days. Prior to that, we 
had produced more electricity than Iraq has ever seen in its 
history. Now the ability to distribute is impacted by the 
attacks in the infrastructure. We have mitigation efforts 
underway right now to mitigate that.
    Senator Dayton. We all know, having been there in the 
summer, if that is close to the situation, whatever the 
circumstances, I realize those sabotages are going on--
refrigeration, air conditioning, and running water, and the 
population--that is one of the reasons they are not happy. 
Thank you, Mr. Chairman.
    Chairman Warner. Thank you very much, Senator. I want to 
make sure on the issue of bringing the troops back each of the 
witnesses had adequate opportunity to reply to Senator Dayton's 
question.
    Secretary Armitage. If I may, bringing the troops back will 
be a function of security. Let me defer to my colleagues, but 
this is the Armed Services Committee. It is fair also to 
commend, in addition to the 140,000 heroic troops who serve, 
the hundreds of diplomats who serve, and by the way, do not 
carry guns, and have served and will continue to serve these. 
They are your citizens as well, and they are our sons and 
daughters as well. I know this is not a committee that normally 
talks about diplomats, but I represent them now. I appreciate 
the opportunity to put that in.
    Chairman Warner. Thank you, Secretary.
    Senator Dayton. We appreciate their courage.
    Chairman Warner. Just a minute, Senator Dayton. Let's just 
let the panel finish.
    General Myers. Mr. Chairman and Senator Dayton, I would 
just add that we are going to do prudent, worst-case planning, 
which may have been what General Casey referred to; I did not 
hear his comments. But we are going to continue to do that so 
we can continue to source and provide the kind of 
predictability that some units have not had. We have to do 
that. Nobody is predicting the force levels right now. General 
Abizaid has said he needs several months after the interim 
government stands up, and then he is going to take a look at 
where we are.
    Senator Dayton. I want to be very clear. General Casey said 
this was planning; he did not make a prediction.
    General Myers. Good, and----
    Senator Dayton. Secretary, about the diplomats and others 
who are performing heroically as well. Thank you.
    Secretary Armitage. We are going to be there for a lot 
longer than 2007. Our planning is way out there.
    Chairman Warner. All right. Thank you very much, gentlemen. 
Now we will go to Senator Akaka.
    Senator Akaka. Thank you very much, Mr. Chairman. Secretary 
Wolfowitz, this past Tuesday at a House Armed Services 
Committee hearing, you were asked about mistakes made in Iraq. 
In your answer you mentioned that you believed a mistake was 
made by not having the funding flexibility to field Iraqi 
security forces faster, and it has taken too long to get 
equipment, but it is finally arriving. You stated, ``If we had 
been a little less fussy about competitive contracting and a 
little more eager to get guns and radios in the hands of Iraqi 
police, it could have been done faster.''
    I must tell you that statement troubles me. Congress has 
appropriated billions of dollars in support of DOD's efforts in 
Iraq. The real problem is inconsistent administrative oversight 
and a lack of systematic controls on the part of the 
Department. My question is, can you please explain further what 
you meant when you stated, if we had been a little less fussy 
about the competitive contracting?
    Secretary Wolfowitz. I do not think I really mean that we 
should have been less fussy. We have very elaborate procedures 
for letting contracts. For example, one critical contract that 
was for equipping Iraqi security forces was awarded. It took 
some time to award it because of all the procedures that we 
have to go through to do a request for proposal and all of the 
things that go with it. Then it was appealed. When it was 
appealed--fussy is the wrong word--the lawyers told us, ``You 
cannot now go and use Iraqi funds to purchase the same things 
because that would be seen as going around the appeals 
process.'' So we added another couple of months before that was 
resolved.
    When you talk to our commanders, they say the money that we 
get through commander's emergency reserve program that comes 
straight to us is bid competitively. It is bid at a local 
level; it is bid without all of the large contracting apparatus 
that seems to grow as you go up the food chain. They get very 
good value for the money, and it is done competitively. So we 
should be fussy about how money is spent, particularly American 
taxpayer money. Sometimes procedures are cumbersome and are 
oriented more toward peacetime economic development programs 
and do not recognize that in war time these kinds of projects 
are every bit as important as tank ammunition. We find a way to 
do those things more expeditiously. That is really all I meant, 
Senator.
    Senator Akaka. In my questioning of hearings, I have been 
almost exclusively asking about contractors. I am concerned 
about contracting.
    Secretary Wolfowitz. You are right to be.
    Senator Akaka. I also have a follow-up question on 
contracting practices in Iraq. The recent prison abuse scandal 
has highlighted that there are many private contractors working 
in Iraq. Can you tell me, is the Department administering some 
sort of tracking mechanism of all of these contractor 
personnel? If so, who in the Department is responsible for 
maintaining and tracking both American-contracted employees as 
well as contracted employees from other countries?
    Secretary Wolfowitz. There are many different categories of 
contractors. Let me try my understanding, and General Myers or 
Secretary Armitage might have a different view. Contractors 
that work for the U.S. military we have certain 
responsibilities for, both for their conduct and for their 
protection. There are a large number of other contractors that 
work in Iraq. They are there basically on their own under 
obligations of Iraqi law. They are largely responsible for 
their own security. There is, I guess you might say, a middle 
ground where there are contractors that are in that latter 
category, but they are executing important reconstruction 
projects, many of them in fact funded out of our 
congressionally appropriated supplemental. Their security is a 
matter in the first instance of their responsibility, but it is 
a matter of concern for us. Our military commanders try to 
establish communications with those contractors so that in 
emergencies we can hopefully back them up. Obviously the 
tragedy that happened with the four Blackwater contractors in 
Fallujah is an example of where we were not able to help them, 
unfortunately.
    General Myers, do you want to add to that?
    General Myers. No. I think going forward after June 30 that 
the immunity that will be afforded to the U.S. Armed Forces 
will also be afforded to contractors that are working for the 
United States Government, as well as foreign liaison personnel, 
and so they are going to be protected as long as they are 
performing the duties they were contracted to perform. They 
will continue to have the right, the inherent right of self 
defense, all the contractors that are performing in Iraq.
    It is also true that the multinational force will have the 
authority post-June 30 to protect contractors. It will be up to 
the Commander of the multinational force, General Casey, now 
that he has been confirmed, and the contractors to work out 
where that will occur.
    Senator Akaka. Thank you for your responses. My time has 
expired, but let me say that I have been particularly concerned 
about the line of command and the way in which the contractors 
come under that line. We will be talking about that later. 
Thank you very much, Mr. Chairman.
    Chairman Warner. We thank you very much, Senator Akaka.
    Senator Bayh.
    Senator Bayh. Thank you, Mr. Chairman, and gentlemen, thank 
you. These hearings are important, but so are your other 
responsibilities. I am well aware that it takes some time to 
prepare for these things, so your trial by ordeal is about 
concluded.
    I have three questions. First, I would like to touch upon 
the stakes in the struggle in which we are engaged and the 
consequences to our Nation's security if we are ultimately not 
successful; second, how we hope to win; and finally, what 
contributions toward our success we can expect from the Iraqis 
in the near term.
    First, as you are well aware, there were differences of 
opinion about embanking upon this course of action, but we are 
there now. I would like for you in particular, to get your 
opinions about two things. First, if we were to withdraw 
precipitously, would those who are adverse to the interests of 
the United States of America in all likelihood after a period 
of violence seize control of Iraq. That is number one.
    Second, have these people articulated any positive agenda 
for that country? Do they have political demands or are they 
simply opposed to the democracy and freedom we are attempting 
to create there? So that is another way of saying is there any 
alternative to a struggle to try and suppress them. They have 
no positive agenda that they are pursuing in the political 
process? So, number one, are adversaries likely to seize 
control of the country if we do not persevere? Second, do they 
have any positive agendas or any grounds for negotiation, or is 
this simply a struggle that we must persevere in and ultimately 
succeed?
    Secretary Wolfowitz. You used the word precipitously, and 
that is the key. Ultimately and hopefully sooner rather than 
later, we hope in fact we can significantly reduce our presence 
and our role. But it has to be keyed not to a particular date, 
but rather it has to be keyed to the building of Iraqi 
capacity.
    It is remarkable the extent to which this enemy offers no 
positive vision at all. We have a group of death worshippers on 
the one hand. Mr. Zarqawi and his people believe in blowing 
themselves up so they can blow up other people. We have the 
killers from the old regime who have been doing that sort of 
torture and chopping off of hands and cutting out of tongues 
that Senator Sessions referred to earlier for several decades.
    I will say it again. That is why so many Iraqis are 
prepared to stand up and fight for what they call, very often 
the phrase seems to be a ``new Iraq.'' It means a free Iraq. It 
means things that we Americans will like, but for them it is a 
new Iraq. It is the newness that is important, and it has to be 
their country. Our great strategic advantage is that the enemy 
offers nothing.
    Senator Bayh. It seems to me we are involved here as a test 
of the perseverance and the staying power of the American 
public. The reason for my question is--I anticipated your 
answer--it seems to me that there is no positive agenda on the 
part of our adversaries. In fact they would be hostile to the 
interests of the United States of America. It is important for 
the American people to be aware of that, because that will 
obviously factor into their support for the cause upon which we 
have embarked. General?
    General Myers. If I may, you asked what the stakes are, and 
the stakes go far beyond Iraq. Iraq is very important, and it 
has all the potential that Secretary Armitage said. But this 
goes back to a question that was asked earlier where we showed 
U.S. resolve in 1983 in Beirut in a certain manner. We did it 
later on in Somalia. We did it after the U.S.S. Cole attack. We 
did it after Khobar Towers. This adversary is an extremist 
movement--their aim is to go back to the 7th century and 
establish Caliphate for Muslim nations. That is a threat that 
is a very extreme threat that is bigger than Iraq, but Iraq is 
a crucial battleground for them. What they are counting on is 
the same sort of reaction they saw in 1983, the same sort of 
reaction they have seen every time we have been tested.
    It goes to the question that Senator Sessions talked about, 
which is the test of wills and resolve. This is clearly a test 
of wills, it is clearly a test of our patience. It is 
absolutely essential to our national security. As the military 
advisor to the President and NSC, do not think there has been a 
greater threat to our national security than this type of 
extremism through a few perpetrators. On September 11, 2001, it 
was 19 individuals that brought down the World Trade Center, 
killed 3,000 individuals, hit the Pentagon, and killed several 
hundred more.
    Senator Bayh. It is important for the American people to 
know what the stakes are, both on the up side, as Secretary 
Armitage mentioned, spreading democracy, but also on the down 
side if we are ultimately not successful.
    General Myers. Could not be higher in my opinion.
    Secretary Armitage. If you will allow me.
    Senator Bayh. Yes, and then I do want to get to my second 
question. Please go ahead.
    Secretary Armitage. What has happened in the last couple of 
weeks in the Middle East is rather amazing. You have had the 
Arab League and the Organization of Islamic Countries (OIR) 
come out and put a forward-looking, very positive view of the 
new Iraqi Government. Now, why do I underline this? That 
government is not yet democratic, but the whole aim of that 
government is to get a democracy in the Middle East by December 
or January 2005. You put that together with what came out of 
the G-8 in terms of what is now being called modernization in 
the greater Middle East, which is another word for reform. You 
have some real movement that could be thwarted in the Middle 
East in general if we do not follow through and if we are not 
successful.
    Senator Bayh. Thank you. My second and now final question 
has to do with how do we win. We have established here that our 
adversaries are not engaged in the political process. They 
reject civil society, they have a view they would like to 
impose akin to the Dark Ages, and it seems to me unlikely that 
at least in the foreseeable future we will be able to kill them 
all. So how do we ultimately win this?
    Here is the point that I would like to get to. Ultimately 
it is the Iraqi people themselves that need to reject these 
extreme elements and themselves make the conditions within 
which they flourish no longer existent in that society. Things 
are fairly good in the north with some exceptions; they are 
fairly good in the south. So am I correct in saying what we are 
really talking about here is the Sunni part of the country? 
Which gets to my question, what will it take to enlist the 
Sunnis in the cause of building a democratic, stable Iraq? As 
mentioned by some of my colleagues, what are the benchmarks 
that we are seeking to establish? How will we know that we are 
making progress with the Sunnis and the Sunnis themselves 
reject these sorts of extremist elements in their own midst? I 
am assuming without the Sunnis ultimately coming on board it is 
going to be very difficult to establish the kind of security 
given the symmetry here that we are going to need for democracy 
to be successful.
    Secretary Armitage. You are dead right. They have to have 
them on board. One of the things that has been accomplished by 
the Iraqi interim government (IIG) that really helped calm part 
of the Sunni population down was the number of Sunnis who 
participate on the IIG. You saw one of them, the President, who 
happens to be a leading tribal sheikh as well. So the first 
element of bringing them on board is to make sure they 
understand that they have a future in the new Iraq and they 
would not be disenfranchised. That is number one.
    Number two, they have to see that some Sunnis do hold 
positions of legitimate and real power, which they see. Number 
three, we have to do a better job, and one of the mistakes that 
I have testified with Paul about that we made is we did not 
empower the tribal sheikhs to a higher degree earlier on. We 
have to continue that. Number four, we have to continue to 
bring down the unemployment in the Sunni areas, which our 
military commanders, I think, are doing a fantastic job by use 
of the CERP funds. So all the elements are there, and they are 
coming together. Now, will they, Senator? I do not know. I 
think so.
    Secretary Wolfowitz. I would add, Saddam practiced almost 
equal opportunity oppression. He killed enormous numbers of 
Sunnis as well. Part of our problem throughout the country and 
particularly in Sunni areas is people do not like to be 
occupied. Amirasunni, out near Fallujah, who was a Sunni, said 
to General Matti's, ``In my heart, I want you to leave 
tomorrow. In my head I know I need you for a while longer.''
    I met up in Mosul with this very courageous governor who on 
April 9, when they were under attack from the enemy, stood his 
ground through the night in the government house. While the 
police were unreliable, the civil defense corps people and the 
facilities protection service people stood their ground. They 
were able to fight off the enemy knowing that we were there to 
help if needed, but they did not need us. It is a wonderful 
story, and this man is a Sunni Arab.
    Having them have their own government, their own country, 
and getting us out of this situation of making them an occupied 
country will help particularly--it will help with everyone, but 
particularly with the Sunni Arabs.
    Senator Bayh. The last thing I would say, and Mr. Chairman, 
thank you for your forbearance. General, since I am on, as 
Senator Roberts, Warner, and others are, the Intelligence and 
Armed Services Committees--I would assume that another 
indicator will be the intelligence flow that we are getting. It 
will enable us to conduct some of these pinpoint strikes in 
Fallujah and places like that and the extent to which Sunnis 
and others are saying: look, here is where the bad guys are, we 
do not want them in our midst anymore, help us eradicate them.
    General Myers. That is absolutely essential and absolutely 
has to be part of it, Senator. You are right. That is what 
General Casey will work on very hard, because we have already 
started with his predecessor. That is how do we share 
information. We have to be able to move information around very 
quickly in this type of threat environment. There are some 
structural things that need to be done as well. We have to be 
willing to share, and they have to be willing to share. So far, 
the Iraqis have been very willing to share information with us, 
and we need more of that type of help absolutely.
    Senator Bayh. Thank you very much.
    Chairman Warner. Thank you very much, Senator. Particularly 
that last question goes to the heart of what we are trying to 
work with.
    Senator Pryor.
    Senator Pryor. Thank you, Mr. Chairman. Secretary 
Wolfowitz, I would like to focus if I could for a minute on Mr. 
Zarqawi. I would like to ask if he is or is not al Qaeda? The 
reason I am asking this is because in today's New York Times it 
says, ``intelligence officials say it is not clear if Mr. 
Zarqawi is an associate or a rival of Mr. bin Laden.'' Then it 
goes on to talk about he has shown a propensity to target 
Shiite Muslims, whereas apparently Osama bin Laden is trying to 
unify the Muslim world. I would like to get your thoughts on is 
he or is he not al Qaeda.
    Secretary Wolfowitz. The relationship between him and bin 
Laden is murky. He was running a terrorist training camp in 
Afghanistan under the Taliban when bin Laden was in charge. He 
seems to have an association that goes back some ways. That is 
why we talk about him as associated though rather than--he 
obviously shows a streak of independence. He is not just an 
anti-Iraqi terrorist. He is done terrorist actions in Jordan. 
In fact, he was involved in the millennium plot in Jordan back 
in the year 2000. He has been involved, we are pretty certain 
about this, in plots in Georgia in the former Soviet Union, in 
London, in Paris. This is a worldwide terrorist with probably 
his own ambitions. The important point is he is a killer.
    Senator Pryor. He is on the loose in Iraq.
    Secretary Wolfowitz. Yes.
    Senator Pryor. Now, I understand that we are in an open 
session here, and I am sensitive to that. If you cannot 
comment, I would like to follow up in a different forum, but 
did we have a chance to take Zarqawi out of the equation in the 
early days of the campaign in Iraq, maybe even before we 
started the war phase in Iraq?
    Secretary Wolfowitz. There are some legends maybe if we had 
a chance we could have gotten him in August 2002. I do not 
think that is true. There was a major strike on the facility in 
northeastern Iraq with which he was associated at the beginning 
of the war. A considerable number of this Ansar al-Islam group, 
which again is separated but affiliated, separate from either 
Zarqawi or al Qaeda. Alot of them were killed and some 
importance intelligence was collected, but we do not think Mr. 
Zarqawi was there at the time.
    Senator Pryor. General Myers, do you agree with that?
    General Myers. Yes. I do not think we have enough 
information to make that judgement. We know he was affiliated 
to some degree with Ansar al-Islam who had this enclave in 
northeastern Iraq, but his exact whereabouts when and where, we 
were never certain of that.
    Senator Pryor. That is fair enough. Secretary Armitage, 
recently you were quoted as saying ``the U.N. Security Council 
Resolution will make it very clear that this is a fully 
sovereign Iraqi Government. We will only be in Iraq under U.N. 
mandate with the invitation of the Government of Iraq. They 
have invited us in, they can invite us out. That seems to me to 
be pretty sovereign.''
    I would like to follow up with an answer that you gave to 
Senator Levin's question early on in this hearing. 
Specifically, in response to Senator Levin's question, are you 
saying that the interim government has no authority to ask us 
to leave Iraq?
    Secretary Armitage. I said quite the contrary. I said the 
interim government, as a matter of fact, could ask us to leave 
Iraq, and we would leave.
    Senator Pryor. Okay. Now, I am sorry, General Myers maybe 
said that the previous--or the current iteration of government 
there kind of binds the interim government. I do not know all 
the legal issues there, but is there a difference of opinion 
between State and Defense on this question?
    Secretary Wolfowitz. No, there is no difference of opinion. 
What General Myers was referring to was the fact that the 
legislation that is a product of the CPA continues in force 
under this sovereign government. There are certain procedures 
under which it can introduce its own decrees and change things, 
particularly with respect to things like negotiating agreements 
with foreign countries. That comes in when there is an elected 
government in January.
    The basic point of sovereignty which Secretary Armitage 
referred to is it has the fact. Let's also say very clearly 
they have said now more times than I can count, we need you, 
please stay, and it is a fairly theoretical discussion right 
now.
    Senator Bayh. But it may be theoretical, but just let me 
ask the question. If they ask us to leave, will we leave?
    Secretary Wolfowitz. We have made that clear repeatedly.
    Senator Bayh. That we will leave if asked. Do we have a 
plan for that? Do we have a plan for withdrawal in the event 
that they do ask us to leave?
    Secretary Wolfowitz. We do not think they are going to ask 
us to leave, Senator Pryor.
    Senator Pryor. But that is not my question. Do we have a 
plan?
    Secretary Wolfowitz. If we thought it was a realistic 
possibility, we would develop a plan. If it were to happen, we 
would develop a plan.
    Senator Pryor. So as we currently sit here, we do not have 
a plan. I know they have not asked us yet, but I am just 
asking. Have we done any planning for that eventuality?
    Secretary Wolfowitz. No, I do not think so.
    Senator Pryor. Last thing I wanted to ask about, and I know 
Senator Clinton would like to ask, so I am going to try to make 
this brief, there has been a lot of discussion in the media at 
least about Chalabi and what is going on there. I am not sure 
that we have had a chance in this committee to really hear in 
the last couple of weeks because we have been so tied up on the 
floor with Defense Authorization. Mr. Secretary, if you would 
like to offer any comments on Chalabi, I just thought you may 
want to have a chance to do that right now.
    Secretary Wolfowitz. I am not sure what kind of comment you 
are looking for.
    Senator Pryor. Well----
    Secretary Wolfowitz. I mean, there are intelligence issues 
that are frankly the purview of another committee and would 
require a closed session. He is one of many Iraqi opposition 
figures with whom we have worked over many years. In fact, Mr. 
Allawi is another. The Deputy Prime Minister, Barham Salih, is 
yet another. Contrary to what I continue to read in the 
newspapers, we do not have favorites. We very much believe in 
the Iraqi people picking their own leaders, and that means you 
cannot have favorites.
    Senator Bayh. Secretary Armitage, any comments on Mr. 
Chalabi?
    Secretary Armitage. The Department of State's relationship 
with Mr. Chalabi has been well documented. It was quite rocky. 
I have no new information on him.
    Senator Bayh. Thank you.
    Chairman Warner. Thank you very much, Senator.
    Senator Dole.
    Senator Dole. Thank you, gentlemen, for your tremendous 
service to our country. Secretary Wolfowitz, I find it 
ludicrous that anyone would suggest that no relationship 
existed between Saddam Hussein and terrorists. Senator 
Lieberman stated the case very succinctly by saying that the 
war in Iraq is the central battleground in the war on terror. 
Yet polls show evidence that Americans are not making this 
connection. The media has made an obsession about denying al 
Qaeda had any link to Iraq.
    You have made references to several other terrorist groups 
including Abou Ibrahim and his professional killer group that 
was harbored by Saddam and making bombs today to kill 
Americans. Iraq was one of the five states on the original 
patterns of global terrorism list compiled by the State 
Department, as I understand, in 1979, which cited Saddam as a 
major sponsor of various terrorist groups, including the PLO, 
Hamas, and the Abou Nidal organization. Would you not agree 
that Iraq was a breeding ground for terror under Saddam 
Hussein?
    Secretary Wolfowitz. I think it was, yes, Senator Dole.
    Senator Dole. Do you not agree that the removal of Saddam 
Hussein and his evil regime was a positive step in the overall 
war on terror?
    Secretary Wolfowitz. I absolutely think it was, and it has 
a step though that we have to finish winning that fight. We 
have to finish winning the peace in Iraq.
    Senator Dole. A marine officer in a Washington Times 
article was quoted as follows, ``the problem is that there's no 
identification (ID) system, so it is not out of the ordinary 
for a target to either not have an ID or to have several IDs 
with different names. Terrorists could easily be moving from 
town to town using several different names and appearances.''
    Secretary Armitage, do you know if the Iraqi Government has 
a plan to implement any form of registration or identification 
program? General Myers, how are our multinational forces able 
to identify friend from foe, or identify Iraqi forces from 
civilians or from insurgents?
    Secretary Armitage. Senator Dole, there have been 
discussions with the new government about a national ID that 
may even have a chip embedded in it. The discussions have not 
progressed to my knowledge far enough along to be able to talk 
what the cost would be and how we would go about this. But we 
have to find some way to register people.
    Senator Dole. General Myers?
    General Myers. In terms of identifying the enemy from 
innocent civilians, it is very difficult in Iraq because the 
enemy hides amongst the civilians and will put civilians in 
front of their formations very often. So the way they identify 
them is those who have the guns, those who are firing back, 
they have the inherent right of self defense, of course. Then 
when we have very good intelligence and precise intelligence, 
then we can go precisely after them, whether it is U.S. forces 
or our coalition friends and partners.
    But it is a difficult job in Iraq just because they are not 
adhering to any tenet of the Geneva Convention at this point. 
They are all dressed like everybody else.
    Senator Dole. Secretary Wolfowitz, were you about to answer 
on that question?
    Secretary Wolfowitz. Well, I just wanted to say we 
discussed that subject specifically with Prime Minister Allawi 
when I was in Iraq. He believes what we are calling biometric 
IDs of some form would be very helpful in improving the 
security situation and so do our commanders, by the way.
    I do not mean to interrupt your questions, but could I say 
something? It is important in looking at this overall issue of 
the relationship between the Iraqi regime and terrorists of 
various kinds. You correctly point out there are various kinds. 
In fact, Abou Ibrahim, who you mentioned, is a recognized 
Palestinian explosives expert who has been in Iraq for the 
better part of the last couple decades. His organization called 
the 15 May organization is basically just a branch of the Iraqi 
intelligence. This year, coalition forces conducted a raid in 
the vicinity of Mosul that disrupted a bomb-making shop that is 
attributed to his work.
    It has been a killer regime that works with killers of 
various kinds. The question I wanted to put in perspective is, 
what is the standard of proof? We seem at times to be going 
back to the idea that fighting terrorism is a law enforcement 
operation. Until you can prove involvement beyond a reasonable 
doubt, you should not do anything. I would go back to what we 
heard repeatedly and still hear sometimes from the 9/11 
Commission about the need to connect the dots here. The fact 
that there was ambiguous information before September 11 that 
in hindsight most of us wish we might have done Operation 
Enduring Freedom in Afghanistan 3 years earlier instead of in 
2001.
    It is a very difficult subject, and there is enormous 
uncertainty. Intelligence is not legal proof; it presents 
contradictory facts. You have to assess them, you have to weigh 
them; and then you have to attach probabilities to them. But 
for me, and for many other people, the level of tolerance that 
we could have for states supporting terrorism in the way that 
Saddam was supporting terrorism just changed dramatically when 
we saw what terrorists could do to us on September 11.
    Senator Dole. Thank you very much. Let me say too that I 
respect your apology to the media regarding comments made about 
their coverage. However, your comments were taken out of 
context, and I can relate to your frustration because press 
coverage of the war has been skewed. For example, the coverage 
of the 9/11 Commission, in my view, has been outrageous.
    Now, building on what Senator Sessions mentioned while I 
was presiding, between May 4 and yesterday, The Washington Post 
ran 399 stories about Abu Ghraib and the New York Times ran 437 
stories during the same period. However, the documentary 
highlighting atrocities under Saddam Hussein in that same 
prison received little or no coverage by the mainstream media. 
Can you speak to the significance of that documentary, the Don 
North documentary?
    Secretary Wolfowitz. This is the one that talks about the 
seven Iraqis who had their hands cut off?
    Senator Dole. That is right.
    Secretary Wolfowitz. I have not seen it. I have heard about 
it. I have met the seven Iraqi businessmen who were picked up 
in the mid-1990s. Saddam wanted to be able to blame the state 
of his economy on somebody else, and he said it was because 
these people were engaged in black market currency activities. 
They had their right arms amputated, all seven of them. 
Fortunately through some American benefactors, they were taken 
to Texas and recently had artificial limbs provided.
    The shocking thing is that kind of cruelty, that kind of 
brutality was mild in Saddam's era. Senator Lieberman, Senator 
Sessions, and Senator Santorum the other day--again, I did not 
see it; I have read about it; although it is hard to read about 
it, there has been almost no mention of it anywhere in the 
press--gave a press conference in which I understand they 
showed a 4 or 5 minute video that showed the various kinds of 
things that the Fedayeen Saddam did to their own people if they 
were suspected of not carrying out their missions, one man 
having his arms broken, somebody having his tongue cut out. You 
can read about it. It is hideous enough to read it without 
seeing it. It seems to me that it introduces a kind of 
distortion when there is virtually no coverage of that. This is 
not to say that we hold ourselves to that standard, absolutely 
not. What took place in Abu Ghraib, as the Secretary of Defense 
has said, is a body blow. We are investigating it, we are going 
to discipline people and punish people appropriately.
    Unless you really understand just how horrible the old Iraq 
was, the American people are going to have trouble 
understanding the incredible courage with which so many Iraqis 
are stepping forward to create and defend a new Iraq. That is 
what gives me great hope.
    Senator Dole. Thank you very much. Thank you, Mr. Chairman.
    Chairman Warner. Thank you, Senator.
    Senator Clinton.
    Senator Clinton. Thank you, Mr. Chairman, and I apologize 
for not being able to get here earlier. I thank each of our 
witnesses for once again appearing before this committee.
    Secretary Wolfowitz, on several occasions, I and others 
have raised predictions and comments you made before the action 
commenced in Iraq. Just as an example, on February 19, 2003, on 
National Public Radio, you said, ``We're not talking about the 
occupation of Iraq, we are talking about the liberation of 
Iraq. Therefore, when that regime is removed, we will find the 
Iraqi population basically welcoming us as liberators.'' In 
your speech before the Veterans of Foreign Wars (VFW) in March 
2003, you said, ``The Iraqi people understand what this crisis 
is about. Like the people of France in the 1940s, they view us 
as their hoped-for liberator. They know America will not come 
as a conqueror.''
    It is not only comments from you, but others in the 
administration, such as Vice President Cheney on Meet the 
Press, March 16, 2003, ``The read we get on the people of Iraq 
is there is no question but that they want to get rid of Saddam 
Hussein and will welcome us as liberators when we come to do 
that.''
    Were those statements by you and others in the 
administration based on intelligence, CIA intelligence, or 
other intelligence agency analysis?
    Secretary Wolfowitz. Senator Clinton, the Iraqi people in 
overwhelming numbers did welcome us as liberators. Just if you 
go back and read the headlines from any American newspaper on 
April 9, April 10, of people cheering us in the streets of 
Baghdad and all over the country. They were dying for 
liberation but two things happened. Saddam and his people did 
not quit on April 9. They continue to fight. We acquired this 
very burdensome label of being an occupying power. They wanted 
to be liberated, not occupied, and that is why what is going to 
happen on July 1 is so important. They will be a free country; 
they will have their own government. We will not be the 
occupiers; we will be supporting that government.
    You were not here when we talked about it. I was struck 
during the course of 4 days in Iraq at how many Iraqis we 
encountered who were ready to risk their lives for this new 
Iraq. We met a young marine private first class in Fallujah 
whose life had been saved by five Iraqi civil defense corps 
members who had put their own lives at risk to rescue him. We 
met with the Prime Minister, Prime Minister Allawi, who was 
almost chopped to death with an ax by one of Saddam's murderers 
in 1979, who is still the number one target of Mr. Zarqawi, and 
whose life is in danger of Iraq; and the President in Iraq, 
Ghazi Al-Yawar, his predecessor was assassinated in a car bomb 
just a couple of months ago.
    This one particularly moving example, which I will repeat 
because you were not here, a young Iraqi interpreter was 
working with our military up in Mosul whose sister was murdered 
a few weeks ago because she was working with us. When the 
general who was with me who knew her from before asked her why 
she continued to put her life in danger this way, she said, 
``Because my father told me we mustn't retreat in the face of 
evil.''
    We are confronting an evil enemy. The Iraqi people are 
confronting an evil enemy. Those people in overwhelming numbers 
still want to be liberated from that enemy. It was the mayor of 
a town near Fallujah that said to General Mattis, in my heart I 
want you to leave right now, but in my head I know we need you 
for a while longer. That's the dilemma of this situation that 
it is both our vulnerability and our great strength that we are 
facing an enemy that is tenacious, that kills very effectively, 
that has no scruples about killing innocents. That is also our 
strength because the overwhelming majority of Iraqis do not 
want that.
    Senator Clinton. Well, Mr. Secretary, based on that 
description, in retrospect, could we have avoided certain of 
the unfavorable consequences that you have just described if we 
had had more force in the beginning?
    Secretary Wolfowitz. Senator Clinton, the notion that we 
would be better off with 300,000 troops is wrong. More 
importantly our commanders, General Franks and General Abizaid, 
emphatically think it is wrong. There were a lot of people, and 
I happen to have been one of them, who were pushing General 
Franks. It was in the November time frame of 2001, saying, do 
you not need more troops in Afghanistan? He was pushing back 
and saying, I do not want to make the same mistake the Soviet 
Union made, and he was right. The reason we have been as 
successful as we have in Afghanistan is we have kept our 
military presence.
    Senator Clinton. But I am not asking you about Afghanistan, 
Mr. Secretary.
    Secretary Wolfowitz. I am about to say the same thing 
applies in Iraq. General Abizaid will consistently tell people 
publicly and privately he does not want to increase the weight 
of the American footprint on the Iraqi people. It would have 
been much better if we could have been in there from the 
beginning in support of an Iraqi government rather than as an 
occupying power. 300,000 troops, which no commander has ever 
remotely come close to asking for, would in fact have created 
more problems than it would have solved.
    There is no reason to think that we would have had any 
better luck catching these people where they hide if there was 
a heavy American presence--a heavier American presence. It was 
pretty heavy. What we need is better intelligence. One of the 
keys to better intelligence is more Iraqis on the front lines 
fighting with us, and that is what we are moving toward.
    Senator Clinton. At some point, Mr. Secretary, will there 
be any kind of after-action review by the civilian leadership 
in the Pentagon with respect to this mission? Certainly, those 
of us who heard General Shinseki, who at the time was the Army 
Chief of Staff, testify based on his best knowledge and 
experience the numbers that were needed have to conclude there 
was at least a debate within the professional military. Now, 
how that debate was determined obviously we have a regime of 
civilian leadership is obviously clear.
    To dismiss out of hand testimony we heard with our own ears 
and testimony that was very compelling and led to the public 
embarrassment of a distinguished soldier is a little bit 
difficult for us to accept.
    Secretary Wolfowitz. I am sorry, I do not think to disagree 
with someone should be publicly embarrassing. General Shinseki 
was in fact disagreeing with all of his colleagues on the Joint 
Chiefs of Staff and the Combatant Commander, General Franks. Is 
that not right, General Myers?
    General Myers. Actually, we did not--as we discussed about 
troop strength with then the Commander General Franks, which we 
did many times during the planning, during conflict, for post-
conflict, and then later on with General Abizaid, the issue of 
more troops never came before, never was brought up in our 
deliberations. Nobody said you need more. General Franks 
proposed what he thought was right. We had discussions and 
talked about it. Then we provided our military advice to the 
Secretary and the Deputy Secretary, but there was never a push 
inside the Joint Chiefs of Staff for more forces.
    Senator Clinton. Thank you, Mr. Chairman.
    Chairman Warner. Thank you, Senator. You raise that 
question which is continually raised about General Shinseki's 
figure. My own independent research on that reveals that I am 
not questioning the integrity of that fine officer, but I 
cannot find any trace of the Joint Staff ever discussing a 
figure of the magnitude that he mentioned right from that seat 
you are in, Secretary Armitage, nor in the Army in its 
deliberations, a figure of that nature. If I am wrong, let 
somebody show me the documents that support that anywhere in 
that building that figure was discussed and carefully thought 
through.
    I want to turn to this very important letter that the Prime 
Minister of Iraq sent to the Secretary General of NATO and talk 
a little bit about NATO, gentlemen. If I may say with the 
greatest respect, it was some 36 years ago that I walked in the 
Pentagon, roughly--exactly, as a matter of fact--February 1969 
in the Navy Secretariat and got my introduction to that 
magnificent organization referred to with the greatest respect, 
the North Atlantic Treaty Organization.
    It has unquestionably been the bulwark against the Cold War 
and today I have grave concerns. I pick up on your statement. I 
copied it down, Secretary Wolfowitz. NATO's capacity has been 
whittled down over the years, and we all recognize that. Yet 
here is this Prime Minister looking to NATO as he should, 
because the image of NATO today is resting on its glorious 
past, which I cannot find today. I say that--harsh as it may 
be.
    For example, in my most recent trip here a couple of weeks 
ago into Afghanistan and then into Iraq--as a matter of fact, 
Senator, it was one year ago tomorrow that you and I made the 
first trip of any Senators into Iraq. My good friend and 
colleague, we have traveled together many times. But in 
Afghanistan, I was particularly interested in the work being 
done by NATO, and it has been hailed.
    I found two points that concern me greatly. I talked to the 
senior officers, and they were very candid in their responses. 
Number one, the NATO forces actively working in Afghanistan 
today, largely on reconstruction, each country impores what 
they call national caveats on their forces. Those caveats read 
like when we used to send our children to school: ``Dear 
teachers, we cannot have this for lunch, and Johnny must be 
home by supper.'' Forget it. I looked through these caveats, 
and in large measure they said, the contribution of some of the 
forces, not all, by the member nations, we are not going to get 
engaged in the heavy lifting over in Afghanistan if the going 
gets tough. If anybody wants to dispute me, do so.
    We cannot constitute a force structure around NATO if we 
are going to have on the commander's desk independent sets of 
orders for the various components that go in to make the 
overall NATO force.
    The growth of the drug industry in Afghanistan is 
exponential. Someone estimated 60 percent, if such a figure can 
be worked out, of the gross national product of Afghanistan now 
is derivative of the illegal drug trade, much of it in those 
areas in which NATO is trying to perform some of its 
reconstruction. There is a projection for more NATO troops to 
come in, and each of the quadrants to be part of their area of 
responsibility (AOR). Yet I cannot find any clear evidence that 
the member countries of NATO are really in that planning stage 
to put those forces into place to result in the composite 
picture of NATO's role in Afghanistan.
    Now they are called upon to do another mission, and it is 
interesting. If you read it, ``at this critical juncture in our 
history, we need the urgent help of the international community 
and especially NATO in the crucial areas of training inside 
Iraq.'' That is not training them back in Brussels. That is not 
training them back in whatever they might have as the areas 
down in the training areas of Germany. That said inside, to me, 
that is quite a bit of infrastructure, quite a bit of troop 
commitment.
    Now, the combination of the national caveats--and I have 
watched the financial figures over the years--the United States 
has kept up its commitment financially, roughly a quarter of 
the total NATO budget. These other nations have scaled down. 
Now, take me on, tell me I am wrong, because I see NATO moving 
down a path to that immortal phrase that I sat in the hearing 
room of the Armed Services Committee and heard made by Shy 
Meyer of the United States Army when he said, ``we are a hollow 
Army.'' NATO will become a hollow force unless some very strong 
actions and determination take place by its member nations and 
take place very quickly.
    How can we expect NATO to perform this mission, given the 
current status of its inability to live up to commitments in 
Afghanistan? How can they take on this additional mission in 
Iraq?
    Secretary Wolfowitz. I am afraid I share your concerns. My 
colleagues may want to comment also. To give credit where it is 
due, there are quite a few NATO allies, and maybe it is not 
surprising that some of the newer ones that are up there on the 
front lines with us in Afghanistan fighting by all the tough 
rules of engagement that we have ourselves, like the Romanian 
special forces, who I think have done a great job.
    There is the problem that you mentioned of rules of 
engagement. There are terrific deficiencies in capability and a 
certain lack of political will. I am a great believer in NATO. 
It is remarkable if you think about how this alliance has stuck 
together over half a century when people said an alliance of 
democratic countries cannot possibly compete with basically an 
empire run from the center. We not only competed, but we also 
beat them. There is a lot of strength and viability in the 
common values that we share together.
    I worry a little bit though that maybe some in Europe think 
that they can wall themselves off from the threat that in fact 
threatens all of us. You mentioned the drug trade out of 
Afghanistan. That is a much more direct threat to Europe than 
it is to the United States, although it is a threat to the 
stability of the new government in Afghanistan, and therefore, 
we all have a stake in it. You cannot segment out different 
aspects of this fight against global terrorism or think that 
somehow, to use Winston Churchill's immortal phrase, to think 
that if you feed the crocodile, he will eat you last.
    Chairman Warner. I want to come back to this letter. What 
is the reality and the capability of NATO to move in? Secretary 
Armitage?
    Secretary Armitage. I want to take you on, if I may. We all 
have the concern about the hollowing out of NATO. We have to 
balance by an acknowledgment that 36 years ago when you became 
the Secretary of the Navy, the thought of NATO working out of 
area was nowhere. It just was not possible. That was not even 
on anybody's mind 15 years ago. They have taken the political 
step of working out of area. What they have not done is taken 
the funding step of bulking up their defense vote in such way 
that will allow them to have the capabilities to continually do 
that.
    Having said that, if NATO as an organization at Istanbul or 
after can take on the general mission, then this will give a 
lot of political cover to countries that do participate. That 
is significant. I cannot speak to who is more capable on the 
technical assistance side, which is not a heavy troop 
involvement, or who might have equipment lying around that 
would be applicable to the Iraqi forces. That will all be 
discussed at Istanbul.
    Chairman Warner. Alright.
    Secretary Wolfowitz. That is an important correction 
Secretary Armitage mentioned. There has been some very dramatic 
changes in NATO's willingness to take on those 
responsibilities. What the Prime Minister----
    Chairman Warner. On paper, Mr. Secretary.
    Secretary Wolfowitz. Well, right. What the Prime Minister 
is asking for there is not a huge hurdle to clear, and I hope 
in Istanbul in fact that they will get a significant positive 
response.
    Chairman Warner. It tends to be words, words, words, 
panoply sessions, all the trappings, and yet I do not see the 
hard facts, boots on the ground of trainers to go in there and 
do it under the NATO flag, not just member nations. Yes, 
General?
    General Myers. Mr. Chairman, the only thing I would add 
here is on national caveats, very serious business. You could 
have used the example in Kosovo. It was on our St. Patrick's 
Day, when we had some disturbances and certain countries could 
not respond. The commander thought they could, but at the 
moment of crisis they could not.
    Chairman Warner. Because of national caveats?
    General Myers. Absolutely. It put other forces in great 
danger, and it put the people or sites that they were trying to 
protect in great danger. The national caveats piece is 
something NATO is going to have to wrestle with, because when 
they have a political will to do a mission, they have to follow 
up with the wherewithal for the commanders to perform this 
mission. The commander of the multinational brigade in Iraq, 
the Polish commander, when I visited with him several months 
ago, most of his force structure comes from NATO countries. He 
has Ministers of Defense and Chiefs of Defense on the phone 
with him telling him what he can and cannot do with those 
forces. That is not the way to be successful in the kind of 
security situation we find ourselves in in Iraq, in 
Afghanistan, or in Kosovo.
    Chairman Warner. Well, I want to refer to General Joulwan, 
who is an extraordinary valued advisor to our President, 
Secretary of Defense, yourself, and to Congress. Mine do not 
emanate--in any way reflect his views, but I know he is 
concerned about these national caveats. I do not think you have 
to deal with it, you darn well just have to end it.
    To another subject, and that is, this committee has 
indicated it will continue. Mr. Secretary, we are not on any 
vendetta. We are simply doing our oversight in this question of 
the prisoner issues, particularly in Iraq. Look, we were told 
the Fay report would be issued to this committee. The Secretary 
indicated through his spokesman that this committee would 
promptly receive the Fay report. We now learn that that is 
going to be delayed while a new layer is brought in. General 
Kerns becomes the acting overseer of this. He is a very fine 
man. I have known him, extremely capable individual. Another 
officer of a higher rank other than Fay is to be brought in to 
do some work.
    All of these perturbations and so forth is lost when we 
stop to think. Day after day these articles come out in the 
paper, just today, about the problems over there. Congress, in 
my judgement, must be given the tools, the reports with which 
to do its proper oversight. We should have had a Chapter 1, Fay 
part 1, and acknowledge more was to come. Why don't you outline 
the accuracy of what I said? This intelligence piece of what 
took place, did not take place, in that prison structure is the 
road map to tell the administration and frankly Congress, those 
of us that are interested in it, where we go next to try and 
determine what went wrong and how to see it never happens 
again.
    Can you describe to me what is the status of the Fay 
report? It was to have been in the hands of Congress, early 
projections, by now. Could it not be indicated Fay report part 
1, then a sequential report to follow, performed by another 
three-star, unnamed at the moment, who will come in? Give us 
some clarification here.
    Secretary Wolfowitz. Frankly, Mr. Chairman, I share your 
frustration, both because you are frustrated, which frustrates 
me, but also because we are trying----
    Chairman Warner. We want to do a concrete and a fair and 
objective job.
    Secretary Wolfowitz. You want to get the facts, and we want 
to get the facts. This delays the process. Just so we are 
clear, and I think I am clear about this now. What happened 
was, the Fay report was commissioned. It is an investigation 
and it is an investigation with potential criminal consequences 
that was commissioned by Lieutenant General Sanchez to report 
to him for action as a commander. When the view was General 
Sanchez's conduct has to be investigated also, then it is 
obvious you need somebody else in charge of the investigation. 
That is why General Kern was appointed.
    The question that you referred to about whether--and you I 
talked about this also privately. Fay cannot continue the 
investigating part of it. Apparently, the Army has decided to 
appoint Lieutenant General Tony Jones, who is now at Fort 
Monroe, Virginia, as the new head of the Fay investigation. He 
is currently the Deputy Commanding General and Chief of Staff 
of U.S. Army Training and Document Command (TRADOC) at Fort 
Monroe.
    I will get a briefing from the Army, and if it is 
appropriate get it to answer your question as to whether there 
is not some way to provide interim conclusions or interim 
results. What I have been told so far by lawyers is that is 
virtually impossible in a situation where people are 
investigating guilt and innocence of individuals. I share your 
concern, and I am going to try and see if we can not do better.
    Chairman Warner. Well, I will accept that answer I have 
said steadfastly in the face of criticism as to how the Taguba 
report was handled. I asked for that report. You gave me what 
you had, and you had to supplement it. Our procedures are 
scrutinized, as they should be, but the Department has been 
very cooperative with this committee as it regards our needs. 
Now, other documents have come into the committee. We had the 
start of an important hearing yesterday, which will have to be 
continued, on the International Red Cross and their 
documentation as to what took place. We are going to have 
subsequent hearings on that. There are briefings at the moment.
    I have made my point. I accept your response, and I take it 
as continuing the cooperation that we have had so that we can 
just have the facts, maybe not the conclusions. We are not 
looking for the final conclusions until this whole picture is 
looked at, but the interim steps, rather than just read it day 
after day in the paper as it dribbles out. We do not know the 
accuracy of those reports.
    All right, Senator Levin, and then I have a question to 
follow.
    Senator Levin. Thank you, Mr. Chairman. First, relative to 
the NATO issue, I visited NATO, met with ambassadors to NATO 
urging that they respond and that they take a role in Iraq. 
First of all, I sensed that they needed a request from an Iraqi 
Government. They have that now. Second, though, I also must 
tell you that I sensed some of the reluctance results from the 
kind of unilateral approach that the United States has taken to 
world challenges and minimizing the importance of coalitions. I 
still sense that feeling in NATO. We have made some progress 
now with the U.N., but that feeling sure existed at the U.N. 
because of the approach we took to issues and the rhetoric that 
was used relative to old Europe, to Germany, and to the United 
Nations prior to the attack on Iraq. So to some extent, the 
reluctance here represents chickens coming home to roost in my 
book.
    But nonetheless, that is gone, that is past. I must tell 
you, everybody on this committee totally supports the effort to 
get NATO involved, at least in training inside of Iraq. It is 
critically important. It will hopefully then lead to some 
Muslim nations coming in also. In any event, it is important. 
There is a consensus here that supports this effort to get NATO 
involved. I hope the President succeeds in getting them 
involved. It would be very important.
    I want to just go back to an issue though, Secretary 
Wolfowitz, that we talked about earlier this morning, because I 
am troubled by your answer. On the issue of the Iraq/al Qaeda 
connection, I am not talking here generally about terrorism, 
which I happen to agree with you there is obviously a lot of 
countries that have supported terrorism, including Syria, Iran, 
and Iraq. I am talking about the allegations before the war 
that there was a connection between al Qaeda and Iraq. The 
focus on that allegation became a big part of the rhetoric 
prior to the war, and I just want to pursue what you are now 
saying rather than going back. I want to talk about what you 
are now saying relative to that connection, because I am 
troubled by it. I want to be direct with you about it.
    This is what you said the other day at the House of 
Representatives. ``The issue is Saddam Hussein's contacts with 
al Qaeda and support for al Qaeda. If you go and look at the 
sealed indictment that was issued against Osama bin Laden in 
February 1998,'' and then you said, ``this is not me, this is 
the United States Justice Department during the Clinton 
administration,'' said--now, you are referring to this 
indictment--``said that in 1992 and 1993, Saddam and al Qaeda 
came to an understanding not to attack one another and to 
provide mutual support.''
    You are relying heavily on a U.S. Justice Department 
indictment. It has been modified. They have dropped that 
allegation. It has been superseded by five other indictments on 
the same subject which left out that statement. Yet you 
continue to cite the indictment itself as evidence. Then when I 
asked you about that this morning, you went back to a source, 
which had been previously relied on by the U.S. Attorney. That 
source is no longer relied on by the U.S. Attorney as a source.
    For you to continue to cite an indictment when that 
indictment has been superseded and modified to drop this 
reference to the relationship between al Qaeda and Saddam, is 
disingenuous and is misleading. I would ask you, are you aware 
of the fact that that indictment that you referred to, that 
U.S. Government document has been superseded and modified to 
remove that reference to any understanding between al Qaeda and 
Saddam? Are you aware of the fact it was superseded?
    Secretary Wolfowitz. Senator Levin, the point is that what 
that cooperating witness said, and which was then sworn to as 
part of the indictment, is consistent with a whole body of 
evidence which Director Tenet referred to in his letter, I do 
not know if it was to you or Senator Bayh on the Intelligence 
Committee, outlining the various kinds of cooperation we had 
seen over the previous decade between Iraq and al Qaeda. This 
is not the only piece of evidence pointing to some agreement in 
the early 1990s that they would not attack one another anymore. 
There is other evidence suggesting they talked about mutual 
cooperation.
    I happen to cite that because it is--I mean, if we want to 
go through an intelligence assessment and put out all the 
pieces of information that are there, I would be happy to do 
so. The basic point, which I said earlier, to Senator Dole, is 
I do not think this is something where you can prove things 
beyond a reasonable doubt. You have fragments of evidence. Some 
of them point one way, some of them point another way, but 
ultimately a policy maker, and particularly the President of 
the United States, has to decide how much risk he is prepared 
to run based on the different possibilities.
    This is not a subject on which I think there is perfect 
clarity either way. I do not think the bar should be set that 
until we have proof beyond a reasonable doubt that Saddam 
Hussein was involved in September 11, that until then we should 
not worry about the possibility he may have been a source of 
support for terrorists.
    Secretary Powell talked about very precisely his 
connections with Abu Musab al-Zarqawi that we saw in 2002. 
Everything we have seen in Iraq since the liberation of that 
country has demonstrated that there were these connections 
between Zarqawi and the old regime. Unfortunately, they have 
gotten closer.
    Senator Levin. Mr. Secretary, you can talk about fragments 
of evidence and talk about other subjects, but I am talking 
about the specific subject that you rely on again, which is an 
indictment. Now, you can go through other fragments and argue 
them if you want to, but that is not the issue. The issue is 
that you rely again, and you did it in front of this committee, 
upon a U.S. Government sealed indictment that you----
    Secretary Wolfowitz. Which was unsealed, of course.
    Senator Levin. Now unsealed, which no longer makes the 
statement that you say that it made.
    Secretary Wolfowitz. There were subsequent indictments 
that--I do not know why they----
    Senator Levin. I am telling you. It superseded the first 
one. Are you aware of the fact that the subsequent indictments 
superseded the one that you cite? Are you aware of that fact?
    Secretary Wolfowitz. Sir, I am not a lawyer. I do not know 
what supersede means.
    Senator Levin. Modified, eliminated, reduced, took the 
place of, got rid of.
    Secretary Wolfowitz. I know----
    Senator Levin. Are you aware of that? It is a very direct 
question.
    Secretary Wolfowitz. I am aware that the subsequent 
indictment connected to the embassy bombings in East Africa did 
not mention that.
    Senator Levin. Okay. Then you should not be citing, it 
seems to me, as recently as a few days ago, as the clear 
evidence for some relationship which is highly disputed and 
which the CIA, by the way, had very severe doubts about. 
Nonetheless, you should not be citing that indictment. Again, 
you talk about a U.S. Government document to support a 
conclusion, and that document no longer exists. It has been 
superseded, and yet you still cite it. What troubles me----
    Secretary Wolfowitz. Senator Levin, are you saying----
    Senator Levin. Let me finish now. What troubles me is that 
that pattern of exaggeration is what has created part of the 
problem here. We are all together on succeeding now in Iraq. 
There is not a difference on that. People can raise straw men 
about cutting and running. Nobody is talking about cutting and 
running. No one is talking about Saddam being a monster, he was 
a monster. We are talking about evidence that existed relative 
to the relationship which was used as the basis since al Qaeda 
attacked this country on September 11. That alleged 
relationship between Saddam and al Qaeda was used as the basis 
for attacking Iraq. When you still cite as evidence something 
which is not in existence anymore, because it has been 
superseded, it troubles me. It is that pattern of exaggeration, 
which, it seems to me, has been a consistent problem for this 
administration and was a problem relative to the assessment of 
intelligence.
    Secretary Wolfowitz. Senator Levin, it is not exaggeration. 
If anything, it is understatement. If we had a closed hearing 
and we could go through all the----
    Senator Levin. On that indictment? I just want to focus 
on----
    Secretary Wolfowitz. Can I finish answering?
    Senator Levin. I do not want to go into the whole subject. 
I want to talk about your reliance on an indictment, and your 
reference to it and reliance on it.
    Secretary Wolfowitz. Senator, can I answer the question?
    Senator Levin. Of course you can, but I wish you would 
address my question.
    Secretary Wolfowitz. You said this was the whole reason we 
went to war. It is not----
    Senator Levin. No, I said it was a focus for our going to 
war. That was the principal reason for our going to war was the 
relationship between al Qaeda----
    Secretary Wolfowitz. That is not true. Our reason for going 
to war was to enforce U.N. Security Council Resolution 1441, 
which had nothing to do with this issue. In fact, we conceded a 
great deal of our position when we went to the United Nations. 
The President of the United States went to the United Nations 
in September. He had three concerns. One was weapons of mass 
destruction, the second was terrorism, and the third was the 
abuse of the Iraqi people.
    We came down to Resolution 1441, which said if he meets 
this last and final chance to come clean on his weapons of mass 
destruction then we will implicitly work the other issues by 
other means. The standard of Resolution 1441 was not imminent 
threat; it was not large stockpiles of weapons. It was come 
clean and tell--declare everything you have and do not obstruct 
the inspectors. David Kay has been very clear. Though he says 
our intelligence was wrong, he also says Saddam Hussein was in 
clear violation of Resolution 1441. That was the reason we went 
to war, Senator Levin.
    Senator Levin. Thank you. I have one question for Secretary 
Armitage and then I am done. There has been a lot in the press 
recently about the subject which the chairman raised, which had 
to do with the prison issue. The Office of Legal Counsel (OLC) 
of the Department of Justice (DOJ) in early 2002 said that the 
President had the power to determine that the Geneva 
Conventions did not apply to the conflict in Afghanistan.
    According to the reports, Secretary Armitage, the State 
Department legal adviser took issue with this determination, 
arguing that it was contrary to the official position of the 
United States, ``the U.N. and all other states that have 
considered this issue.'' Secretary Powell wrote a memorandum to 
Judge Gonzalez in which he stated that the OLC's approach 
would, ``reverse over a century of U.S. policy and practice in 
supporting the Geneva Conventions and undermine protections of 
the law of war for our troops, both in the specific conflict 
and in general.''
    An article in yesterday's Washington Post indicates the 
civilian attorneys in the DOD sided with the OLC on this issue, 
while the military lawyers in the DOD sided with the State 
Department. The Washington Post also reported that after this 
dispute, ``senior civilians at the Pentagon no longer sought to 
include the State Department or the Joint Staff in 
deliberations about the precise protections afforded to 
detainees by the Geneva Conventions.''
    My question is Secretary Armitage, is it true that the 
State Department objected to the conclusions of the Department 
of Justice and the White House Counsel's office about the 
applicability of the Geneva Conventions to the war in 
Afghanistan?
    Secretary Armitage. It is true we had a different opinion, 
and we expressed it.
    Senator Levin. Thank you. Thank you, Mr. Chairman.
    Chairman Warner. Just two quick wrap-up items, gentlemen. 
You have been most patient, and we have had an excellent 
hearing. Yesterday my long-time friend and great colleague, 
Senator McCain, asked a question to General Casey, and it was 
asked again this morning: What went wrong? General Casey gave 
his best response. Each of you have given your responses today.
    A few nights ago I had the distinct privilege of attending 
a dinner and speaking on behalf of General Tommy Franks. I 
remember with great clarity how the DOD, Mr. Secretary, was 
forthcoming as that whole plan was put into place with regard 
to military operations, General Myers, and how we were going to 
go about it.
    A key part of that operation was the pre-positioning of the 
Fourth Infantry Division (ID) in the Mediterranean. On jump-off 
day, they were to come down through Turkey and go into the 
northern regions so that the enemy was taken on from the north 
and the south. All of a sudden, Turkey said no. That was the 
end of it. We had to take those forces and go all the way 
around down through the Persian Gulf up into where they finally 
came into country in the south when the fighting had been 
largely completed in that operation.
    Had they come down through the north, they would have gone 
through that area called the Sunni triangle, from which so much 
of the insurrection against our forces, primarily subsequent to 
the major operations, has taken place. Had that plan of the 
military been completed as envisioned and structured, I ask 
you, General Myers, would not some of this insurrection, if not 
a great deal of it, been taken out because of the movement of 
our forces, particularly the heavy mechanized forces down 
through there, so that part of Iraq could have seen the 
determination of the coalition, its weight and its might and 
its conviction? Had that not been stopped, might we not have 
experienced some of this, what happened and why did it happen, 
and these tough answers that we have to face today? Do you 
share my view?
    General Myers. Well, Mr. Chairman, your description of the 
issue is exactly right on. What I cannot predict was what would 
have happened. It is probably, as you say, it would have helped 
somewhat with the current situation, because that was the plan 
for the Fourth Infantry Division. It is a very powerful 
division. But I do not know that we will ever know.
    Secretary Wolfowitz. Mr. Chairman, if I could respectfully 
either disagree or just say the somewhat is a very small 
somewhat, because think about Saddam Hussein hiding in his 
spider hole and what it took to find that man. We did not need 
a big mechanized division to do it. We needed skilled 
interrogators pursuing from one place to another--we needed 
intelligence.
    Actually what would have made a bigger difference than 
another American division in there faster would have been a 
whole division of free Iraqi forces, if we would have been able 
to train them. This is important, because one reason to think 
that Iraqi security forces can do well once they are trained 
and equipped properly is they speak the language; they know the 
terrain; they will get intelligence in a way that our forces 
cannot do.
    Chairman Warner. But repeatedly our officers, Casey 
yesterday, General Myers today, are asking, what happened? 
Well, somebody ought to mention that they planned this 
operation very carefully and that was an integral part, that 
strike from the north.
    Secretary Wolfowitz. You are absolutely right about that.
    Chairman Warner. The Fourth ID went on to heroically fight 
in the subsequent insurrection, so there was not any question 
about their ability. But had they come down through that area, 
we might have lessened that problem.
    Secretary Wolfowitz. Lessened for sure, but how much I 
guess is what is the issue.
    Chairman Warner. Secretary Armitage, I will wrap up with 
you, and first a personal thing. I know that you canceled part 
of your vacation to come and attend this important hearing 
today, for which I, on behalf of all of the committee and the 
Senate, thank you. You really carry a tremendous load in 
supporting the Secretary, one of the most extraordinary men to 
be Secretary of State. We commend you, sir, for your public 
service.
    But let us wrap up by your describing again the process 
that will evolve after June 30, the sequence of the 
constitution being developed, the elections. In your best 
judgement, is that going to remain on schedule?
    Secretary Armitage. Yes. There are several things moving at 
once. The interim government from July 1 to the end of December 
or January is responsible for preparing and running the day-to-
day government. They are running the ministries, all of them, 
and preparing for elections, which we would like at the end of 
the year, no later than January.
    Simultaneously, the U.N. will be helping to prepare the 
electoral process, the registering process, et cetera. This 
month of July, there is a preparatory commission being put 
together that will form a national conference of about 1,000 
people, 1,000 notables in Iraq, and out of those 1,000 people 
will be developed an interim national council of 100 notables. 
Those people will give advice to the interim government. They 
have some duties. I have some here. They can monitor the 
implementation of the laws, they can approve the 2005 Iraqi 
national budget. They have the authority to veto executive 
orders by a two-thirds majority vote. Should something happen 
to the Presidency, they can appoint replacements to the 
Presidency Council.
    Assuming elections in December or January 2005, you will 
have a national assembly of 275 people, which will be 
responsible for choosing a President and a Prime Minister, who 
will then put together a government. That government's major 
duty is to develop a constitution, which will be placed before 
the Iraqi people for a referendum to which there will be a 
fully elected government in Iraq following that new 
constitution. That is the process. It is ambitious. The U.N. 
thinks we can get there. We are going to do our best to try to 
make the security atmosphere one that is conducive to hold in 
these elections.
    Chairman Warner. Do you anticipate the U.N. will increase 
its presence in country and begin to pick up a heavy part of 
this responsibility to implement this plan?
    Secretary Armitage. They will pick up a part of the 
responsibility. There is a great reluctance--an understandable 
reluctance on the part of the U.N. after--the loss of Sergio de 
Mello to have a heavy presence there. One of the elements of 
U.N. Security Council Resolution 1546 makes it very clear that 
the U.N. is encouraged to take this vital role. We are going to 
be responsible for assisting the U.N. to include convoying and 
providing fixed point protection.
    To the extent we are doing that and other forces from other 
nations are not doing it, that will detract from our overall 
ability to conduct security sweeps, et cetera. But I think the 
definition of the word, how much heavy lifting they are going 
to do, is one that I would quarrel with. They will do some 
lifting, but the security situation is what is going to be 
determinate for them whether they increase the number of people 
in country.
    Chairman Warner. That security situation is going to be 
largely dependent on the coalition forces in indeterminate 
numbers remaining there while the internal Iraqi structure of 
its army and other security is built up, am I not correct? When 
you sort of said over here in reply to some question a minute 
or two ago, it is going to be a long time, we are looking over 
that entire period that you just outlined now for security 
forces to be in place.
    Secretary Armitage. Well, I suspect so. I cannot give any 
numbers. I do not think Paul could either.
    Chairman Warner. I am not asking for the numbers. I thank 
you.
    Secretary Armitage. Thank you.
    Chairman Warner. I have raised the question of the Fourth 
ID because so often, in every hearing someone talks about the 
force structure and the level of force structure. Just remember 
that weeks before we started a whole Army division was 
eliminated for an indeterminate period of time from that 
operation. Thank you very much, gentlemen.
    Secretary Wolfowitz. It was still successful.
    Chairman Warner. You have discharged your duties.
    Secretary Wolfowitz. Thank you, Mr. Chairman.
    General Myers. Thank you, sir.
    [Questions for the record with answers supplied follow:]

               Questions Submitted by Senator John McCain
                        Fallujah as a Sanctuary

    1. Senator McCain. Secretary Wolfowitz, the events in Fallujah are 
a clear example of where our actions did not back up our rhetoric. This 
is a dangerous precedent to be setting in the middle of an insurgency. 
In my view, turning over Falluja to insurgents and Iraqi forces under 
the command of ex-Baathists seems to be a mistake. Is Falluja being 
used as a base of insurgency? If so, are we planning to follow the 
Falluja model in other Iraqi cities, should we face similar uprisings?
    Secretary Wolfowitz. Falluja is one of the strongholds for Iraqi 
insurgents and foreign fighters. What happened in Falluja is not being 
used as a model or a template in other Iraqi cities. The decisions made 
in Falluja at the time last April were made with the best information 
available, and predicated on the fact that eventually Iraqis will have 
to take responsibility for their own security. Clearly with the benefit 
of hindsight, Falluja was not ready for that. While we have learned the 
tactical and strategic lessons of Falluja, we are not using what 
happened in Falluja in April as the model for dealing with other 
unsettled cities. Each tactical situation is different, because the 
populations, tribes, sects, and ethnic groups vary in size and 
importance throughout the country of Iraq, and each has its own 
history, culture, and pertinent background to take into account when 
devising tactical solutions to security problems.

   ABU GHRAIB INTERNATIONAL COMMITTEE OF THE RED CROSS (ICRC) REPORTS

    2. Senator McCain. Secretary Wolfowitz, the Pentagon has 
consistently said that it cannot share ICRC reports with Congress 
because that would violate the Red Cross' longstanding policy of 
confidentiality. I understand, however, that the ICRC has said that its 
official position is that it has no problem with the administration 
sharing any or all of these reports, so long as they are provided in 
some confidential manner. If the Red Cross has no such objection, why 
has the Pentagon used this as an excuse?
    Secretary Wolfowitz. First, I note that communications between the 
ICRC and the United States (or any other party to the Geneva 
Conventions) are confidential. Neither the ICRC nor the U.S. Government 
discloses publicly the details or nature of the communications. ICRC is 
a neutral organization and notes with concern any characterization of 
its activities in the media or by government officials about ICRC 
activities that may tend to support or oppose a particular point of 
view. The Department of Defense (DOD) is working with the ICRC and 
Congress to make available ICRC communications within specific 
constraints agreed upon by the U.S. Government and the ICRC.

                             TROOP STRENGTH

    3. Senator McCain. Secretary Wolfowitz, there were some in DOD and 
Congress that believed that more troops would be required not only to 
win the war in Iraq, but to win the peace as well. The Pentagon's view 
is that the commanders on the ground will let us know if they need more 
troops. I believe that this is something that the civilian leadership 
needs to determine, based on events and necessity on the ground. Do you 
agree?
    Secretary Wolfowitz. I agree. However, based upon events and 
necessity on the ground, the civilian leadership has determined that 
more troops are not required at this time. Our commanders in the field 
have repeatedly said that what they need is more intelligence and more 
Iraqi forces, not more American forces. Without actionable 
intelligence, our troops merely become targets, and Iraqi forces are 
capable of going into places such as mosques and conducting border 
control more effectively than U.S. forces. More troops and a more 
intrusive American presence would merely strengthen the perception 
amongst Iraqis of being occupied and given extremists such as Muqtada 
al-Sadr more followers. It is for this reason that the commander of the 
First Marine Division, Major General Jim Mattis, told me that he sent 
15,000 of his troops home last summer, because he did not want what he 
called the ``reverberations of a heavy foot print.''

                         METRIC FOR INSURGENCY

    4. Senator McCain. Secretary Wolfowitz, as we approach the date for 
the transition it appears conditions in Iraq are worsening rather than 
improving. What metrics are you using to determine progress in Iraq 
with respect to the insurgency?
    Secretary Wolfowitz. There is no simple metric. If we see more 
attacks from anti-Iraqi forces, this may mean they are stronger, or it 
may be a spike in violence aimed to coincide with an Iraqi or American 
political event. If we capture or kill more of the enemy, it may mean 
that our operations and intelligence are becoming more effective, or it 
may mean there are more terrorists to capture and kill. Also, a mass 
casualty terrorist attack is not a good measure, as stable states such 
as Turkey or Israel routinely suffer such attacks, and they may in fact 
mark the terrorists' desperation akin to that expressed in Zarqawi's 
letter that was intercepted last February.
    Given that the Iraqi people are the key to defeating the anti-Iraqi 
insurgents, the number of Iraqi forces trained and equipped, as well as 
Iraqi crime rates, are indices that will suggest progress. Also, our 
``goalposts'' measure progress in the political and economic fields, 
not just security. Economic growth/activity and improvement in 
essential services will contribute to security by investing Iraqi 
people with sense of ownership of their nation's future.

                             POROUS BORDERS

    5. Senator McCain. Secretary Wolfowitz, I am disturbed that the 
Iraqi borders are so porous that insurgents are receiving 
reinforcements and supplies freely. What efforts are you pursuing to 
strengthen the borders?
    Secretary Wolfowitz. The DOD shares your concern regarding Iraq's 
border are working with the Iraqi interim government (IIG) to improve 
the quantity, training, and equipment of the Iraqi Department of Border 
Enforcement (DBE). There are 11,350 border police serving in Iraq, of 
which 10,348 have completed training. The DBE falls under the Ministry 
of Interior, whose forces also include the Iraqi Police Service and 
Facilities Protection Service. Together with these forces, the DBE has 
received the following:

        <bullet> 6,800 vehicles
        <bullet> 14,000 radios
        <bullet> 101,000 weapons
        <bullet> 46,000 pieces of body armor

    Also, we are supporting the IIG's efforts to persuade its neighbors 
to strengthen border control from their sides of the international 
boundary.
    However, it should be kept in mind that no effort will be 100 
percent effective at sealing Iraq's borders. Even under Saddam 
Hussein's totalitarian police state, Iraq was not able to prevent 
smugglers from operating with near impunity across Iraq's mountainous 
borders. Even a country as wealthy and stable as the United States is 
unable to prevent widespread illegal border crossings.

                         INTERNATIONAL SUPPORT

    6. Senator McCain. Secretary Wolfowitz, given that more troops are 
required on the ground, what expectation do you have that the North 
American Treaty Organization (NATO), the United Nations (U.N.), or 
other allies will provide stabilization forces to augment American and 
Iraqi troops in Iraq and Afghanistan?
    Secretary Wolfowitz. Although it is not a given that more non-Iraqi 
troops are required on the ground, this administration continues to 
call on all nations to contribute forces to the multinational force-
Iraq mandated in U.N. Security Council Resolution 1546. However, most 
countries that have the logistical capability to deploy forces are 
already overstretched in other missions across the globe, and can not 
be relied upon to augment our forces in either Iraq or Afghanistan. 
However, there are potential causes for optimism, such as NATO 
contributions to Provincial Reconstruction Teams in Afghanistan and the 
organization's agreement to help train and equip Iraqi police forces. 
Also, several Muslim nations have expressed interest in forming an all-
Islamic force to help protect the U.N.'s mission in Iraq.  

                         IRAQ ELECTORAL SYSTEM

    7. Senator McCain. Secretary Armitage, there is a debate about the 
form that the Iraqi election system will take. The U.N. apparently 
advocates a proportional representation system, which would put the 
emphasis on centrally-run party politics. I am concerned that, in a 
system that relies on centrally controlled party lists, regional 
leaders would be excluded, and authentic local leaders would be 
marginalized. That is why I believe a constituency-based system, in 
which individual candidates run for elected office on ballots in local 
districts, makes more sense. What is the administration's position on 
this?
    Secretary Armitage. The basic outline of an electoral system for 
Iraq's first free elections, scheduled for no later than January 2005, 
was established by agreement of U.N. elections experts, the Iraqi 
Governing Council and the Coalition Provisional Authority (CPA). The 
conduct of the elections is now the responsibility of the Independent 
Electoral Commission of Iraq. The single-district electoral system was 
recommended by electoral experts as the system best suited to provide 
for genuine, credible and inclusive elections within the time frame 
prescribed in the Transitional Administrative Law (TAL).
    Election experts noted a number of important advantages in the 
single-district system, including the ability to conduct elections 
without having first to go through the politically sensitive process of 
drawing voting districts. Experts also noted that the single-district 
system facilitates voting by Iraqis who were forced into exile by the 
Saddam regime and simplifies voter registration efforts.
    To promote a process that ensures that all groups are effectively 
represented in the election, the Department of State is providing 
funding through the National Endowment for Democracy (NED) to the 
International Republican Institute and the National Democratic 
Institute. These training programs are aimed at helping moderate 
candidates, parties and regional and local leaders with limited 
exposure and political experience to compete successfully. The NED has 
also received funding to support the efforts of civic groups to conduct 
outreach and mobilize public participation in the elections, and the 
U.S. Agency for International Development (USAID) is funding voter 
education and election monitoring programs to ensure that the process 
is as inclusive and transparent as possible.

                            IRANIAN SUPPORT

    8. Senator McCain. Secretary Armitage, there are media reports of 
Iranian support of the insurgency in Iraq. Can you give me your 
assessment of Iranian influence in Iraq?
    Secretary Armitage. The Iranian Government has offered positive 
public support of the Iraqi interim government. However, we are 
concerned that Iran may be taking action to gain influence in Iraq and 
undermine Iraqi efforts at self-determination. While sympathetic to the 
majority Shia community in Iraq, it is very difficult to assess the 
extent of Iranian contacts and relationships with different groups in 
Iraq and whether they constitute active support.
    The U.S. opposes any outside influence that seeks to disrupt the 
new Iraqi government and has repeatedly advised the Iranian Government 
we will not tolerate the destabilization of Iraq by outside powers.

    9. Senator McCain. Secretary Armitage, do we have evidence that the 
Iranian government is supporting insurgents in Iraq?
    Secretary Armitage. It is difficult to assess the extent of Iranian 
contacts and relationships with different groups in Iraq and whether 
they include active support to Iraqi insurgents or foreign fighters 
attacking coalition forces or the Iraqi interim government. We are 
troubled by reports that Iran encouraged and actively supported the 
upsurge in violence by Sadr's al-Mahdi Army Forces in Najaf. The United 
States has repeatedly advised the Iranian government that it will not 
tolerate the destabilization of Iraq by outside powers.

                   STRAIGHT TALK AND FOLLOW THROUGHS

    10. Senator McCain. Secretary Armitage, I am concerned about a lack 
of follow-through on our promises in Iraq. We announced that we would 
arrest Moqtada al-Sadr, and yet he continues to preach openly. We 
promised to enter Falluja and capture the killers of the American 
contractors, and then we withdrew from the city and put authority in 
the hands of ex-Baathists. Do these empty threats not embolden the 
insurgents in Iraq?
    Secretary Armitage. As part of our overall strategy to defeat the 
insurgency in Iraq, we have worked closely with the Iraqi Governing 
Council, other political, religious and civil leaders in Iraq and Iraqi 
security forces to address threats to Iraq's security and stability. 
Following the transfer of governing authority to the IIG, Embassy 
Baghdad and the multinational force will coordinate closely with the 
IIG in a shared effort to end terrorism in Iraq and provide the 
stability necessary to move the political process forward.
    We have been encouraged by the fact that there are continued signs 
that most Iraqis do not support Sadr and reject his calls for 
lawlessness. We are committed to bringing to justice those who have 
blood on their hands in Iraq, including those who killed the four 
American contractors in Fallujah. We supported the establishment of the 
Fallujah Brigade in May, endorsed by Iraqi leadership, in order to stem 
the insurgency and locate the perpetrators. Though we have noticed a 
decrease in insurgents' offensive activity, the results have been 
mixed. We will continue to work with the Iraqi leadership and, as 
necessary, adjust our approach.

                   INSURGENCY VERSUS TERROR CAMPAIGN

    11. Senator McCain. Secretary Armitage, many critics have pointed 
to a recent CPA-sponsored poll showing that 92 percent of Iraqis see 
the coalition forces as occupiers, as opposed to 2 percent who now see 
us as liberators almost 15 months after the fall of Baghdad. Some have 
pointed to this figure as evidence that we have failed to win the 
``hearts and minds'' of the Iraqi people, and blame the ongoing 
violence in Iraq on this supposed failure. But last October, Newsweek 
reported that more and more evidence suggests that the terror attacks 
in Iraq were planned well before the war even began. On April 29, the 
New York Times reported that most of the sophisticated guerrilla 
attacks in Fallujah were being organized and carried out by members of 
Saddam Hussein's secret service, ``who planned for the insurgency even 
before the fall of Baghdad.'' In your opinion, do you ascribe the 
violence in Iraq more to a popular uprising emerging from our 
reconstruction policies, or as part of a calculated campaign by Saddam 
Hussein's security apparatus?
    Secretary Armitage. The insurgency in Iraq does not represent a 
single network or movement. Various groups have taken up arms against 
coalition forces, each with their own motives. Some elements are former 
regime members fighting to return to the past while others are foreign 
fighters who have crossed into Iraq. Groups like Sadr's Jayshal-Mahdi 
Army are fighting because they believe the CPA and later the Iraqi 
government can be challenged or cowed by violence. They all share one 
thing in common--the desire to disrupt Iraq's democratic progress and 
reconstruction for their own ends. Regardless of who planned insurgent 
actions or when, the response is the same: coalition and Iraqi forces 
must stop the violence and secure the country.

        ABU MUSAB AL-ZARQAWI, IRAQ, AND THE GLOBAL WAR ON TERROR

    12. Senator McCain. Secretary Armitage, we are all understandably 
horrified at the images of the carnage created by the June 24, 2004 
bombings in Iraq. News reports indicate that the terrorist organization 
led by Abu Musab al-Zarqawi has claimed responsibility for these 
attacks. We, of course, know Mr. Zarqawi as the murderer who 
barbarously beheaded American Nicholas Berg in Iraq last month. Now, 
Zarqawi has threatened to kill the incoming Prime Minister of the Iraqi 
interim government, Ayad Allawi. Some have argued that Iraq was not a 
part of the war on terror until we invaded and destabilized it; 
Zarqawi's network would not have posed a serious threat to us; and this 
invasion has instead empowered him and enabled him to become as 
dangerous as Osama Bin Laden was at the time of the September 11 
attacks. For example, the French Foreign Minister Dominique de Villepin 
claimed that ``Terrorism did not exist in Iraq before [the war]. Today, 
it is one of the world's principal source of world terrorism.'' Has the 
war in Iraq been a distraction from the global war on terror? Or more 
specifically, have we created in Mr. Zarqawi precisely the kind of 
threat we set out to defeat after September 11?
    Secretary Armitage. Well before the war in Iraq began, Iraq was 
listed as a state sponsor of terror. Saddam Hussein's regime pursued, 
possessed and used weapons of mass destruction. It provided a safe 
haven for terrorists and material assistance to terrorist groups. 
President Bush has made clear that the war in Iraq was an integral part 
of the global war on terror. At his speech in Fort Lewis, Washington on 
June 18, he said,

        ``Saddam Hussein's regime posed a threat to the American 
        people, and people around the world. Iraq was a country in 
        which millions of people lived in fear, and many thousands 
        disappeared into mass graves. This was a regime that tortured 
        children in front of their parents. This was a regime that 
        invaded its neighbors. This is a regime that used chemical 
        weapons before. It had used weapon not only against countries 
        in its neighborhood, but against its own citizens. This is a 
        regime which gave cash rewards to families of suicide bombers. 
        This is a regime that sheltered terrorist groups. This is a 
        regime that hated America.''

    Abu Musab al-Zarqawi was not created by the war in Iraq. Zarqawi's 
acts of terror predate Operation Iraqi Freedom. He was convicted in 
absentia in Jordan for masterminding the assassination of American 
diplomat Laurence Foley in Amman in October 2002. Throughout 2002, 
Zarqawi worked in Iraq in cooperation with Ansar al-Islam in an effort 
to develop chemical weapons for use in terror operations. He lived in 
Afghanistan from June 2000 until late 2001 where it is believed he 
conducted terrorist training in affiliation with al Qaeda. Zarqawi's 
connection with other extremist and terrorist organizations goes back 
well into the 1990s. He was imprisoned in Jordan from 1992-1997 for 
plotting to overthrow the monarchy and replace it with an Islamic 
state. We and the Iraqi interim government are working to bring Zarqawi 
to justice for his crimes against Iraqi and American victims.

                  WITHDRAWAL DATE VERSUS EXIT STRATEGY

    13. Senator McCain. Secretary Armitage, what conditions do we need 
to achieve on the ground in Iraq in order for the reconstruction 
mission to be considered a success, and for us to be able to withdraw 
our forces as a result of victory rather than because of a deadline?
    Secretary Armitage. Our goal is to see the Iraqi people in charge 
of a free and independent, secure and prosperous Iraq. This will be 
possible when the Iraqi people have established themselves as the 
primary defenders of the stability and security that democratic 
governance requires, when their infrastructure has been developed to 
enable economic independence and a better quality of life, and they 
have demonstrated the capacity to hold free elections.

                           DEMOCRACY BUILDING

    14. Senator McCain. Secretary Armitage, I think everybody on this 
committee, even those who opposed the war and currently disagree with 
administration policy in Iraq, would agree that it is in our long-term 
interests to promote democracy in the Middle East. Democracies do not 
seek to develop weapons of mass destruction, they do not breed 
extremism or overtly support terrorism, and they do not launch 
genocidal campaigns designed to wipe out their own ethnic minorities. I 
think that for whatever setbacks we endure on the security front in 
Iraq, I believe that it is still a noble goal that we are pursuing 
there, and one that is clearly in our interests. Consequently, one of 
the key measures of success in Iraq is whether we can actually help 
them on the path to becoming the Arab world's first democracy. One goal 
of our reconstruction mission should be the successful election of a 
Transitional National Assembly by this January, and of a permanent 
Iraqi Government in December 2005. This is obviously an enormous 
undertaking, and in order to get to elections we must help to set the 
right pre-conditions in Iraqi society, or else their first election may 
be their last. What indicators can we use to determine whether or not 
we are being successful in preparing Iraq to become a democracy?
    Secretary Armitage. The Iraqi people already have shown many 
indicators of success. During the CPA period, the creation of the TAL, 
the emergence of democratically selected local councils, new media 
outlets and public dialogue, and increasing civil society activities of 
women and ethnic minorities all indicate progress toward a society that 
respects pluralism and the role of law. The Bill of Rights included in 
the TAL is a comprehensive declaration of fundamental rights and 
freedoms that has no equal in the region. Since the naming of the IIG 
on June 1, its members have made clear their dedication to the 
principles laid out in the TAL and the Annex. They have spoken publicly 
about their commitment to the timelines and the political processes 
outlined in the TAL, and have backed up their words with actions. 
Finally, the institutions that support a transition toward democracy 
have been named and are beginning their work. The members of 
Independent Election Commission of Iraq (IECI) are setting up the 
administration for Iraq's first genuinely sovereign and representative 
elections in January 2005. The national conference is scheduled to 
convene on August 15 to begin a process of national dialogue that will 
help facilitate a unified agenda around which the elections can take 
place. Activities of the Ministry of Human Rights and preparations 
under the Iraqi Special Tribunal also indicate Iraqis' commitments to 
the democratic rule of law.

    15. Senator McCain. Secretary Armitage, how would you rate the 
Iraqi's progress in some of these key sectors?
    Secretary Armitage. A key element of U.S. democracy assistance is 
to help Iraqis learn to make decisions at the grassroots level, rather 
than depend on the central government to make them. The devolution of 
power from the capital down to the smaller cities, towns, villages and 
neighborhoods is giving Iraqis a sense of responsibility for their own 
affairs, something they have not had for many decades. New local 
councils, parent-teacher associations, NGOs, human rights 
organizations, and environmental societies are giving people a voice in 
their own affairs and a say in how they are governed. Iraqis have shown 
they support these projects, participating actively, assuming 
leadership roles, often matching funds and providing services. 
According to USAID figures, more than 80 percent of Iraq's adult 
population have been engaged--either directly or indirectly--in U.S. 
funded projects aimed at promoting democracy. Local advisory councils 
have been formed in 16 governorates, 78 districts, 192 city and 
subdistricts, and 392 neighborhoods.
    U.S. assistance has also provided the local councils with small 
budgets to spend on projects such as fixing schools, traffic controls, 
or public health. Councils also advise the CPA about the area's needs. 
Nearly 700 local, city, and State councils have been established, and 
more than 2,000 community projects have been completed or are underway 
throughout the country. As a result, more than three-quarters of the 
population, either directly or indirectly, have been engaged in 
democracy at the local level. Now Iraqis are beginning to devise 
solutions to problems in their communities, build skills in community 
decisionmaking, and learn how to resolve or lessen conflicts 
peacefully--all hallmarks of a democracy.

    16. Senator McCain. Secretary Armitage, are you confident that 
Iraqis will be able to sustain this progress after the transition to 
Iraqi sovereignty the week of June 27?
    Secretary Armitage. I have every confidence that the Iraqis are 
committed to democracy and to making it work in Iraq. Such government 
institutions as the Ministry of Human Rights and the Independent 
Electoral Commission, an independent judicial system and tribunal, and 
elections scheduled to be held by January to elect a sovereign and 
representative national assembly suggest that the infrastructure to 
guide and safeguard a democratic transition is in place. As the 
evidence indicates, the Iraqi people have already shown their own 
dedication to and enthusiasm for democracy.
                                 ______
                                 
         Questions Submitted by Senator Hillary Rodham Clinton

                           ADDITIONAL TROOPS

    17. Senator Clinton. Secretary Wolfowitz and General Myers, in your 
testimony, you stated that there was no internal debate on the Joint 
Staff over whether additional troops would be needed for the invasion 
of Iraq. Was there any debate over the number of troops that would be 
needed for stabilization operations following the initial invasion?
    Secretary Wolfowitz and General Myers. Yes, as part of the 
``wargaming'' that occurs when we analyze our force requirements, 
numerous options and positions are presented to address the combatant 
commander's needs. There was a considerable effort dedicated to this 
subject, and we are confident that the force levels remain consistent 
with the requirement.

    18. Senator Clinton. Secretary Wolfowitz and General Myers, what 
staff work was done, if any, by the Office of Secretary of Defense, the 
Joint Chiefs of Staff, or CENTCOM to determine the required level of 
troops necessary to stabilize Iraq?
    Secretary Wolfowitz and General Myers. We will continue our ongoing 
effort to ``right size'' the force in Iraq. With Central Command, we 
continue to assess where, and if, we can we will reduce the number of 
forces we have in theater. As conditions warrant, we be able to reduce 
the presence of U.S. and coalition forces, but these reductions will be 
based on conditions or reduced threat and an increase in the 
capabilities of the Iraqi security forces.

    19. Senator Clinton. Secretary Wolfowitz and General Myers, was 
there any internal debate in the DOD over the level of troops that 
would be needed to stabilize Iraq?
    Secretary Wolfowitz and General Myers. As part of our assessments, 
we developed and considered options for troops levels. However, the 
combatant commander on the ground gets the overriding vote. His 
assessments on what he needs to secure Iraq were on the mark. We think 
his assessments to move toward stabilizing Iraq appears are correct, 
and finally, his process to downsize requirements based on threat and 
existing conditions in Iraq are prudent.

    20. Senator Clinton. Secretary Wolfowitz and General Myers, did 
anyone within the DOD, including the Office of the Secretary of Defense 
and the Joint Staff, recommend additional troops for stabilization 
operations before the invasion of Iraq?
    Secretary Wolfowitz and General Myers. We considered many force-
level options on how to source troops in Iraq. However, the final vote, 
with the heaviest ``weight'' was given to the combatant commander.

    21. Senator Clinton. Secretary Wolfowitz and General Myers, did 
other U.S. Government agencies recommend to the DOD that additional 
troops would be necessary for stabilization operations?
    Secretary Wolfowitz and General Myers. The combatant commander 
determined the levels of forces required for post combat stabilization 
operations. He was resourced at the levels requested in a process that 
involved broad interagency oversight and involvement. As circumstances 
on the ground in Iraq have changed force levels have been adjusted 
accordingly.

                     DOD SUPPORT FOR A LARGER ARMY

    22. Senator Clinton. Secretary Wolfowitz and General Myers, CNN 
reported on June 24, 2004 that as many as 6,500 members of the 
Individual Ready Reserve (IRR) could possibly be activated for service 
in Iraq. We continue to stretch our Army but the DOD states there's no 
need for an increase in end strength. However, the strain on our forces 
is obvious.
    Consider the following:

        <bullet> We are making exhaustive use of the Reserve 
        components;
        <bullet> We are deploying 3,600 soldiers from the Republic of 
        Korea to Iraq (some soldiers separated from their families for 
        over 24 months);
        <bullet> We are making use of training units from the National 
        Training Center and the ceremonial Old Guard;
        <bullet> We are activating the IRR soldiers;
        <bullet> We have issued stop-loss orders for over 2 years, 
        extending soldiers beyond their contractual enlistment or 
        retirement;
        <bullet> The Balkan deployments rotations consist of 100 
        percent Reserve component; and
        <bullet> We are seeing reduced personnel in school and 
        headquarters assignments to support the deployments.

    The Senate Authorization bill includes authorization for 20,000 
more troops in the Army. In light of all these factors, will the DOD 
support a larger army?
    Secretary Wolfowitz and General Myers. Several initiatives are 
underway within the DOD to relieve stress on the force by making more 
of our current force available for deployments and high demand 
activities. These include, but are not limited to, military-to-civilian 
conversions, rebalancing of the Reserve components, and Army 
Modularity.
    The Department is converting 20,070 military positions to civilian 
or contractor positions in fiscal years 2004 and 2005. These 
conversions will occur in positions where the work is not deemed 
inherently military in nature. This will in turn make more military 
personnel (end strength) available to the Service Chiefs for more 
critical military tasks. The Department is studying the feasibility of 
expanding this initiative in fiscal year 2006 and beyond.
    Rebalancing of the force is an ongoing activity within the 
department. The Department is currently assessing its force structure 
and rebalancing within the Reserve components and between the Active 
and Reserve components with the expressed purpose of moving forces from 
low demand to high demand specialties and improving readiness and 
deployability. A total of approximately 100,000 spaces will be 
rebalanced in fiscal year 2003 to 2009. These rebalancing efforts will 
shift forces to critical specialties such as Civil Affairs, 
Psychological Operations, Military Police, Special Forces, and 
Intelligence while divesting cold war structure to enable the global 
war on terrorism capability.
    The Army is shifting from a division based force structure to a 
modular combat brigade centric organization. In doing so, the Army will 
increase its operational capability from its current 33 brigade force 
to a 43 brigade force with the flexibility to add an additional 5-7 
brigades if required. This effort begins in fiscal year 2004 and is 
scheduled for completion in fiscal year 2010. By adding 10 (or more) 
additional Active brigades, the Army will increase the rotation base of 
units available for deployment and further reduce the burden on Active 
and Reserve soldiers.
    Military-to-Civilian conversions, rebalancing of the force, and 
Army modularity will have a significant impact on the force and greatly 
increase warfighting capabilities where gaps currently exist. The 
impact will be 20,000 additional troops for the operational force, an 
additional 58,000 positions in high demand specialties, and an increase 
in the rotation base of units available for deployment which will 
reduce the burden on Active and Reserve soldiers. Until these 
initiatives have the opportunity to impact the force, it is not prudent 
to implement the most expensive option to the taxpayer, a permanent end 
strength increase.

    [Whereupon, at 12:56 p.m., the committee adjourned.]

                                 <all>

</pre></body></html>
